<html>
<title> - PADUCAH GASEOUS DIFFUSION PLANT</title>
<body><pre>[Senate Hearing 106-415]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-415
 
                    PADUCAH GASEOUS DIFFUSION PLANT

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
61-413 CC                   WASHINGTON : 2000

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-060366-8




                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                 PETE V. DOMENICI, New Mexico Chairman
THAD COCHRAN, Mississippi            HARRY REID, Nevada
SLADE GORTON, Washington             ROBERT C. BYRD, West Virginia
MITCH McCONNELL, Kentucky            ERNEST F. HOLLINGS, South Carolina
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
CONRAD BURNS, Montana                HERB KOHL, Wisconsin
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
TED STEVENS, Alaska (ex officio)

                           Professional Staff

                             Alex W. Flint
                           W. David Gwaltney
                         Greg Daines (Minority)

                         Administrative Support

                           Lashawnda Leftwich




                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Senator Pete V. Domenici....................     1
Statement of Senator Mitch McConnell.............................     2
Workplace health and safety......................................     2
Site cleanup.....................................................     3
Cleanup and regulatory improvements needed.......................     3
Status of uranium D&D fund.......................................     3
Cleanup priorities...............................................     4
Nature of Paducah contamination..................................     4
Statement of Hon. Jim Bunning, U.S. Senator from Kentucky........     5
Human impacts and exposures......................................     5
DOE 1990 investigation...........................................     6
Statement of Hon. Ed Whitfield, U.S. Representative from Kentucky     7
DOE cleanup effort at Paducah....................................     7
Compensation program.............................................     8
Statement of Hon. Paul Patton, Governor, Commonwealth of Kentucky     9
DOE cleanup priority and schedule................................     9
Prepared statement of Gov. Paul Patton...........................    12
Statement of David Fuller, Paper, Allied-Industrial, Chemical and 
  Energy Workers Union, Local 5-550, Paducah, KY.................    15
Nature of worker exposure........................................    15
Neptunium exposure...............................................    16
Medical and other health benefits needed.........................    16
Cleanup efforts at Paducah.......................................    17
Prepared statement of David Fuller...............................    18
What is needed to protect current and former workers from past 
  and present hazards............................................    18
Statement of Steven B. Markowitz, M.D., Professor, Center for the 
  Biology of Natural Systems, Queens College, New York, NY, and 
  Adjunct Professor, Mount Sinai School of Medicine, New York, NY    28
Medical screening and education program..........................    29
Medical screening effort.........................................    29
Lung cancer screening............................................    30
CT scanning for lung cancer......................................    30
Implementation of CT scanning....................................    31
Prepared statement of Steven B. Markowitz........................    31
The Worker Health Protection Program.............................    31
Enhancing the Worker Health Protection Program...................    32
Lack of access to occupational health care: A core problem for 
  gaseous diffusion plant workers................................    34
Lack of accurate exposure characterization: A core problem for 
  gaseous diffusion plant workers................................    35
Statement of Richard Cranson Bird, Jr., M.D., Beth Israel 
  Deaconess Medical Center, Boston, Massachusetts................    36
Exposure and evaluation of K-25 workers..........................    37
Basis of determination...........................................    39
Change in DOE program office structure...........................    41
DOE compensation program at Paducah..............................    41
Site regulatory responsibilities.................................    41
Lung cancer screening program....................................    42
Impediments to identifying risks and sources of exposure.........    44
Expansion of health research efforts.............................    45
Statement of David Michaels, Ph.D., Assistant Secretary for 
  Environment, Safety and Health, Department of Energy...........    46
Results of phase one study.......................................    47
Prepared statement Dr. David Michaels............................    48
Genesis of the investigation.....................................    49
Conduct of independent investigation.............................    49
Other Paducah-related activities.................................    56
Workers' compensation program....................................    57
Independent regulatory oversight.................................    58
Plutonium and uranium contamination..............................    58
New areas of contamination.......................................    59
Statement of Carolyn L. Huntoon, Assistant Secretary for 
  Environmental Management, Department of Energy.................    61
Environmental legacy of past weapon production...................    61
Long-term cleanup solutions......................................    62
Prepared statement of Dr. Carolyn L. Huntoon.....................    63
Ensuring health and safety.......................................    63
The environmental management program at Paducah..................    64
Cleanup actions to date: The most immediate off-site threats have 
  been addressed.................................................    65
We have taken interim actions to mitigate off-site contamination 
  sources........................................................    65
Progress and plans to address longer-term threats................    66
Funding the cleanup of the Paducah site..........................    67
Actions in response to recent investigations at Paducah..........    68
Statement of Jim Bickford, Secretary of Natural Resources and 
  Environmental Protection, Commonwealth of Kentucky.............    69
Characterization of site contamination...........................    69
Site contamination...............................................    70
Statement of Richard D. Green, Director, Region IV, Waste 
  Management Division, Environmental Protection Agency...........    71
Cleanup needs....................................................    71
New funding structure............................................    72
Depleted uranium cylinders.......................................    73
Paducah cleanup cost.............................................    74
Additional cleanup sites.........................................    75
Bechtel-Jacobs cleanup contract..................................    75
Layoffs at gaseous diffusion plants..............................    76
Use of Paducah cleanup funding...................................    76


                    PADUCAH GASEOUS DIFFUSION PLANT

                              ----------                              


                       TUESDAY, OCTOBER 26, 1999

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:36 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, McConnell, and Craig.

  Paducah Gaseous Diffusion Plant Workforce Safety and Exposure Issues

                 opening statement of Pete V. Domenici

    Senator Domenici. The hearing will please come to order.
    Governor Patton. Am I supposed to be with the next panel, 
Senator?
    Senator McConnell. Governor, why do you not just stay. It 
is fine.
    Senator Domenici. Good morning, everyone, and welcome to 
those who are going to testify, those who are here to observe, 
and welcome, members of the press, to this subcommittee 
hearing.
    This is the Energy and Water Development subcommittee, kind 
of a misnomer in the sense it is charged with funding the water 
projects of this country, but on the other side of the ledger 
it is charged with funding all of the nuclear activities that 
pertain to the defense of our Nation along with the Department 
of Energy's non-nuclear research projects. It has fallen to 
this subcommittee over time to try to handle the cleanup in the 
nuclear waste activities of our Nation since the origin of the 
atomic bomb.
    There is no doubt that this morning the committee meets to 
consider environment, safety, and health issues associated with 
the operation of the Paducah uranium enrichment plant while it 
was operated by the Department of Energy. Senator McConnell has 
shown real leadership in putting together this hearing. The 
witnesses are experts in their fields and I think the 
subcommittee is going to be very well informed after today's 
hearings.
    I want to assure both Senators, Senator Bunning and Senator 
McConnell, and the others here that the committee takes its 
obligation of clean up very seriously. We are massively 
oversubscribed in that regard. There is more to do than can 
possibly be done in the foreseeable future. However, the 
subcommittee has shown real enthusiasm for this--the 
establishment of priorities that will ensure that the Federal 
Government meets its obligations.
    As Senator McConnell knows, I will not be able to stay for 
the entire hearing this morning, but I am delighted to open it 
and will be here as long as I can.
    With that, I am now going to welcome Senator Bunning, 
Governor Patton, Congressman Whitfield, and I am going to yield 
to Senator McConnell, who will preside over the hearing.
    Senator McConnell.

                     statement of Mitch Mc Connell

    Senator McConnell. Well, thank you, Mr. Chairman. I 
appreciate very much your making this subcommittee hearing 
today possible.
    Today, the Energy and Water Subcommittee will investigate 
the reports of the Department of Energy's failure to properly 
protect the safety of the work force and the environment at the 
gaseous diffusion plant in Paducah. It is the goal of the 
subcommittee to gain a clear understanding of what has 
occurred, in many cases what has not occurred, and what must be 
done to properly accelerate cleanup, protect worker safety, and 
identify the health problems related to exposure to plutonium.
    I would also like, as I indicated earlier, to thank again 
Senator Domenici for giving me an opportunity to chair the 
hearing today.

                      Workplace health and safety

    On August 8, the Washington Post ran a series of stories 
based on very serious allegations that the Department of Energy 
used recycled nuclear fuel that was laced with plutonium and 
other radioactive material without informing the work force 
that handled this highly toxic material. As a result, an 
estimated 15,000 former workers and 5,500 current workers at 
the three gaseous diffusion plants have been put in harm's way.
    In the intervening 3 months, much more has come to light 
about what happened at the Paducah plant. We also have 
uncovered several documents dating from the 1950's, when 
production first began at the plant, that identify problems in 
the area of worker protection and DOE's failure to disclose 
these findings to the workers.
    Whether it was a 1952 memo acknowledging that plutonium is 
a greater hazard than uranium, a March 1960 document 
identifying the presence of neptunium, which is highly 
radioactive, and the Department's efforts to conceal this 
information from workers, a 1980 report by the Comptroller 
General finding that Oak Ridge operations had failed to 
effectively implement its health and safety program, or a 1990 
tiger team report which identified many of the same regulatory 
errors that recently have been identified again 10 years later 
in DOE's phase one investigation, what is clear from all these 
documents is the half century of dangerous activity and 
deception in Paducah.
    From reading this record, it is clear that DOE at worst 
lied about the presence of harmful contaminants and at best 
covered up this information, both of which are unacceptable. It 
is abundantly clear from these reports that the Department is 
unable to adequately perform its job as site operator and 
independent regulator. It is like putting a mouse in charge of 
the cheese.
    Changes must be made. They must be made now. One place to 
start is that we move forward and monitor workers for illness 
possibly connected with their work at the enrichment 
facilities.

                              site Cleanup

    During the Paducah field hearing on September 20, 1990, the 
DOE site manager testified that the Department spends 89 
percent of its annual cleanup budget in meeting the existing 
environmental standards, leaving just 9 percent going toward 
future cleanup. Let me repeat: For every one dollar spent in 
Paducah, about a dime goes to clean up the mess, 90 percent is 
spent on paperwork and regulation not directly related to 
solving the problem.
    For the last 10 years the Department has spent $400 million 
and done little to remove the worst contamination. Today our 
goal is clear: We need to insist that DOE spend future 
appropriations on the elimination of contamination, not on the 
creation of paperwork.

               Cleanup and regulatory improvements needed

    While I support most of the modest reforms identified in 
the phase one investigation, I believe the Department must 
consider a number of more substantive and bold reforms. These 
measures will shake up the bureaucratic chain of command and 
may help put an end to the constant tug of war within DOE that 
has hindered the flow of funding for Paducah and hampered the 
progress of the cleanup.
    Careful consideration must be given to establishing an 
independent regulator at the Paducah and Portsmouth sites to 
ensure that worker and environmental protection always remains 
a priority. Foremost among the Department's priorities should 
be the expansion of the worker health testing program, 
including providing important lung screening that can assist in 
identifying early stages of lung cancer.
    The administration also must do more to tap the available 
surplus in the uranium decommissioning and decontamination fund 
to ensure that the revenue collected for cleanup actually goes 
to cleanup. After reviewing the phase one investigation, it is 
clear to me that very little has actually been cleaned up, 
despite the Department's having spent $400 million of the 
taxpayers' money.
    Further, it is clear that DOE has failed to prioritize 
cleanups on risk. This has resulted in budget requests that 
fail to address areas like Drum Mountain, which is depicted in 
the chart that we have back here. This is Drum Mountain. That 
is a picture of it today.

                       status of Uranium D&D fund

    It is also important to note that the current balance in 
the uranium cleanup trust fund, which provides funds for the 
cleanup of the three gaseous diffusion plants, currently 
maintains a $1.6 billion surplus. Based on current spending, 
current spending projections, this account is estimated to grow 
to $6 billion by 2007. Considering the massive surplus in the 
trust fund, the administration must make the cleanup in Paducah 
a priority within its overall budget, as well as set a new 
corrective action plan for Paducah and Portsmouth that will 
accelerate cleanup at the sites.

                           Cleanup priorities

    Another important reform DOE must consider is allowing 
Paducah and Portsmouth to set their own cleanup goals and 
objectives, instead of accepting the priorities set several 
hundred miles away in Oak Ridge, TN. Based on the information 
contained in the phase one investigation, it is apparent that 
Oak Ridge has been negligent in its oversight and has not been 
responsive to cleanup needs or to protecting worker health and 
safety.
    I think a good example of the Department's inattention to 
risk cleanup is best illustrated by an October 30, 1996, 
project manager's meeting notes that I will have included in 
the record. The notes document the debate between DOE and 
Tennessee State regulators on whether or not to spend $250 
million to clean up three buildings in Oak Ridge, even though 
they are not a risk-based priority. This year the Department 
will spend $62 million to clean up these buildings, which is 
$25 million more than DOE had budgeted for the entire Paducah 
effort.
    It is examples like these that demonstrate DOE's poor 
judgment when it comes to assessing cleanup priorities. By 
empowering Paducah and Portsmouth to make their own cleanup 
decisions I believe much more can be accomplished in a shorter 
amount of time.
    We look forward to hearing from the witnesses today to 
determine whether these moderate reforms proposed by DOE and 
the more substantive reforms I have raised for consideration 
will achieve the goals that I have laid out, to make worker 
testing a priority and to accelerate cleanup.

                    nature of Paducah contamination

    But before we get started, I just want to explain what we 
have behind us. The chart 1 here is of Drum Mountain. This is a 
site which covers five acres, contains five concentrations of 
radioactive contamination, and continues to contribute to soil 
and groundwater contamination. Every time it rains, it washes 
more and more radioactive contamination into the groundwater, 
which further complicates DOE's cleanup efforts.
    In the second picture, a little further over, is a 
radioactive black ooze that was haphazardly uncovered by DOE's 
staff when they were investigating offsite contamination. The 
material was found nearby the so-called sanitary landfill. If a 
picture says a thousand words, this one has to say a lot about 
DOE's level of protection. You will notice here that this stand 
is not even upright, not that that would provide much 
protection anyway or much notice to people to stay away from 
it. But the stand is even knocked over. And this is the black 
ooze.
    As we have indicated, these are the drums that the 
Governor, Senator Bunning, and Congressman Whitfield and I are 
all too familiar with because we have seen them.
    Senator Domenici. Thank you. I will stay for just a while 
longer.
    I want to also recognize that we have Senator Bunning and 
Congressman Whitfield here, Members of Congress, and in their 
instances, in their respective bodies and committee work, they 
have indicated a serious and abiding interest in trying to 
resolve this. I understand Senator Bunning as a member of the 
Energy and Natural Resources committee has already conducted a 
hearing in the State, and we welcome you here today.
    Governor, with your permission we will start with Senator 
Bunning and then we will go to Congressman Whitfield, and then 
we will welcome you for your remarks.
    Senator Bunning.
STATEMENT OF HON. JIM BUNNING, U.S. SENATOR FROM 
            KENTUCKY
    Senator Bunning. Thank you, Senator Domenici and Senator 
McConnell. I appreciate you holding this hearing today, 
focusing some very much needed attention on the problems 
surrounding the gaseous diffusion plant in Paducah, KY, and 
hopefully starting us on the path to some solutions to the 
problems.
    Last month on September 20, at my request the Senate 
Committee on Energy and Natural Resources held a field hearing 
in Paducah. Our hearing focused primarily on gaining some input 
from the people who have been directly involved at the gaseous 
diffusion plant, the workers. I would like to give you a brief 
synopsis of what we heard from those workers during that 
hearing. I think their testimony clearly demonstrates how 
serious this problem is.

                      Human impacts and exposures

    For example, we heard from Mr. Eugene Stallings, who used 
to work in what they called the C-410 feeding plant building, 
where used reactor fuel rods were ground up and mixed with 
fluorine to start the uranium enrichment process. Or, as Mr. 
Stallings put it, ``this is where they made the hot stuff.''
    One of Mr. Stallings' jobs was to make sure that the pipes 
carrying this dangerous material did not get plugged. 
Periodically, however, according to Mr. Stallings, some of the 
lines would plug and you would have to use a rod to punch out 
the frozen material, sometimes for as long as 8 hours working 
in these pipes with the hot stuff.
    It was later determined that the hot stuff Mr. Stallings 
worked with, without benefit of a respirator, was 700 times 
more radioactive than a person should have been exposed to.
    Mr. Stallings was followed by D.R. Johnson, a former welder 
at the plant. Mr. Johnson was required to work in an 
environment that was routinely filled with thick smoke and 
dust, that for the most part included asbestos and PCB's. 
However, he was never provided a respirator or protective 
clothing. In fact, Mr. Johnson told us how he was taken off the 
line because at one point he tested hot.
    Nobody explained to him what being ``hot'' actually meant. 
He asked, but he was told there was always someone else that 
could do his job and that if he did not like it he could hit 
the road.
    We also heard from Mr. Michael Roberts, who worked in the 
410 feeder building. He told the committee that at the time the 
proper equipment for changing filters was considered to be a 
jacket taped at the cuffs, bath towels stuffed around the 
collar and draped over your head, and World War II type gas 
mask. ``It was the only thing we could do to keep the powder 
off our skin.''
    Finally, Mr. Philip Foley, a 24-year veteran of the plant, 
told us that when he first started working at the plant they 
would dispose of contaminated waste by pouring it into barrels 
and tossing them into ponds. At the time those barrels would 
burst into flames, creating huge plumes of contaminated smoke. 
But they were told not to worry and to just throw dirt on the 
fire and cover it up.
    As worker after worker testified, it became clear that this 
was not just a few disgruntled employees blowing the whistle on 
a couple of bad managers. It became clear that the horror 
stories of inadequate safety procedures or equipment and 
improper, haphazard disposal of hazardous wastes were not 
isolated incidents, but that they were prevailing standard 
operating procedure at this plant for many years, endangering 
the health of the workers at the plant and jeopardizing the 
health of the neighboring community.
    The frightening thing is that we do not know even now the 
extent of the problem. We do not know where the waste was 
buried. We do not know where all the ponds are that had barrels 
dumped in them.

                         DOE 1990 investigation

    We do know this: In 1990 the Department of Energy sent a 
so-called tiger team to investigate reports of environmental 
problems at the plant. What they found was an area devastated 
by years of unsafe dumping, with possible radioactive wastes 
seeping into the drinking water supply and workers inadequately 
trained and protected from radioactive waste.
    That tiger team report must have been rather toothless, 
because now, nearly 10 years later, the Department of Energy 
phase one investigation reports that there is still radioactive 
waste seeping into the water supply, that the workers are still 
not being provided with adequate amounts of training and 
equipment, and that we still do not know where all the waste 
might be buried.
    Ten years have gone by, $400 million has been spent, and 
nothing has changed. Not one contaminated drum has been 
removed. Not one ounce of spent uranium has been converted. And 
the plume of contaminated waste that includes PCB's continues 
to flow toward the Ohio River.
    Mr. Chairman, something needs to change. We cannot wait 
another day to do it. The workers in this plant have been 
betrayed. The community which supported this facility has been 
betrayed. They trusted the U.S. Government. It is time to 
provide the resources to clean up this mess, to provide health 
care benefits to those who need it, and to correct the 
environmental damage that has been done.
    Some experts estimate that it will cost nearly $1 billion 
to clean up the Paducah site. I know this is a large sum of 
money, but after touring the plant and seeing the mountains of 
contaminated drums, the acres of canisters filled with 
dangerous spent uranium, and following the plume of waste that 
is spreading in the area's drinking water and the Ohio River, 
it is time to deliver.
    It is a lot to ask for, but hopefully after today's hearing 
you too will recognize what we are up against and provide the 
necessary resources to begin the cleanup process in Paducah. 
Mr. Chairman, I urge you and the rest of your colleagues on the 
committee here today to do just that.
    I thank you for the time that you have given me.
    Senator Domenici. I am now going to yield the chair to the 
distinguished Senator from Kentucky. Thank you very much.
    Senator McConnell [presiding]. Thank you, Mr. Chairman.
    Thank you, Senator Bunning, not only for having the first 
hearing in Paducah on the 20th, but being here today.
    I also want to at this point call on Congressman Whitfield, 
who is a member of the House Commerce Committee and the 
Subcommittee on Oversight and investigations, which held a 
hearing on September 22 over on the House side. Ed and Jim have 
both been deeply involved in this and I want to give 
Congressman Whitfield an opportunity now to bring us up to date 
on his thoughts on the subject.
STATEMENT OF HON. ED WHITFIELD, U.S. REPRESENTATIVE 
            FROM KENTUCKY
    Mr. Whitfield. Well, Senator McConnell, thank you very 
much. I am delighted that this hearing is being held. I would 
just say to you that it has been quite helpful working with 
your staff on this issue, with Senator Bunning's staff, as well 
as people from the State of Kentucky, Governor.
    I will simply comment on the focus of the September 22 
hearing held by my Subcommittee on Oversight and Investigations 
and share my general observations on what has happened in the 
past and what should happen in the future. The House hearing 
had three panels of witnesses. We heard from the relaters in 
the lawsuit filed against one of the former plant contractors 
under the False Claims Act. We heard also from representatives 
of the former and current contractors, as well as employees at 
the plant. And we heard from Federal and State regulators 
responsible for overseeing work at the production facility and 
in the area of environmental management and cleanup.
    After a full day of testimony and a series of meetings, I 
have reached personally the following conclusions. The 
Department of Energy has been deficient in overseeing the work 
of prime contractors at the site. I will say that the 
Department of Energy at this time seems to be recognizing that, 
acknowledging that, and moving forward and trying to solve some 
of these problems.
    The prime contractors have failed to properly protect the 
health and safety of the workers and, although the prime 
contractors have changed periodically and there is a perception 
that change is taking place, frequently the management team of 
those contractors has not changed, and as a result some of the 
same mistakes continue to be made.

                     DOE Cleanup effort at Paducah

    As was stated in your opening statement, the vast majority 
of environmental cleanup funds are spent simply to comply with 
existing regulations, thereby resulting in very little actual 
cleanup. As a matter of fact, nationwide last year $5.8 billion 
was appropriated for cleanup of the DOE sites around the 
country and over $3.5 billion of that was spent in compliance 
alone. So not only is this occurring in Paducah, but nationwide 
very little money is going for actual cleanup.
    Cleanup efforts at Paducah and Portsmouth should not be 
managed, in my view, by decisionmakers at Oak Ridge, TN. Last 
year $240 million was appropriated for cleanup, and of that 
Paducah received $37 million. The Paducah and Portsmouth plants 
in my view are not being treated in an equitable manner in the 
distribution of cleanup funds.
    Generally speaking, I have also concluded there have been 
serious operational deficiencies that continue to be within 
DOE's area of responsibility. Workers have not been properly 
notified of potential threats to their health and safety. They 
have not been properly clothed, equipped, or monitored when 
exposed to dangerous hazardous materials. Records of exposure 
to radioactive and toxic substances are incomplete and 
inaccurate. Environmental hazards have not been properly 
characterized even today. Remediation of existing contamination 
is too slow and costly and funding shortfalls also have slowed 
our progress.

                          Compensation program

    As I stated from the outset of this controversy, our number 
one priority, my number one priority, is the health and safety 
of the workers at the plant and the citizens in the surrounding 
communities. I believe it is imperative that we adopt 
legislation to establish a Federal compensation program for 
employees who have suffered illness as a direct result of the 
exposure to these radioactive materials.
    Secretary Richardson recently announced that they were 
expanding the program to take care of workers who had been 
exposed to beryllium. We should do the same thing for those 
exposed to radiation.
    In addition, I would say that the medical monitoring 
program which is now in existence should be extended to current 
workers as well as past workers, and that the most recent 
technology, such as CT scanners, should be used to help 
determine if some of these workers have cancer or other 
illnesses.
    I would also say that later this morning you are going to 
hear from the president of the local PACE union at Paducah, 
David Fuller, his associate Jimmy Keyes. They have been quite 
valuable to all of us in this process. It has been one of those 
issues where everyone could become quite emotional about it and 
overreact, and I know that David and his associates have been 
under pressure, and they have reacted in a calm manner, trying 
to come forward with constructive solutions, and I am delighted 
that they will be testifying today.
    Thank you very much, Senator, for giving me the opportunity 
to testify this morning. I am delighted that we are focusing on 
this issue. It is a very serious issue and I know that we can 
come up with some solutions.
    Senator McConnell. Thank you, Congressman Whitfield, for 
your aggressive action across the board on this important 
subject.
    I just might say to our witnesses, Senator Bunning and I 
have a vote at 10:00 o'clock and I think the best way to do 
this would be to excuse Senator Bunning and Congressman 
Whitfield and, Governor, Jim and I will go vote, and then I 
will be back and then I will be back and take your testimony. I 
think that way we will not have to interrupt what you have to 
say.
    So the hearing is recessed while I go vote.
    [A brief recess was taken.]
    Senator McConnell. The hearing will come to order once 
again.
    I want to apologize to the Governor for having to run vote, 
but that happens from time to time. We are very happy to have 
you here, Governor. I know you have been very active having 
been down to the plant several times. We are anxious today to 
get your view from the perspective of the Commonwealth of 
Kentucky on the cleanup issue at the plant. I want to thank you 
very much for the leadership you have shown and welcome you 
here today, and look forward to hearing from you.
STATEMENT OF HON. PAUL PATTON, GOVERNOR, COMMONWEALTH 
            OF KENTUCKY
    Governor Patton. Thank you, Mr. Chairman for your remarks, 
and thank you for the opportunity to discuss with you the 
problems at the Paducah gaseous diffusion plant and to ask that 
this subcommittee work with the Commonwealth of Kentucky to 
ensure that the Federal Government honors its moral obligation 
and contractual commitment to clean up the contamination in 
this area by the year 2010. I have submitted a more detailed 
statement for the record and I will try to summarize it for you 
now.
    Mr. Chairman, it is time for the Federal Government to do 
right by the city of Paducah, a city that has been loyal to 
this plant for 47 years. When the allegations contained in the 
Federal whistleblower lawsuits first began to draw national 
attention in August, I asked my staff and cabinet to report to 
me whether we were currently doing all we could to protect the 
workers at the plant and the health of the general public and 
the environment in the area.
    Like yourself, Senator Bunning and Congressman Whitfield, I 
have personally toured the site in August and spent some time 
with the workers to see if they felt comfortable with the 
safety procedures that are in place at the plant currently. At 
that time these workers told me they felt safe, but were 
concerned about what may have happened in the past.
    I have also concluded that at the present time the State is 
doing all it can to contain threats to the general public's 
health and safety and is doing all we can to monitor compliance 
with accepted environmental practices.

                   DOE cleanup priority and schedule

    But the problem gets worse every day it is not addressed. 
Despite the fact that I found no current danger to public 
health in the region, my administration's efforts have led me 
to one obvious and inescapable conclusion: This site is one of 
the most environmentally contaminated in the South, and the 
Federal Government is not devoting the necessary funds to meet 
its obligation to clean it up.
    In 1994 this site was placed on the national priorities 
list, and after that designation our natural resources and 
environmental protection cabinet entered into an agreement with 
the U.S. Department of Energy and the Environmental Protection 
Agency whereby the Department of Energy agreed to fund and 
complete the cleanup of the site by the year 2010. We wanted 
and felt it would be reasonable to have this work done by 2007, 
but in an effort to be cooperative we accepted the later date.
    But we now discover that, based on the current rate of 
progress, it will not be cleaned up in our lifetime. I will 
leave the details of the contamination at the site to later 
panels of regulators, but I can assure you that we have now 
determined that the situation is more serious than we first 
thought. This subcommittee needs to know that this is a site 
with, as you say, acres of radioactively contaminated waste 
materials and scrap and metal piles that you have illustrated, 
open ditches contaminated with elements like plutonium, a 
radioactive underground water plume moving toward the Ohio 
River at an alarming rate, and 37,000 cylinders of depleted 
uranium stored outdoors, exposed to the elements, and 
inadequately protected from deterioration.
    As I have learned more about the environmental hazards at 
the site, I have become most alarmed, not by the extent of the 
contamination, which is very alarming, but by the fact that the 
Department of Energy currently does not have, nor does it plan 
to request in the near future, sufficient funds to address 
these serious environmental dangers. Mr. Chairman, the people 
of Paducah and the lower Mississippi River Valley deserve 
better than that.
    Our best estimate is that it will require at least $200 
million a year for the next 10 years to address this issue. The 
Department of Energy has planned budget requests totaling only 
$630 million through fiscal year 2010, far short of the $2 
billion that we estimate this project will cost.
    Even more disturbing, these inadequate projected requests 
anticipate huge funding increases beginning in 2007. Their 
projections for the next 7 years average less than $50 million 
a year.
    Environmental management funding at Paducah has been about 
$38 million a year over the last several years, and of this $38 
million only about $11 million per year has been actually going 
to environmental remediation at the site. They are not planning 
to do much more during the next 7 years than they are already 
doing, and it will be impossible physically and financially to 
cram this much remediation into the last 3 years of the 
agreement.
    Lacking detailed facts, our estimates are just that. But do 
not take our word for it. As you illustrated with this phase 
one independent study, it illustrates that they have admitted 
that the current cleanup schedule is totally unrealistic based 
on the current funding levels and, two, the estimated cleanup 
costs are based on faulty assumptions, such as unproven 
technologies and leaving hazardous materials on site, which is 
not acceptable to us.
    It is time for the Department of Energy to reassess the 
costs of this cleanup and to be forthcoming about the true 
projected costs. Mr. Chairman, the Congress has already made 
provisions to fund this cleanup. The Department of Energy 
environmental management activities at the site are funded, as 
you mentioned, from the Uranium Enrichment Decontamination and 
Decommissioning Fund. The total appropriations from this fund 
for fiscal year 1999 was about $220 million, of which Paducah 
received about $36 million.
    We believe that this is not a fair or rational division of 
that $220 million, and it disturbs me that the responsible 
officials believe that Oak Ridge should get over 60 percent of 
this money and Paducah less than 20 percent.
    But even more disturbing is the fact that the D&D fund 
takes in almost $610 million a year, as you noted, and only 
$220 million is appropriated for its intended use. The D&D fund 
has a positive balance, again as you mentioned, of $1.5 
billion. Mr. Chairman, it is time for the Federal Government to 
accept responsibility for the problem and to begin to eliminate 
it.
    As I have discussed with you previously, I am asking the 
Congress, the Department of Energy, OMB, and the White House to 
immediately appropriate an additional $100 million to the 
cleanup at Paducah so we can adequately document the problem 
and begin the cleanup in a serious way. Only a figure of this 
magnitude can get us moving toward completing the cleanup by 
2010.
    I have already informed the administration if they are 
going to be an environmental administration in a regulatory 
fashion, passing the costs along to the customers of private 
companies, then they must also be an environmental 
administration in a matter of Federal financial responsibility.
    I have in the strongest terms urged the administration to 
ask for enough funds to do this job. If they do, I ask the 
Congress to approve it. If they do not, I ask the Congress to 
ensure that our government keeps its commitments to the people 
of the region affected by this problem.
    I call upon the Congress to find a way to work with the 
Department of Energy to fully fund the D&D program for its 
intended purposes and to make certain that funds are available 
to complete the cleanup at Paducah by 2010.
    I stand ready to work with the White House, the 
Congressional delegation, and the political leadership of both 
parties in this effort. But I am determined to get the process 
accelerated and to see to it that the agreement reached last 
year is implemented. As a result of signing the Federal 
Facilities Agreement, the Commonwealth now has several legal 
means at its disposal to ensure that the cleanup proceeds in a 
timely manner. If current funding levels are maintained, the 
Commonwealth believes that DOE will be in default of that 
agreement as early as fiscal year 2001.
    Let me assure you, the people of Paducah and Kentucky that 
I will continue my efforts on this issue and that our 
administration will use every political or legal means at our 
disposal to make certain that the obligations of the Federal 
Government are met. We can in good conscience do no less.
    Thank you, Mr. Chairman, for your attention. Let me add to 
the record our estimation of--and I do not believe this was in 
my testimony--our comparison of the DOE's estimate and our 
estimate, differs by about $1.2 billion. I would like to add 
that to the record.
    Senator McConnell. I appreciate that, Governor. We will 
make that a part of the record.
    Governor Patton. And I would like to note that this is a 
three-State effort. I have a letter which is being mailed to 
all of the members of the subcommittee from the Governors of 
Kentucky, Tennessee, and Ohio. That should have been mailed or 
will be mailed to each member of the committee.

                           prepared statement

    With that, Mr. Chairman, thanks for your attention and I 
would be glad to answer any questions.
    [The statement follows:]

                 Prepared Statement of Gov. Paul Patton

    Mr. Chairman, members of the subcommittee, I appreciate the 
opportunity to appear before you today to highlight the ongoing 
environmental concerns in and around the Paducah Gaseous Diffusion 
Plant and to ask that this committee work with the political leadership 
of the Commonwealth of Kentucky to ensure that the federal government 
honors its moral obligation and contractual commitment to cleanup the 
contamination in that area by the year 2010.
    The Paducah Gaseous Diffusion Plant was opened in 1952 and has been 
in operation since that time. It initially processed nuclear materials 
for the military, but in the mid 1960s, its mission shifted to the 
commercial focus of enriching uranium for use in nuclear reactors. The 
800 acre plant is located on approximately 3,400 acres of federal land 
about three miles south of the Ohio River and twelve miles west of 
Paducah, and has been the largest employer in the area since the 1950s.
    From an economic standpoint, the plant has been good for Paducah. 
It has provided many, good-paying jobs to the region. It has been a 
stable force in the local economy. And in turn, McCracken County and 
the City of Paducah have been good to the federal government. They have 
accepted the uranium enrichment complex in their region and have valued 
it as an employer. Paducah has proven itself to be a city that is 
tolerant of this activity, and its population has become educated on 
the uranium enrichment process and has learned to separate legitimate 
concerns from exaggerated fears. Paducah has stood well by the federal 
government in this effort.
    Now it is time for the federal government to do right by Paducah.
    When the allegations contained in the federal whistleblower 
lawsuits first began to draw national attention in August, I asked my 
personal staff, led by Jack Conway, to work with our cabinets in 
Kentucky State Government and report to me on whether the Commonwealth 
had been negligent in the past or whether we were currently doing all 
we could to protect public health and the environment in the area. Like 
Senators McConnell and Bunning, and Congressman Whitfield, I personally 
toured the site in August and spent time with some of the workers to 
see if they felt comfortable with the safety procedures that are in 
place at the plant. While visiting with the workers, I heard that, by 
and large, they felt well trained for the materials they handle, and 
had general confidence in the safety procedures currently in place at 
the facility. Some expressed concerns about what they had heard of past 
practices, but they felt generally positive about current safety.
    After consulting with the Kentucky state agencies responsible for 
monitoring the environment and public health, I concluded that Kentucky 
is doing all we can presently do to contain threats to public health 
and all we can presently do to monitor compliance with accepted 
environmental practices--although we have been prevented by the federal 
government from monitoring these activities like we would have had this 
operation been conducted by a non-governmental entity. In August 1999, 
our cabinets established toll free numbers to answer citizens' 
questions and offered a voluntary well-testing program for any nearby 
resident who wished to have their water tested. This was in addition to 
the radiation monitoring and control program the Commonwealth already 
had in place outside the facility fence.
    Despite the fact that I have seen no imminent threat to public 
health in the region, my administration's efforts have led me to one 
obvious and inescapable conclusion. The Paducah Gaseous Diffusion Plant 
site is one of the most environmentally contaminated in the South, and 
the federal government is not devoting the necessary funds to meet its 
obligation to clean it up. And although there is no immediate threat, 
the nature of the environmental threat is growing and could eventually 
impact public health.
    In 1994, this site was placed on the National Priorities list under 
the Superfund legislation as one of the most contaminated sites in the 
country. Pursuant to that designation, our Natural Resources and 
Environmental Protection Cabinet entered into a tripartite Federal 
Facilities Agreement with the U.S. Department of Energy (DOE) and the 
USEPA, whereby the DOE agreed to fund and complete the cleanup of the 
site by the year 2010. This agreement was finally signed in 1998 and 
contains significant milestones to be achieved along the path to 
completion of the cleanup process. We wanted, and felt it would be 
reasonable to have this work done by 2007. Based on the current rate of 
progress, it won't be cleaned up in our lifetime.
    Working together, these three agencies have identified many areas 
that must be remediated in order to complete the cleanup. I will not go 
into detail on all of the items to be addressed, but I feel the 
subcommittee should hear a little about some of the major concerns.
    First, the area known as ``Drum Mountain'' is a major concern. Drum 
Mountain (a portion of which is blown up in the photo behind me) is 
five acres of radioactively contaminated waste materials and scrap 
metal contained and accumulated on-site since the 1950s. It constitutes 
a significant environmental hazard because dispersion and surface water 
runoff contribute to contamination of the area. Moreover, our state 
agencies suspect that uncharacterized waste materials are disposed of 
beneath Drum Mountain and that its seepage and these waste materials 
are contributing to the contamination of the migrating groundwater 
plumes.
    Second, the groundwater plumes, which I just mentioned, are a 
source of significant concern. These plumes contaminate an underground 
aquifer of 60-110 feet in depth and are migrating toward the Ohio River 
in a northwesterly and northeasterly direction. In its recent Phase I 
investigative report on Paducah, DOE's investigative team admitted that 
they do not know how far the plume has traveled. Additionally, DOE is 
having difficulty stopping the advance of the plume with its pumping 
and treatment because it cannot fully identify the source of the 
contamination. Our agencies believe that the plumes have reached the 
Ohio River and are dispersing radioactive Technetium-99 into the river.
    Third, surface water runoff and groundwater migration have led to 
the detectable contamination of Technetium-99, PCBs and trace amounts 
of transuranics in Little and Big Bayou Creeks, which are tributaries 
of the Ohio. This contamination must be remediated.
    Fourth, the North-South Diversion Ditch, which has tested positive 
for higher than expected amounts of transuranics such as plutonium and 
neptunium, must be addressed. At present, we understand that workers at 
Paducah were not even warned that this ditch was contaminated with 
transuranics. It sits exposed and is not contained in any manner. This 
ditch is adjacent to the major buildings on site suspected of 
transuranic contamination, and in addition to the ditch, these 
buildings must be cleaned up and decommissioned.
    Fifth, all solid and hazardous waste landfills and disposal areas 
must be identified and characterized by DOE. The Commonwealth has 
identified to DOE over 200 potential hazardous and solid waste disposal 
areas on site--about three-fourths of which DOE has failed to fully 
identify and characterize. In addition, DOE must characterize and 
remove any radioactive materials contained at two landfills that have 
been seeping radioactive material.
    Sixth, DOE must expeditiously address the drums and cylinders 
currently in outdoor storage. At present, DOE has over 8000 drums of 
low-level radioactive waste stored outdoors in containers not designed 
for long-term storage. Also, although not contained as a milestone in 
the Federal Facility Agreement, DOE maintains over 37,000 cylinders 
(over 400,000 metric tons) of depleted Uranium on site. This material 
must be converted to a more stable form before it is either removed or 
properly stored.
    As you can see from my brief and non-inclusive list of some of the 
significant environmental hazards, Paducah is a site that demands the 
immediate attention of the DOE and the federal government.
    As I have learned more about the nature of the environmental 
hazards at the Paducah site, I have become most alarmed not by the 
extent of the contamination (although it is alarming)--but by the fact 
that the DOE does not currently have, nor does it plan to request in 
the near future, sufficient funds to address these environmental 
concerns.
    Mr. Chairman the people of Paducah and Kentucky deserve better than 
that.
    Until very recently, the DOE has estimated that it would take a 
little over $700 million to complete the cleanup by 2012--and has 
planned budget requests totaling only $630 million through fiscal year 
2010. These projected funding figures anticipated huge funding 
increases beginning in 2007--despite the fact that the environmental 
and site management at Paducah has been funded at approximately $38 
million per year over the last several years. Moreover, since 1995, 
environmental funding at Paducah has been steadily declining.
    Mr. Chairman and members of the subcommittee, in the Paducah Phase 
I report released by DOE last week, their investigative team basically 
admitted two critical facts. First, it admitted that the current 
cleanup schedule is unrealistic based on current funding levels--and 
that at current levels, the cleanup cannot be completed before even 
2020.
    Second, DOE's investigative team admitted DOE's estimated cleanup 
costs are based on faulty assumptions. In particular, the report 
reveals that the DOE's future funding numbers are based on proposed 
savings through recycling of hazardous scrap metal, limiting the number 
of remedial investigations despite the extent of the problem, capping 
all waste material found on-site (instead of removing it) and replacing 
the current pump and treat water remediation with an untested 
alternative. The report goes on to say that cost savings such as these 
have never been previously demonstrated.
    Mr. Chairman it is time for the Department of Energy to reassess 
the cost of this cleanup and to be forthcoming about the true projected 
costs.
    When I first began to understand the magnitude of this under-
commitment of funds, I asked our cabinets and agencies to independently 
assess what they believed the cleanup would actually cost. After 
working through the milestones contained in the agreement, Kentucky 
State Government now believes that in order to complete the 
environmental cleanup at Paducah by the year 2010, the cost will be 
closer to $1.37 billion. If you factor in the funds necessary for the 
conversion of the depleted uranium in the exposed cylinders and final 
assessment and management costs, the figure rises to $1.9 billion. I 
have provided the subcommittee with attachments to my written statement 
that elaborate upon the Commonwealth's assumptions and that show where 
we differ from those of DOE.
    At present, the DOE environmental and site management activities at 
the Paducah Gaseous Diffusion Plant are funded from the Uranium 
Enrichment Decontamination and Decommissioning Fund (D&D Fund) 
contained with the DOEs Environmental Management Budget. This fund is 
initially allocated to DOE's Oak Ridge Facility for the cleanup 
activities at Oak Ridge, Paducah and Portsmouth. Total allocations from 
this fund for fiscal year 1999 were about $220 million--of which 
Paducah received about $36 million. We believe this is not a rational 
division of the $220 million, especially in light of the fact that this 
$36 million is largely used for ongoing site management activities, 
with only about $11 million per year going to actual environmental 
remediation.
    Thus, as you can plainly see, DOE last year spent about $11 million 
on what is approximately a $1.4 billion problem over the next 10 years. 
Members of the committee, that is not in even in the ballpark of what 
is necessary.
    Moreover, I find it particularly upsetting that the D&D fund takes 
in about $610 million per year in receipts from both general revenues 
and a special federal surcharge on power companies that use nuclear 
fuel. The D&D fund has a positive balance on paper of over $1.5 billion 
and its excess yearly revenues are used for other budgetary priorities.
    Members of the subcommittee, I think that is unfair and I think it 
breaks a fundamental compact with the communities that have accepted 
these three facilities. [I am today delivering to the committee a 
letter signed by Governors Taft, Sundquist and myself asking the U.S. 
Congress to restore these dedicated receipts to their intended purposes 
of cleaning up the uranium enrichment sites.]
    Mr. Chairman, as I have discussed with you previously, I am asking 
the U.S. Congress, the DOE, OMB and the White House to dedicate at 
minimum an additional $100 million per year to the cleanup at Paducah. 
Only a figure of this magnitude can get us moving toward completing the 
cleanup by 2010--as the Federal Facilities Agreement mandates. 
Additionally, I am asking that the DOE not proceed on a milestone by 
year basis, but that they begin remediating the most pressing 
priorities immediately and simultaneously. The people of Paducah and 
Kentucky deserve at least this.
    I have already informed the administration that if they are going 
to be an environmental administration in a regulatory fashion, passing 
the cost along to the customers of private companies, then they must 
also be an environmental administration when a matter of federal 
financial responsibility arises. I have, in the strongest terms, urged 
the administration to ask for enough money to do this job. If they do, 
I ask the Congress to approve it. If they don't, I ask the Congress to 
increase the appropriation sufficiently to do the job. I call upon the 
Congress to find a way to work with the DOE to fully fund the D&D 
program for its intended purposes and to make certain that funds are 
available to complete the cleanup at Paducah by 2010. Completing this 
obligation of the federal government to the people of Paducah is your 
responsibility as well. I stand ready to work with our congressional 
delegation and the political leadership of both parties to help make 
certain this obligation is met.
    As a result of the signing of the Federal Facilities Agreement, the 
Commonwealth has several legal means at its disposal to enforce this 
cleanup agreement, including mediation and possible subsequent legal 
action. If current funding levels are maintained, the Commonwealth 
believes that DOE will be in default on this agreement as early as 
fiscal year 2001. Let me assure this subcommittee and the people of 
Paducah and Kentucky that I will continue my efforts on this issue and 
that our administration will use every legal means at its disposal to 
make certain these obligations of the federal government are met. The 
citizens of Kentucky who have supported this facility for over 45 years 
deserve no less.
    I would like to thank the chairman and members of the subcommittee 
for the opportunity to appear before you today, and I would be happy to 
entertain any questions.

    Senator McConnell. Governor, we will make that letter from 
the governors part of the record. We appreciate your coming, 
and I have a feeling that we are going to be involved in this 
for a long time to come. This is going to be a long march. I 
want to thank you for the contribution that you are making at 
the State level to keeping the heat on, and we will try to do 
the same up here.
    Thank you very much.
    The first panel--and I would like to ask the witnesses to 
try to limit their testimony to about 5 minutes so we have 
plenty of time for questions, is comprised of David Fuller, who 
is president of the chemical workers union at the Paducah 
plant, who will testify on worker radiation exposure; Dr. Steve 
Markowitz, who is currently performing the health physics study 
for the Department of Energy and the workers union to evaluate 
work-related illnesses; and Dr. Richard Bird, who recently 
completed an exposure study of workers at the Oak Ridge 
enrichment facility, and reports indicate that many of the 
tested workers may well have been harmed.
    I would like to recognize Mr. Fuller's wife Catherine, who 
is with us today. Mrs. Fuller, would you please stand up so you 
can be recognized. Hello. Thank you for joining us.
    All right. Well, let us start with David Fuller.
STATEMENT OF DAVID FULLER, PAPER, ALLIED-INDUSTRIAL, 
            CHEMICAL AND ENERGY WORKERS UNION, LOCAL 5-
            550, PADUCAH, KY
    Mr. Fuller. Thank you, Mr. Chairman for the opportunity to 
come here today and testify before you. My name is David 
Fuller. I am President of the Paper, Allied-Industrial, 
Chemical and Energy Union, Local 5-550. PACE represents 
approximately 850 hourly workers who are employed by USEC at 
the Paducah gaseous diffusion plant. Our members work in 
operations, maintenance, and environmental management. 28 
hourly workers are slated for transfer to Bechtel-Jacobs in the 
near term.
    I worked at Paducah for 31 years, first as a process 
operator and later as an electrician. I am a member of the 
Paducah Site-Specific Advisory Board which advises DOE on its 
cleanup program. I am also a member of the Paducah Community 
Re-Use Organization.
    I want to make clear at this time that PACE is not a party 
to any of the litigation that is presently ongoing at Paducah.

                       nature of Worker exposure

    First, let me summarize the highlights of testimony offered 
by our members at previous Congressional hearings in September. 
For decades workers were not provided respiratory protection 
while working in the uranium dust, asbestos, and toxic metals. 
During the processing of irradiated reactor tails into uranium 
hexafluoride, workers were unknowingly exposed to plutonium, 
neptunium, and fission products. Until a Washington Post 
article appeared on August 8, 1999, most workers did not know 
they were potentially being exposed to plutonium.
    The Paducah site did not have a contamination control 
program for 40 years, leading to the contamination of workers' 
clothes, shoes, and skin. This resulted in workers tracking 
contamination off site and into their homes.
    Uranium fires self-ignited when dumping uranium chips into 
open pits. Workers were directed to smother these fires by 
piling dirt over the burning uranium.
    After the site stopped recycling irradiated reactor tails, 
DOE used the processing building for an employee locker room 
and a computer repair shop for another 13 years, even though 
radiation was measured at up to 350,000 disintegrations per 
minute in locker rooms and 175,000 dpm in showers and toilet 
areas. These areas should have been posted as contamination 
areas and not used for purposes that resulted in intimate human 
contact. DOE enforcement personnel have never set foot at 
Paducah to investigate the compliance status of the site's 
radiation protection program.

                           Neptunium exposure

    Second, let me summarize the key points that will be in my 
testimony today. An Atomic Energy Commission memo from 1960 
regarding Paducah stated: ``There are possibly 300 people at 
Paducah who should be checked out for neptunium, but they are 
hesitant to proceed to intensive studies because of the union's 
use of this as an excuse for hazard pay.''
    That memo went further and urged Carbide to ``get post 
mortem samples of any of these potentially contaminated men for 
correlation of tissue content with urine output, but I am 
afraid the policy at this plant is to be wary of the unions and 
any unfavorable public relations.''
    Apparently, management was reluctant to test the deceased 
for uptakes of neptunium, much less the living. What this memo 
tells me is that the failure to disclose these hazards to use, 
to monitor us, was not a happenstance thing. It was a 
calculated decision. The memo said, if we do the conscionable 
thing and perform the studies it will cause us discomfort or 
cost us monetarily.
    National security was certainly not the logic for this 
decision. The AEC faced a simple question: Are we willing to 
risk lives or pay money? This decision was not a decision made 
by just any employer. This was a deliberate decision allowed by 
my government, the institution who is supposed to protect my 
welfare and to ensure the blessings of liberty to me.
    Officials made a cynical choice. The only thing more 
cynical would be for government to find a way to turn away from 
this today, now that the facts have come out, and to just do 
nothing.

                Medical and other health benefits needed

    What we have learned makes us genuinely afraid of what may 
happen in the future. I personally carry that fear. Medical 
monitoring by certified occupational physicians is needed today 
to identify diseases which hopefully can be caught early enough 
to be successfully treated.
    The DOE's medical monitoring program needs to be funded, as 
promised by the Secretary of Energy. Monitoring is imperative, 
but without any other remedy, monitoring is simply a process to 
watch people get sick and eventually die. The workers at 
Paducah and other sites deserve more than monitoring. They 
deserve: First, health insurance coverage for all at-risk 
workers and their spouses through retirement. If we lose our 
jobs, we will carry the stigma of ``glow in the dark'' workers, 
making it almost impossible to find new jobs with health 
insurance.
    Second, coverage for the work force under a Federal workers 
compensation system that reverses the burden of proof on the 
government to demonstrate that work place exposures did not 
lead to illness. With respect to establishing a Federal workers 
comp program for DOE nuclear workers, Congress has already 
established a precedent for compensating others who bore the 
consequences of the nuclear arms race, and they include: The 
individuals exposed to radioactive fallout downwind from 
nuclear weapons tests; Marshall Islanders who were exposed to 
fallout; military personnel participating in weapons testing; 
civilian weapons test site workers; uranium miners; soldiers 
guarding the outside of U.S. nuclear weapons production 
facilities; and, of course, subjects of human radiation 
experiments.
    We are recommending that Congress add coverage of 
radiogenic cancers to the proposal made by Secretary of Energy 
Bill Richardson to compensate beryllium disease victims using 
the Federal Employees Compensation Act as a model. Under this 
model, a set of presumptions for specific diseases is 
established. This is essential because DOE currently does not 
have accurate or complete records of exposures to radioactive 
substances. Absent this data, the burden of proof upon workers 
is insurmountable.
    This is not about writing a blank check to nuclear workers. 
What this redresses are the costs which were shifted from the 
DOE onto the shoulders of its work force, a cost the government 
never internalized in prosecuting the Cold War.

                       Cleanup efforts at Paducah

    Allow me to shift focus just for a moment to certain budget 
inequities affecting Paducah. DOE's budget reveals that $62.5 
million, nearly one-third of the D&D budget, is going for 
removing machinery from three buildings at the Oak Ridge K-25 
site, a project which the State of Tennessee declares is not a 
risk-driven project. By contrast, the entire D&D budget for 
Paducah is only $37.5 million. How can DOE justify this 
allocation while at Paducah a plume of contamination is 
migrating toward the Ohio River at the rate of one foot per 
day; and nuclear criticality safety concerns are 
uncharacterized and not being addressed?
    Paducah can best rectify the mismanagement and inequities 
by establishing a Portsmouth-Paducah operations office with its 
own budget and contracting authority. Paducah's budget is only 
3 percent of the entire Oak Ridge budget and Paducah appears to 
be getting less than 3 percent of Oak Ridge's management's 
attention. Paducah will continue to suffer as long as we are 
controlled from a distracted, if not disinterested, field 
office 350 miles away.
    This is the same logic that led Ohio Senators to create the 
Ohio field office with jurisdiction over Fernald, Ashtabula, 
Mound, and West Valley.
    USEC's future is growing more uncertain and the 
socioeconomic transitions at Paducah and Portsmouth will 
eventually include the decontamination and decommissioning of 
the gaseous diffusion plants. Oak Ridge has not and cannot 
successfully manage this from 350 miles away.

                           prepared statement

    I thank you very much, Mr. Chairman, and I will be happy to 
try to answer any questions that I can.
    [The statement follows:]

                   Prepared Statement of David Fuller

  what is needed to protect current and former workers from past and 
                            present hazards
    I am David Fuller, President of the Paper, Allied-Industrial, 
Chemical & Energy Workers Union, Local 5-550 (``PACE''). PACE 
represents approximately 850 hourly workers who are employed by USEC at 
the Paducah Gaseous Diffusion Plant in Paducah, Kentucky. Our members 
work in operations, maintenance, waste management, environmental 
restoration, decontamination & decommissioning and escort individuals 
who lack security clearances. Twenty- eight hourly workers are slated 
for transfer to Bechtel-Jacobs in the near term.
    I have worked at Paducah for 31 years, first as a process operator 
and later as an electrician. I want to make clear that PACE is not a 
party to the litigation at Paducah at this time. Today's testimony will 
focus on:
  --Evidence that the Atomic Energy Commission (``AEC'') and Union 
        Carbide intentionally kept workers in the dark about their 
        exposures to transuranic elements at Paducah. A 1960 memo 
        explains the government's rationale: fears of adverse publicity 
        and concerns about the ``union's use of this as an excuse for 
        hazard pay.''
  --Secretary Richardson announced a medical monitoring program that 
        would evaluate current workers and accelerate the monitoring of 
        former uranium enrichment workers at Paducah, Portsmouth and 
        Oak Ridge. This initiative has not been funded. Only 350 former 
        Paducah workers will be monitored this year, even though 2,000 
        current and former could be monitored. The ``worker exposure'' 
        assessment announced by Secretary Richardson was shut down on 
        October 22 due to lack of funding.
  --The government has knowingly placed workers in harm's way, and 
        failed to inform, protect and monitor them. And it did so for 
        economic and public relations reasons, not for reasons of 
        national security. Under these circumstances, where workers can 
        never establish causation, it is necessary for the federal 
        government to establish a federal workers compensation system 
        that cares for those who became ill while serving their 
        country.
  --Safety considerations raised by DOE's Phase I Independent 
        Investigation of the Paducah Gaseous Diffusion Plant (October 
        1999) command re-evaluation of DOE's Management and Integrating 
        contracting strategy--which relies exclusively on performing 
        cleanup with groups of subcontractors. Bechtel is cutting 
        safety oversight staff and complicating the protection of 
        worker safety with the introduction of subcontractor workers 
        with little or no knowledge of site hazards. It may be safer 
        for Bechtel to self-perform cleanup work.
  --The DOE's Oak Ridge Operations Office is budgeting more cleanup 
        money for a single non-risk driven project at Oak Ridge than it 
        is providing for the entire Paducah site. Paducah's entire 
        budget is $37.5 million out of a $240 million D&D request for 
        fiscal year 2000, despite uncharacterized criticality risks and 
        a toxic plume migrating towards the Ohio River. Meanwhile, Oak 
        Ridge retains $122 million/year, including $62.5 million/year 
        for a project that Tennessee environmental regulators deemed 
        low risk.
  --Oak Ridge Operations Office has been lackadaisical, at best, in the 
        oversight of worker health and safety at the uranium enrichment 
        plants for the past 20 years. Paducah and Portsmouth have been 
        treated like unwanted stepchildren.
  --It is time for the creation of a Portsmouth/Paducah Operations 
        Office to manage these two sites. EPA's representative on the 
        Paducah Site Specific Advisory Board concurs. The environmental 
        and safety problems are far too complex to be directed by 
        telephone from 350 miles away in Oak Ridge.
  --DOE is proposing to recycle radiologically contaminated metals from 
        the Paducah site to offset cleanup costs. No federal standard 
        exists, and the American public has opposed putting rad metals 
        into products that will come into intimate human contact. The 
        Paducah Site Specific Advisory Board passed a consensus 
        resolution opposing this proposal. Congress needs to assure 
        that the price tag for cleaning up ``barrel mountain'' at 
        Paducah is not dependent on putting radioactive braces on the 
        teeth of America's children.
I. Summary of PACE testimony on Paducah at previous congressional 
        hearings this year
    In testimony before a field hearing of the Senate Energy Committee, 
Subcommittee on Energy Research and Development, in Paducah, Kentucky 
on September 20, 1999, and before a hearing of the House Commerce 
Committee, Subcommittee on Oversight and Investigations, in Washington, 
DC on September 22, 1999, PACE members described how:
  --For decades, workers were not provided respiratory protection while 
        working in uranium dusts, asbestos and toxic metals. During the 
        process of converting reactor tails into uranium hexaflouride--
        the feed material for the enrichment plant--workers were 
        unknowingly exposed to uranium dust laced with plutonium-239, 
        neptunium-237, and technetium-99. Until a Washington Post 
        article appeared on August 8, 1999, most workers did not know 
        they were potentially exposed to plutonium.
  --The Paducah site did not have a contamination control program for 
        40 years, leading to contamination of workers' clothes, shoes 
        and skin. This led to workers tracking contamination off site 
        and into their homes.
  --Uranium fires self-ignited by dumping uranium chips into open pits. 
        Workers were directed to smother these fires by piling dirt 
        over the burning uranium. Uranium self ignited because, in 
        certain forms, it is pyrophoric.
  --After the site stopped processing neptunium and plutonium laced 
        reactor tails in the C-410 building, DOE used this building for 
        an employee locker room, electrical maintenance, and a computer 
        repair shop for another 13 years, even though:
    --Radiation was measured at up to 350,000 dpm (disintegrations per 
            minute) fixed contamination in locker rooms. Shower and 
            toilet areas had 175,000 dpm fixed.
    --These areas should have been posted as contamination areas, and 
            not used as a change room.
  --DOE enforcement personnel have never investigated the compliance 
        status of the Paducah radiation protection program since the 
        Price Anderson Act enforcement program was initiated in 1996.
  --A majority of current and former workers are afraid that may have 
        been exposed to substances like plutonium without proper 
        protection and that they will, as a result, be stricken with a 
        fatal disease. Health insurance and a federal workers 
        compensation system tailored to the unique radiation (and 
        other) hazards is needed to remedy some of the harms from past 
        wrongdoings of the DOE and its contractors.
II. The Atomic Energy Commission and its contractors intentionally kept 
        workers in the dark about exposures to Neptunium-237 a bone 
        seeking radioactive element--at Paducah. The Government's 
        rationale: fears of adverse publicity and concerns about the 
        ``union's use of this as an excuse for hazard pay.''
    A March 11, 1960 memo Neptunium-237 Contamination Problem, Paducah, 
Kentucky, February 4, 1960, by C.L. Dunham, MD, the Director of the 
Atomic Energy (``AEC'') Commission's Division of Biology and Medicine, 
and H.D. Bruner, MD, Chief of Medical Research Division of Biology and 
Medicine, stated:

          There are possibly 300 people at Paducah who should be 
        checked out [for Neptunium], but they are hesitant to proceed 
        to intensive studies because of the union's use of this as an 
        excuse for hazard pay. (Exhibit ``A'')

    Neptunium-237 has a radioactive half-life of 2,140,000 years. Once 
in the body it concentrates in the bones and liver. With respect to the 
adequacy of respiratory protection, the memo's authors stated:

          I don't have too much faith in masks, and the dust particles 
        here are about 0.5 micron, the very worst size biologically 
        speaking.

    The memo urged Union Carbide to:

          Get post mortem samples on any of these potentially 
        contaminated men for correlation of tissue content with urine 
        output, but I'm afraid the policy at this plant is to be wary 
        of the unions and any unfavorable public relations.

    Apparently, management was reluctant to test the deceased for 
uptakes of neptunium, much less the living. The AEC doctor concluded 
his memo stating:

          Thus, it appears Paducah has a neptunium problem, but we 
        don't have the data to tell them how serious it is.

    What this AEC memo tells me is that the failure to disclose these 
hazards to us, to monitor us, was not a happenstance thing, it was a 
calculated decision. The memo said if we do the conscionable thing and 
perform the studies, it will cause us discomfort or cost us monetarily. 
National security was not the logic. The AEC and its contractor faced a 
simple question: are we willing risk lives or pay money. This decision 
wasn't a decision made by just any employer. This was a deliberate 
decision allowed by my government, the institution who is supposed to 
protect my welfare and to ensure the blessings of liberty to me.
    Officials made a cynical choice. The only thing more cynical would 
be for government to find a way to turn away from this today--now that 
it has come to light and to not step up to the plate and take 
responsibility.
III. Medical monitoring, health insurance and a federal workers 
        compensation system is needed for those whom the government 
        knowingly placed in harm's way, and failed to inform, protect 
        and monitor.
    To learn through a recently released memo of March 1960, that the 
government made a deliberate decision not to monitor our exposures or 
show proper concern for our health and safety, has created real 
anxiety. Our employer provided erroneous re-assurances, not 
information. Now that facts are coming out, we are genuinely afraid of 
what may happen in the future. I personally carry that worry.
    One consequence of the lack of monitoring is that we have little or 
no means to prove a worker's compensation claim related to radiation 
induced illness. The data doesn't exist. Another is that if we lose our 
jobs at the enrichment plant, we will suffer the stigma of ``glow in 
the dark workers,'' thus making it almost impossible to find a new job 
with health insurance.
    Medical monitoring by certified occupational physicians is needed 
today to identify diseases which hopefully can be caught early enough 
to be successfully treated. The DOE's medical monitoring program needs 
to be expanded and funded, as promised by the Secretary of Energy, so 
that any nuclear worker who wants an exam at Portsmouth, Paducah and 
Oak Ridge can obtain one. Monitoring is imperative, but without any 
other remedy, monitoring is simply a process to watch people get sick 
and die.
    The workers at Paducah and other sites deserve more than 
monitoring. They deserve:
    (1) Coverage for the workforce under a federal workers compensation 
system that reverses the burden of proof onto the government to 
demonstrate that workplace exposures didn't lead to illness, in light 
of DOE's failure to monitor and adequately protect workers from 
radiation and other toxic risks.
    (2) Health insurance coverage for all at-risk workers and their 
spouses through retirement. The harm to humans must be treated as 
seriously as the insult to the environment.
    Today, DOE spends nearly $6.0 billion on environmental cleanup and 
$7.5 million on monitoring at-risk former workers. Resources must be 
committed to assure equal consideration.
IV. There is ample precedent for the Government to establish a Worker's 
        Compensation System that cares for those who became ill, 
        because the Government failed to disclose and provide 
        protection from hazards connected to nuclear weapons production 
        and testing.
    Congress has established the precedent to compensate those who bore 
the consequences of the nuclear arms race. They include members of the 
American public exposed to fallout downwind from nuclear weapons tests, 
Marshall Islanders who were exposed to fallout, military personnel 
participating in weapons testing, civilian weapons test site workers, 
uranium miners, and soldiers guarding U.S. nuclear weapons production 
facilities.
    The findings and recommendations of the Presidential Advisory 
Committee on Human Radiation Experiments (``ACHRE''), built upon these 
precedents, and established the very important principal of redressing 
wrongs to people put at risk without their knowledge or consent. The 
ACHRE Report's ``Recommendation 1'' states: \1\
---------------------------------------------------------------------------
    \1\ Advisory Committee on Human Radiation Experiments, Final 
Report, October 1995, U.S. Government Printing Office, pp. 801.

          The government deliver a personal, individualized apology and 
        provide financial compensation to the subjects or their next of 
        kin of human radiation experiments in which efforts were made 
        by the government to keep information from these individuals or 
        their families, or from the public, for the purpose of avoiding 
        embarrassment or potential legal liability, or both, and where 
        the secrecy had the effect of denying individuals the 
        opportunity to pursue their personal grievance. (emphasis 
---------------------------------------------------------------------------
        added)

    This recommendation was accepted by the President and has been 
implemented. In addition to this principle there are several additional 
principles that provide powerful justification to establish a 
comprehensive compensation program for DOE nuclear weapons workers 
across the country.
    Since World War II federal nuclear activities have been explicitly 
recognized by the U.S. Government as a ultra-hazardous activity under 
law. Nuclear weapons production involved extraordinary dangers, 
including potential catastrophic nuclear accidents that private 
insurance carriers would not cover, as well as chronic exposures to 
radioactive and hazardous substances that, even in small amounts, could 
cause medical harm. For these reasons, the U.S. Government extended 
blanket indemnification for its contractors. Under the Price-Anderson 
Amendments to the 1954 Atomic Energy Act, contractors were held 
harmless, even for criminal acts or willful negligence.
    Since the inception of the nuclear weapons program and for several 
decades afterwards, large numbers of nuclear weapons workers at DOE 
sites across the country were deliberately put at excessive risk 
without their knowledge and consent. In the late 1940's and 1950's, it 
was brought to the attention of the leadership of the AEC on several 
occasions that numerous workers were overexposed to federal sites in 
New Mexico, Washington, New York, Ohio, Colorado and Tennessee.\2\ In 
some instances, workers showed evidence of medical harm.
---------------------------------------------------------------------------
    \2\ Report of the Majority Staff of the Committee on Governmental 
Affairs, Early Health Problems of the Nuclear Weapons Industry and 
Their Implications for Today, December 1989, Washington, DC.
---------------------------------------------------------------------------
    At Paducah, workers asked for protective clothing in numerous 
written requests where radiation was likely to get on their clothes. 
Union Carbide usually denied them. One 1968 grievance by maintenance 
mechanics, who were overhauling contaminated pumps and valves, stated:

          We ask that we be given this protective clothing [coveralls] 
        back. We further ask that the company be responsible for all 
        hazards and costs from any contamination or radiation carried 
        from this plant into our homes, autos and other areas by the 
        aggrieved employees. (Exhibit ``B'').

    Union Carbide denied this request stating that: ``the level of 
alpha radiation count was not meaningful in itself. It was explained 
that alpha was injurious only if it was ingested into the body and no 
provisions for clothing would provide protection for this.''
    Alpha contamination, such plutonium, could easily be ingested from 
clothes that had contamination particles on them, or spread onto 
furniture or food at home. In 1974, our union local finally negotiated 
the right to protective clothing upon demand. However, coveralls do not 
constitute an effective contamination control policy.
    A 1991 incident in which workers contaminated the plant, their 
lockers and brought the radiation into their homes underscores both the 
necessity of a contamination control program that was implemented in 
1990, and the enormous hole in the radiation protection program that 
persisted for nearly 40 years since the Paducah plant opened.\3\
---------------------------------------------------------------------------
    \3\ Investigation Report, C-337-A Contamination Incident at the 
Paducah Gaseous Diffusion Plant on August 23, 1991, KY/E-112, 
September, 199.
---------------------------------------------------------------------------
    The DOE's practice of misleading workers, either by acts of 
omission or commission, is a pervasive and well-established government 
policy. Even into the present time, numerous official reviews and 
findings reported a continuing problems at DOE sites across the 
country, where workers were overexposed and not told. In 1951, the 
AEC's Advisory Committee on Biology and Medicine was told by a federal 
official that exposures to radiation at AEC plants was ``a very serious 
health problem. This problem is present in other AEC manufacturing 
plants and will be important in new installations not only from the 
standpoint of real injury but because of the extreme difficulty of 
defense in cases of litigation.'' \4\
---------------------------------------------------------------------------
    \4\ Atomic Energy Commission, Advisory Committee for Biology and 
Medicine, Notes, January 12, 1951, U.S. Department of Energy Archives, 
Germantown, MD.
---------------------------------------------------------------------------
    The documents uncovered by ACHRE revealed that the suppression of 
health and safety information was directed not only at nuclear weapons 
workers and their representatives, but the communities as well. A 1947 
memo from the AEC Director of Oak Ridge operations to the AEC General 
Manager stated:

          Papers referring to levels of soil and water contamination 
        surrounding Atomic Energy Commission installations, idle 
        speculation on future genetic effects of radiation and papers 
        dealing with potential process hazards to employees are 
        definitely prejudicial to the best interests of the government. 
        Every such release is reflected in an increase in insurance 
        claims, increased difficulty in labor relations and adverse 
        public sentiment.\5\
---------------------------------------------------------------------------
    \5\ Advisory Committee on Human Radiation Experiments, Final 
Report, October 1995, U.S. Government Printing Office, pp. 627.

    In October 1947 Oak Ridge recommended to AEC Headquarters that the 
AEC Insurance Branch routinely review declassification decisions for 
---------------------------------------------------------------------------
liability concerns:

          Following consultation with the Atomic Energy Commission 
        Insurance Branch, the following declassification criteria 
        appears desirable. If specific locations or activities of the 
        Atomic Energy Commission and/or its contractors are closely 
        associated with statements and information which would invite 
        or tend to encourage claims against the Atomic Energy 
        Commission or its contractors such portions of articles to be 
        published should be reworded or deleted. The effective 
        establishment of this policy necessitates review by the 
        Insurance Branch as well as the Medical Division prior to 
        declassification.

    In late 1948 the AEC Declassification Branch found that a study of 
the effect of gamma radiation on Los Alamos workers' blood could be 
declassified as it fell within the field of ``open research.'' The AEC 
Insurance Branch called for ``very careful study'' before making the 
report public:

          We can see the possibility of a shattering effect on the 
        morale of the employees if they become aware that there was 
        substantial reasons to question the standards of safety under 
        which they are working. In the hands of labor unions the 
        results of this study would add substance to demands for extra-
        hazardous pay knowledge of the results of this study might 
        increase the number of claims of occupational injury due to 
        radiation and place a powerful weapon in the hands of a 
        plaintiff's attorney.\6\
---------------------------------------------------------------------------
    \6\ Advisory Committee on Human Radiation Experiments, Final 
Report, October 1995, U.S. Government Printing Office, pp. 656, citing 
Clyde E. Wilson, Chief of Insurance Branch, to Anthony C. Vallado, 
Deputy Declassification Officer, Declassification Branch, 20 December 
1948.

    As noted above, this same policy was revealed through the March 11, 
1960 memo by the AEC biomedical officials where they recognized that 
``possibly 300 people at Paducah should be checked out'' for neptunium 
contamination, but that there was hesitation to ``proceed to intensive 
studies because of the union's use of this as an excuse for hazard 
pay.''
    At the Portsmouth site, Goodyear Atomic issued a Health Physics 
Philosophy as a Guide for Housekeeping Problems in the Process Areas, 
which it distributed to all supervisors on August 27, 1962. While 
management assured workers there was no hazard at the uranium 
enrichment facility in Portsmouth, Ohio, it warned supervisors:

          We don't expect or desire that the philosophy will be openly 
        discussed with bargaining unit employees. Calculations of 
        contamination indices should be handled by the General Foreman 
        and kept as supervisional information in deciding the need for 
        decontamination. (Exhibit ``C'')

    The DOE currently does not have accurate and complete records of 
exposures to radioactive and hazardous substances--which unfairly 
places the burden of proof of harm upon workers. According to the DOE's 
Office of Environment, Safety & Health, from World War II until 1989, 
radiation doses received from inhalation or ingestion were not 
estimated or included in worker dose records. Although, DOE took 
sporadic urine and other samples, contractors made little effort to 
calculate internal exposures, until they were required by the DOE's 
Price Anderson Act regulations that became effective in 1996.
    The reconstruction of individual worker doses is extremely costly 
and fraught with uncertainties and error. Earlier this year, the 
Director of DOE's Office of Enforcement conducted a survey which found 
that many DOE's contractors were not properly monitoring internal 
ingestion of radiation doses. A July 15, 1999 memo stated: \7\
---------------------------------------------------------------------------
    \7\ Memorandum for DOE PAAA Coordinators and Contractors PAAA 
Coordinators from R. Keith Christopher, Compilation of Bioassay Issues 
Reported During the 120 Day Suspension of PAAA Enforcement Actions 
Related to Internal Dose Evaluation Programs in the Department of 
Energy Complex, July 15, 1999.

          Evaluation and assignment of worker doses are consequently, 
        inadequately and/or inaccurately performed such that compliance 
        with annual DOE limits for personnel exposure may not be 
---------------------------------------------------------------------------
        assured. (emphasis added)

    The deficiencies found in 1999 include: failure to advise workers 
of their doses; failure to analyze for all radionuclides to which 
workers were exposed; dose assessment for workers that have an uptake 
were not completed; internal dose assessments are not accurate; failure 
to perform in vivo bioassays; and rad worker restrictions are not 
implemented in a timely manner.
    Since World War II the DOE and its predecessors have been self-
regulating with respect to nuclear safety, and occupational, safety, 
and health. DOE relies on contractors to perform about 90 percent of 
its work, including the day-to-day operational responsibility to 
guarantee a safe working environment. For the past 20-years, DOE's self 
regulation has been subject of a considerable amount of criticism due 
to its ineffectiveness.
    The DOE's indemnification policies place the full resources of the 
U.S. Treasury at the disposal of contractors to fight workers 
compensation claims. Blanket reimbursement of contractors for legal 
costs is a powerful weapon to prevent workers or their survivors from 
gaining compensation for latent diseases. Secretary of Energy Bill 
Richardson has conceded that DOE has deployed its full resources to 
fight workers' compensation claims for occupational diseases, 
regardless of merit.
    And DOE has gone to unlawful extremes to prevent workers from 
getting compensation. In 1984, a Court of Appeals ruled that the state 
workers compensation program for DOE contractor employees in Nevada was 
invalid.\8\ The state had a secret agreement with the DOE and its 
predecessors since the early 1950's which allowed DOE to decide on 
radiation compensation claims filed by test site workers or their 
survivors.
---------------------------------------------------------------------------
    \8\ Keith L. Prescott v. United States, 731 F.2d 1388, 1984 (9th 
Circuit).
---------------------------------------------------------------------------
    DOE had a powerful weapon at its disposal: the AEC (and later on 
DOE) would reimburse the Nevada Industrial Commission only if the AEC 
agreed that a claimant's award was justified. If it disagreed, the 
Atomic Energy Commission and the Nevada Industrial Commission could 
submit the dispute to arbitration. If the arbitrator ruled that 
reimbursement is required, the agreement permits the Atomic Energy 
Commission to seek a de novo determination in a court of law. With that 
weapon at its disposal, workers were helpless to prevail, until the 
Nevada compensation system was unmasked and declared unlawful.
    The department's handling of the Kentucky worker's compensation 
claim on behalf of my co-worker, Joe Harding, who was employed at DOE's 
Paducah facility, is another case in point. Joe died in 1980 from 
cancer and his wife Clara filed a compensation claim with the 
Commonwealth of Kentucky on March 1, 1983. She had her husband's bones 
exhumed, and uranium was found in bone tissue. Dr. Carl Johnson, an 
expert who analyzed the independent laboratory results, calculated that 
Joe had 1,700 to 34,000 times normal uranium levels in his bones at the 
time he left the plant, with a dose of 30 to 600 rem to the bone 
tissue. Annual worker whole body dose limit is 5 rem/year. The DOE, and 
its contractor, Union Carbide, opposed this case for some 14 years. 
Eventually Mrs. Harding settled with Carbide and its insurer for 
$12,500 in September, 1997.
    Several epidemiological studies have shown that DOE workers are 
experiencing greater than expected risks from dying from certain 
cancers and other diseases. Over the past 20-years, several studies 
have shown increased risks of cancer and other diseases among DOE 
workers. They include workers at Hanford, Rocky Flats, Oak Ridge, 
Fernald, the Savannah River, a uranium processing facility in upstate 
New York, and the Santa Susanna facility in California. No such study 
has been done at Paducah.
    We recommend the Congress should establish a federal employee 
compensation system that redresses the government's failure to protect 
its workforce. What we propose is the continuation of a 20 year 
precedent: to provide compensation for those people who were put at 
risk without their knowledge and consent; who were deliberately misled; 
who, in some cases, were intimidated by formidable legal resources of 
the U.S. government; and who now suffer the consequences. We are 
proposing to add coverage of radiogenic cancers to the proposal made by 
Secretary of Energy Bill Richardson to compensate beryllium disease 
victims using--the Federal Employees Compensation Act as a model. This 
is not writing a ``blank check'' to nuclear workers. What this 
redresses are the costs which were shifted from the DOE on to the 
shoulders of its workforce a cost the government never internalized in 
prosecuting the cold war.
    It's time that the government assume those costs that are being 
borne by those who with dedication provided for our nation's defense 
during some of its darkest hours. In the aftermath of the Cold War, the 
DOE must make peace with the people who helped this nation prevail.
V. Doe's management & integrator contracting strategy--which relies on 
        performing cleanup exclusively through subcontractors increases 
        health and safety risks by bringing in workers without 
        knowledge of site hazards. The M&I contracting approach 
        requires additional health and safety oversight by the DOE and 
        Bechtel Jacobs.
    A. DOE's subcontracting approach increases health and safety risks, 
and could lead to loss of experienced workers with valuable 
institutional memory.
    The DOE's Phase I Independent Investigation of the Paducah Gaseous 
Diffusion Plant (October, 1999) by the Office of Environment, Safety 
and Health states:

          [u]nder the management and integrating contractor concept, a 
        large fraction of the potentially hazardous work will be 
        performed by subcontractor employees, some of whom do not have 
        long-term knowledge of site hazards or controls. (pp.4)

  --Bechtel Jacobs subcontractors do not consistently follow safety and 
        health procedures.
  --Some recent subcontractor work activities have resulted in unsafe 
        work practices.
  --The investigation team observed subcontractor ES&H performance that 
        did not meet DOE requirements.
  --There is little oversight of training programs by DOE, and there 
        are no mechanisms to ensure that the training that is provided 
        is adequate.
  --DOE has not conducted effective oversight of ES&H or ensured that 
        Bechtel Jacobs and its subcontractors effectively implement all 
        DOE and regulatory requirements.
    The experience gap cited by DOE can be solved by using Paducah's 
incumbent hourly workforce. These workers have the unique site-specific 
knowledge DOE suggests is needed for the cleanup at Paducah and 
Portsmouth. That knowledge can save also DOE money on characterization 
studies, and help prevent the kind of mistakes that surfaced at Pit-9 
in Idaho.
    For example, Chris Naas, a heavy equipment operator at Paducah for 
25 years, testified before the Senate Energy Committee Field Hearing 
how he was directed to place barrels of waste in the ``404 holding 
pond'' that contained ``nickel stripper, trichlorethylene, green salt 
and yellow cake powder.'' These buried drums are one of the sources of 
groundwater contamination.
    To date, Bechtel Jacobs has refused to commit to use on-site 
workers for the biggest hazards at Paducah: groundwater remediation, 
cleaning up ``barrel mountain'', and decontaminating and 
decommissioning the empty process buildings. Bechtel will only commit 
to retaining 28 incumbent hourly workers, which they will flow down to 
subcontractors for waste management, maintenance, and DUF6 cylinder 
hauling.
    We have asked DOE and Bechtel Jacobs to create a bridge so hourly 
workers can move seamlessly from USEC to Bechtel Jacobs over the life 
of the cleanup. We expect that a number of site workers could be laid 
off as early as July, 2000 when the USEC-Treasury Department Agreement 
is set to expire. Layoffs could follow in future years as well, as 47 
percent of USEC's production has been displaced by imports under the 
U.S. Russia HEU Agreement.
    We have conveyed our concerns directly to the Secretary of Energy, 
as well as the Assistant Secretary for Environmental Management, the 
Oak Ridge Operation Office Manager, the Director of the DOE's Office of 
Worker and Community Transition, and two Senior Policy Advisors to the 
Secretary of Energy.
    Unless there is a change in the thinking at the DOE's Oak Ridge 
Operations Office and at HQ, no more than a handful of hourly employees 
with knowledge of site hazards will be retained for the cleanup mission 
at Paducah or Portsmouth. What we are proposing makes good policy sense 
and is the right thing to do for the workers. Continued inaction seems 
inexcusable.
    B. Safeguards, such as oversight, are not in place to protect 
worker safety.
    The Phase I Independent Investigation of the Paducah Gaseous 
Diffusion Plant states:

          [e]xpanding reliance on subcontractors for cleanup and waste 
        management activities will require significantly more 
        surveillance and oversight by both Bechtel Jacobs and DOE 
        personnel who are knowledgeable of DOE requirements. In some 
        cases, these requirements may be more stringent than the 
        subcontractors' normally accepted practices. It has been 
        demonstrated throughout the DOE complex that more active 
        oversight and surveillance at the activity level is necessary 
        to raise the threshold of acceptability for safe work practices 
        and environmental conditions. If DOE is successful in obtaining 
        funding to accelerate cleanup activities at PGDP, significantly 
        more effort must be expended on surveillance and oversight to 
        achieve and maintain the requisite standards for protecting the 
        environment, the public and especially the workers. (pp. 48)

    The Phase I Independent Investigation noted that Bechtel Jacobs is 
planning staff reductions that will further reduce its technical 
capacity to conduct oversight and surveillance of subcontractor 
activities. (pp.48) Yet, even after Bechtel Jacobs was briefed on the 
Phase I Independent Investigation concerns about subcontractor 
oversight, they nonetheless went forward and awarded a major 
subcontract at Paducah for waste management to Weskem. This 
subcontractor is scheduled to commence work in December.
    The rush to issue subcontracts before adequate safety mechanisms 
are in place is driven by the contractor's incentive fee awards. 
Bechtel Jacobs has $2 million in award fees tied to initiating 
subcontracting of all workscope by September 30, 1999 (Exhibit ``D''). 
Bechtel Jacobs also has $2 million in award fees tied to a reduction in 
total headcounts by September 30, 2000. ( Exhibit ``E''). DOE seems 
unaware that its performance-based incentive fees have pitted perceived 
cost-cutting measures against protecting worker health and safety. DOE 
champions this approach as an example of ``contract reform.'' Down in 
Paducah, we can stand only so much ``reinventing government.''
    DOE needs to postpone the deadlines facing Bechtel Jacobs to 
commence subcontracting, at least until adequate safety measures are in 
place and are validated by the Oversight Team. DOE needs to immediately 
scrap award fees tied to goals that are jeopardizing safety. These 
incentive awards are leading to mismanagement at the ground level in 
Paducah. DOE senior management also needs to re-examine the wisdom of 
its exclusive reliance on subcontracting. Self-performance by Bechtel 
Jacobs may be a preferable option.
VI. DOE's Oak Ridge Office has misdirected cleanup funds into non-risk 
        driven projects at the Oak Ridge K-25 site, while ignoring 
        extremely high risk hazards at Paducah.
    For fiscal year 2000, funding for cleanup at the three gaseous 
diffusion sites comes primarily from the Uranium Enrichment 
Decontamination and Decommissioning Fund, and is broken out as follows:

Fiscal Year 2000 Budget Request (D&D Fund)

Oak Ridge...............................................    $122,068,000
Paducah.................................................      37,500,000
Portsmouth..............................................      37,500,000
Oak Ridge ``Off Site''..................................       8,030,000
Oak Ridge Operations....................................       5,100,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total............................................. \1\ 210,198,000

\1\ This excludes $30 million for thorium tails.

    DOE's budget reveals that $62.5 million, nearly one-third of the 
D&D budget, is going for removing machinery from three buildings at the 
Oak Ridge K-25 site a project which the State of Tennessee declared is 
NOT a risk-driven project. By contrast, the entire D&D budget for 
Paducah is only $37.5 million. How can DOE justify this allocation, 
while at Paducah a plume of contamination is migrating towards the Ohio 
River at the rate of 1 foot per day, and nuclear criticality safety 
concerns in 11 DOE material storage areas go uncharacterized?
    DOE's motivation to pursue environmentally insignificant projects 
at Oak Ridge ahead of higher priorities is described in an October 30, 
1996 ``Project Managers Meeting Notes,'' which included DOE-Oak Ridge, 
Tennessee Department of Environmental Conservation (``TDEC'') and the 
EPA. The memo states (``Exhibit ``F''):
  --``According to DOE, this [K-29/K-31/K-33 Buildings D&D] effort is 
        important not primarily from a risk reduction aspect, but it is 
        important because it is the first large effort by DOE to D&D 
        gaseous diffusion facilities and it will serve as the national 
        precedent for how other similar facilities will be addressed in 
        the future.''
  --TDEC questioned whether ``yet another project was being introduced 
        into the Oak Ridge operations that would be competing for ER 
        (Environmental Restoration) funds.''
  --TDEC ``expressed a reluctance to agree to the [D&D of the 3] 
        buildings as FFA (Federal Facility Agreement) milestones, since 
        risk reduction is not the primary issue.''
  --``TDEC remarked again, that the K-29/K-31/K-33 D&D effort was not 
        going to be done as a risk reduction priority.''
    Notwithstanding these reservations, TDEC and EPA acceded to DOE's 
request, without so much as a public hearing. EPA, as the federal 
regulator over both Oak Ridge and Paducah, inexplicably allowed this 
gross misdirection of scarce resources.
    Due to the propensity of Oak Ridge to beggar the Paducah and 
Portsmouth sites for its competing goals, funding requests for Paducah 
have been declining when environmental risks and regulatory 
requirements for cleanup are increasing. The Phase I Independent 
Investigation of the Paducah Gaseous Diffusion Plant noted:
  --A 1998 Report to Congress on the use of the decontamination and 
        decommissioning fund did not identify the need for additional 
        funds to keep the contamination at Paducah from spreading to 
        surrounding environment.
  --This Oak Ridge-prepared report emphasized accomplishments, but did 
        not discuss challenges faced at the site to reduce and prevent 
        spread of contamination to the environment within a declining 
        budget.
VII.Oak Ridge Operations Office has a history of lackadaisical 
        oversight of worker health and safety at Portsmouth and Paducah
    Since NRC and OSHA have no authority over the DOE-controlled areas 
of the Paducah plant, we depend on the DOE's Paducah Area Office and 
DOE's Oak Ridge Field Office to police its contractors safety 
practices. However, Oak Ridge has largely functioned as an absentee 
landlord, allowing our site's safety profile to deteriorate except when 
the GAO, Tiger Team Reports or the EH-Oversight Team reveal 
embarrassing failures.
    A July 1980 Comptroller General report, Department of Energy's 
Safety and Health Program for Enrichment Plant Workers Is Not 
Adequately Implemented (EMD-80-78), found that DOE's Oak Ridge Office 
had not conducted a safety inspection at any of the three gaseous 
diffusion plants in Oak Ridge, Portsmouth or Paducah for 2 years and 
was not adequately responding to worker safety complaints. Unannounced 
safety inspections were supposed to occur annually at each plant, but 
even when they were inspected, the Oak Ridge Office ``does not, as part 
of an inspection or any other visit to an enrichment plant, monitor for 
radiological contamination.'' Prior to 1980, the report noted that the 
previous inspection at Paducah was in 1978 and the one before that was 
in 1976. Oak Ridge explained the absence of inspections on a staff 
shortage, which the Comptroller General noted was attributable to Oak 
Ridge paying safety inspectors at a lower grade than elsewhere in the 
DOE complex.
    In 1990, the Tiger Team found a lack of contractor compliance with 
DOE Orders and mandatory standards in many areas, including worker 
safety, quality assurance, radiological protection, and control of 
administrative documents. A survey plan was formulated for transuranics 
after technetium-99 was found in an off site well. The Tiger Team 
report noted that DOE was not performing effective oversight to ensure 
that ES&H initiatives were being implemented.
    The Paducah site office was increased from 5 to 12 members after 
the Tiger Team report in 1990. In 1993, two Site Safety Representatives 
were assigned to Paducah, primarily to oversee the Congressionally 
mandated transition to external NRC regulation as part of the creation 
of USEC as a government-owned corporation. However, by 1997 the Site 
Safety Representatives were released to other jobs, as the transition 
to the NRC oversight of the enrichment plant was competed.
    Nine years later after the Tiger Team report, a series of 
Washington Post headlines prompted DOE to initiate another 
investigation at Paducah. The Phase I Independent Investigation 
identified numerous deficiencies in the oversight of Bechtel Jacobs and 
its subcontractors by the Oak Ridge Office.
VIII. Portsmouth/Paducah Operations Office should be created to take 
        charge of these two major sites.
    It is time to separate Paducah and Portsmouth from Oak Ridge. The 
environmental and safety problems at Paducah are too large and too 
complex to be managed by telephone from 350 miles away in Oak Ridge.
    While the new manager assigned to Oak Ridge brings impressive 
credentials to the job, she cannot overcome the fact that the central 
focus of her mission is centered on the $1.5 billion that is spent at 
Oak Ridge: the Y-12 defense facility, Oak Ridge National Labs, the K-25 
site. Paducah's budget is 3 percent of Oak Ridge's annual budget. The 
Paducah and Portsmouth sites are satellite operations. A fully staffed 
Operations Office with budget and contracting authority that is 
centrally focused on the problems at Paducah and Portsmouth is a part 
of the solution. The incremental cost of a new Operations Office will 
be more than offset by making these sites a high priority instead of an 
afterthought. This is the same logic that led Ohio Senators to create 
an Ohio Field Office with jurisdiction over Fernald, Ashtabula, Mound 
and West Valley.
    DOE is planning the construction of two depleted uranium 
hexaflouride (``DUF6'') conversion plants at Portsmouth and Paducah 
(pursuant to Public Law 105-204). DOE will convert ``tails'' for the 
next 20 years, budget permitting. But success for this huge project 
requires dedicated management focus. Likewise, controlling the source 
of groundwater contamination, addressing criticality concerns, and 
resolving the fate of 60,000 tons of radioactively contaminated scrap 
metal are massive problems that require the full time focus of an 
Operations Office.
    USEC's future is growing more uncertain, and the socioeconomic 
transitions at Paducah and Portsmouth could be dramatic. Ultimately, 
the future of Portsmouth and Paducah--hopefully far in the future--will 
include the decontamination and decommissioning of the gaseous 
diffusion plants. Oak Ridge has not and cannot possibly manage the 
myriad of interfaces from 350 miles away.
IX. DOE is proposing to recycle radiologically contaminated metals from 
        the Paducah site to offset cleanup costs. No Federal safety 
        standard exists, and the public has opposes putting radioactive 
        metals into products that will come into intimate human 
        contact.
    DOE has issued a draft plan to cleanup the 60,000 tons mountain of 
radioactively contaminated scrap metals at Paducah which are leaching 
radiation into groundwater. DOE recommends that Paducah sell the 
radioactively contaminated nickel, steel and copper to scrap metal 
dealers as a way to offset the cost of cleanup. These metals would find 
their way into intimate human contact, such as kitchenware, zippers, 
baby carriages, orthodontic braces, iron tonics and eyeglasses.
    Putting radioactive metals into commerce has generated strong 
opposition from the steel industry, the scrap metal dealers, the 
Steelworkers Union and public interest groups. The copper, brass and 
nickel industries are also raising questions.
    There are 9,350 tons of nickel ingots that are contaminated 
throughout with uranium, technetium-99, neptunium and plutonium. There 
are no federal standards governing the free release of this metal into 
unrestricted consumer goods, and impossible technical hurdles to 
overcome in monitoring the so-called ``volumetrically contaminated'' 
metals. DOE has said it will carefully monitor every centimeter of 
metals it releases. At a time when DOE concedes that radiation 
monitoring for its workers is deficient, is it believable they will do 
a 100 percent job monitoring the mountains of scrap metals?
    The Paducah Site Specific Advisory Board reviewed the DOE's plan 
and adopted a consensus recommendation at the August 1999 meeting that 
opposes the unrestricted and/or free release of this metal into 
commerce absent a federal standard.
    Instead of burying this rad metal, some could be recycled for 
``restricted'' use in nuclear facilities. Congress needs to set rules 
for DOE, by prohibiting this metal from finding its way into forks and 
knives that wind up on our dinner tables. Congress needs to assure that 
the price tag for cleaning up ``barrel mountain'' at Paducah is not 
dependent on putting radioactive braces on the teeth of America's 
children.
X. Conclusion
    Workers at Paducah are afraid of what may happen to them in the 
future, as they have unknowingly worked with radioactive and toxic 
substances, such as plutonium, that have long latency periods and can 
have catastrophic results. These workers--who served our nation as 
veterans of the Cold War production era must not be forgotten.
    Medical monitoring is necessary, but insufficient. Workers need 
health insurance that will be with them throughout retirement. We need 
a federal workers compensation system modeled after the Federal 
Employees Compensation Act--that will take care of those of us who are 
never going to be able to prove our illnesses were work related because 
the government's conscious decision not to monitor them or advise them 
of their risks to transuranics.
    A Paducah/Portsmouth Operations Office is needed to bring focus to 
the large challenges faced by these two sites. Oak Ridge cannot manage 
these complex sites by telephone from 350 miles away.
    Congress needs to prohibit the unrestricted release of radioactive 
metals into everyday commerce.
    DOE needs to re-evaluate whether subcontracting is the best means 
to safely accomplish cleanup at Paducah. At a minimum, DOE needs to 
direct Bechtel Jacobs to utilize the institutional memory and site-
specific knowledge possessed by the incumbent hourly workforce as it 
executes the cleanup of Paducah and Portsmouth.
STATEMENT OF STEVEN B. MARKOWITZ, M.D., PROFESSOR, 
            CENTER FOR THE BIOLOGY OF NATURAL SYSTEMS, 
            QUEENS COLLEGE, NEW YORK, NY, AND ADJUNCT 
            PROFESSOR, MOUNT SINAI SCHOOL OF MEDICINE, 
            NEW YORK, NY
    Senator McConnell. Thank you, Mr. Fuller.
    I think what we will do is go on and take Dr. Markowitz's 
statement and Dr. Bird's and then we will ask questions of all 
three of you.
    Dr. Markowitz is a physician who specializes in 
occupational and environmental medicine and is Professor of 
Earth and Environmental Sciences at City University in New 
York. He is also the director of the worker health protection 
program and national medical screening program for the early 
detection of occupational diseases experienced by workers what 
were formerly employed in nuclear weapons production in various 
DOE facilities.
    He is currently running the workers health testing program 
at the three gaseous diffusion plants, and he is here today to 
update us on the progress of the program and the ways it might 
be expanded and improved.
    Dr. Markowitz, we welcome you here, and if you could try to 
complete your testimony in around 5 minutes that would be 
great.
    Dr. Markowitz. Thank you, Mr. Chairman.
    My name is Steven Markowitz and I am an occupational 
medicine physician, which means I deal with problems that arise 
in the work place and exposures that impact on health. This is 
a relatively little known specialty throughout the United 
States, but nonetheless a very important area. I serve as 
Professor at Queens College in New York and also Adjunct 
Professor at Mount Sinai School of Medicine.
    My written testimony is longer than what I will speak about 
today, given the 5-minute limitation, and there are some 
problems that I discuss that can be read about later. But let 
me focus on our workers health protection program.
    This is a program which is a collaboration between Queens 
College, PACE International Union, and the University of 
Massachusetts at Lowell. It was established by the Department 
of Energy 3 years ago under contract to them. It was initiated 
under order from Congress, section 3162 of the 1993 National 
Reauthorization Defense Act. Section 3162 simply said to the 
Department of Energy, if you can locate former DOE workers at 
significant risk for occupational disease because they have had 
untoward exposures in the plants, then they should be medically 
screened and monitored. We have undertaken such a program at 
the three gaseous diffusion plants and also at Idaho National 
Laboratory.

                Medical screening and education program

    The goal of this program is the early identification of 
work-related conditions at a point at which we can intervene 
and actually do some good for people. This program is about 
clinical service. It is not about research. It is about 
benefiting people who, as you have said, have been in harm's 
way and now at a relatively late date actually providing 
something that can be medically useful to them.
    In this medical screening and education program, we invite 
former workers in for screening. In fact, in the last 6 months 
that we have operated--we began screening about 6 months ago--
we have not had to invite people, because we held press 
conferences at the three sites and we have had over a thousand 
calls to our toll-free number. There is a great deal of 
interest in this program, in this type of activity.
    We send people to local clinical facilities at the sites 
under contract to us, where they undergo a medical screening. 
We also conduct 2-hour workshops conducted by current and 
former workers, partly under the direction of David Fuller, who 
spoke previously.
    Our goal really is to help people understand, retirees from 
the gaseous diffusion plants, to help them understand what has 
happened to them, what kind of exposures they have had. There 
are uncertainties about those exposures, but we owe them the 
truth at least about those uncertainties and about what we 
know. Also, we try to tell people how their health has been 
affected by working at DOE.

                        Medical screening effort

    It has been a good program to date. We have funds from the 
Department of Energy to screen 1,200 people this year at all 
three plants. That is 400 at each site. We have screened about 
450. We have conducted education for a little over 400 people. 
The program has gone well.
    We have found--we have not really aggregated our results. 
We have found some, albeit limited, amount of occupational 
illness, including asbestos-related disease, emphysema, and 
hearing loss at these three facilities.
    Let me talk about how we can expand this program and make 
it a lot better. We really have an outstanding opportunity now 
to alter the program to both expand the number of people who 
could benefit from our service and also to include lung cancer 
screening. As you mentioned before, there are about 15,000 or 
more former gaseous diffusion plant workers who could benefit 
from this program and there are about 5,000 or so current 
workers who could benefit from this program. So we would like 
to expand and conduct medical screening at a faster rate so 
that we can actually get through all first screening of the 
people within a limited number of years.

                         Lung cancer screening

    I want to focus in on lung cancer screening. This is an 
issue that has not fully impacted public consciousness yet, but 
we are really on the threshold of a major advance in screening 
for cancer. Lung cancer is the number one cause of cancer death 
in the United States. About 158,000 people this year in this 
country will die from lung cancer. The death rate is 90 percent 
of those who get lung cancer, those will die; 90 percent will 
die from lung cancer.
    Despite advances in cancer screening otherwise, for 
instance in breast cancer, prostate, cervical cancer, colon 
cancer, lung cancer has remained as the single most common 
cancer for which screening has not been effective. There now is 
an effective method for screening for lung cancer. This work 
was done originally in Japan several years ago and now 
confirmed in the United States. It was published 3 months ago 
in Lancet, which is a leading medical journal, a study by Dr. 
Claudia Henschke and others at Cornell and NYU University 
Medical Centers in New York.

                      ct scanning for Lung cancer

    Let me just give you the numbers that they looked at. They 
enrolled 1,000 people, all of whom were smokers or former 
smokers, in the study and they conducted low-dose CT scan of 
the chest for those thousand people. They were age 60 or over, 
and they were both men and women, but otherwise not at excess 
risk for lung cancer except for the fact of cigarette smoking.
    Of those thousand people, they found that 27 had lung 
cancer. These 27 had nodules in the lung that were cancerous, 
of those 27, 23 or 85 percent were at the earliest stage of 
lung cancer. That is to say stage one lung cancer, which is the 
earliest stage, is eminently curable. Stage one lung cancer, 
which only appears in a few of the people who present 
currently, can be cured; 5-year survival for stage one lung 
cancer is about 80 percent.
    CT scanning provides the method of detecting lung cancer at 
stage one, at the earliest stage. Of those 27 people with lung 
cancer, 26 received surgery and virtually all of them can be 
expected to be cured of their lung cancer. So we can deliver 
with CT scanning a 70 to 80 percent 5-year survival for lung 
cancer, compared to the current 10 percent 5-year survival for 
lung cancer. This can be done, and it is much better than the 
current use of a chest X-ray.
    In our screening program so far we have used the chest X-
ray because that is all that has been available and because CT 
scanning is more expensive. We would like now to apply this new 
technique of CT scanning to detect lung cancer early in the 
gaseous diffusion plant workers.
    Now, why these workers? Well, many of them smoke, so many 
of them are at risk for lung cancer as a result there. But in 
addition, many have been exposed to lung carcinogens or cancer-
causing chemicals in the workplace, specifically asbestos, 
specifically beryllium, silica, and now plutonium and 
neptunium. These are lung carcinogens. They cause lung cancer 
among humans.
    We would like to introduce CT scanning in Paducah, in 
Portsmouth, and Oak Ridge. Medical advances typically bear 
fruit in metropolitan areas first. There is a great deal of 
excitement in the major medical centers in New York about CT 
scanning, and I am sure in San Francisco and Chicago and the 
other major cities this kind of work will be implemented for 
the early detection of lung cancer. But normally in a place 
like Paducah, a small city like Portsmouth or Oak Ridge, this 
kind of medical advance will take 3, 5, or 7 years to arrive.

                     implementation of CT scanning

    With this program, with some funding from Congress, from 
the Department of Energy, we can implement CT scanning of the 
lung for early detection among these workers. In fact, it will 
cost, we estimate--and we have given all the details both to 
the Department of Energy and to your staff--that in the next 12 
months $5.8 million can be spent obtaining a CT scan, putting 
it on a mobile unit--I have a picture here of what such a unit 
would look like. We will transport the unit between Portsmouth, 
Paducah, and Oak Ridge, and employ it full-time, providing CT 
scanning of the chest for 2,000 former and current gaseous 
diffusion plant workers.
    Of those 2,000 workers, we can expect that we will detect--
--
    Senator McConnell. How long would it take you to do the 
2,000 workers?
    Dr. Markowitz. 2,000 is what we expect to do in 12 months. 
Among those 2,000, we can expect to detect several dozen people 
with lung cancer, most of whom will have early stage lung 
cancer and can be cured of the disease.
    I see my time is up, so let me just stop here and answer 
any questions later if you would like.
    [The statement follows:]

               Prepared Statement of Steven B. Markowitz

    My name is Steven Markowitz, MD. I am a physician specializing in 
occupational medicine, that is, identifying and reducing workplace 
exposures that impair or threaten human health. After receiving my 
undergraduate degree from Yale and my medical degree from Colombia 
University, I completed five years of training in internal medicine and 
occupational medicine in New York City and had the excellent fortune of 
training under the late Dr. Irving Selikoff, the noted asbestos 
researcher at Mount Sinai School of Medicine. I currently serve as 
Professor at the Center for the Biology of Natural Systems of Queens 
College and Adjunct Professor of Mount Sinai School of Medicine, both 
in New York City.
    My research interests center on the surveillance and identification 
of occupational disease. I recently completed a study commissioned by 
the National Institute for Occupational Safety and Health concerning 
the extent and costs of occupational disease and injury in the United 
States (Attachment A).
    I wish today briefly to highlight two core problems in occupational 
health at the gaseous diffusion plants of the Department of Energy, at 
Paducah, KY; Portsmouth, OH; and Oak Ridge, TN and to discuss our 
response to those problems through the initiation of the Worker Health 
Protection Program. I will start first with our response and then 
briefly elucidate the core problems.
                  the worker health protection program
    In 1996, we initiated the Worker Health Protection Program (WHPP) 
at the three Department of Energy gaseous diffusion plants. It is a 
medical screening and education program established as a collaboration 
between Queens College, the PACE International Union and the University 
of Massachusetts at Lowell and with the full cooperation of the 
employers at the plants. This program developed as a result of 
Congressional passage of Section 3162 of the National Reauthorization 
Defense Act of 1993, requiring that the Department of Energy initiate a 
medical surveillance program for former DOE workers who (a) were at 
significant risk for work-related illness as a result of prior 
occupational exposures at DOE facilities, and (b) would benefit from 
early medical intervention to alter the course of those work-related 
illnesses. We received a contract from the DOE through a competitive, 
merit-based review process and have now, after a careful needs 
assessment and planning process, instituted the Worker Health 
Protection Program at the three gaseous diffusion plants in Paducah, 
Portsmouth, and Oak Ridge as well as the Idaho National Engineering and 
Environmental Laboratory in Idaho Falls.
    The goal of the Worker Health Protection Program is to detect work-
related illness at an early stage when medical intervention can be 
helpful. At a broader level, the goal of our program is to help former 
DOE workers understand whether they have had exposures in the past that 
might threaten their health and to ascertain whether, in fact, an 
injury has resulted from these exposures. For the first time, former 
workers of the DOE gaseous diffusion plants have the opportunity to 
obtain an independent, objective assessment of their health in relation 
to their prior workplace exposures by a physician who is expert in 
occupational medicine. We screen for chronic lung diseases, such as 
asbestosis and emphysema, hearing loss, and kidney and liver disease. 
We have not heretofore emphasized cancer screening, because the 
screening tests available to date for the cancers of concern have been 
inadequate, and because the gaseous diffusion plants have not 
historically been considered sites of high radiation exposure. We 
implement the program through local clinical facilities based a common 
medical protocol. This is not a research activity, but a clinical 
service program, intended to be of direct and immediate benefit to 
participants.
    We also provide a two hour educational workshop during which former 
DOE workers have the opportunity to learn about their past exposures 
and what they might mean in terms of health. These workshops are run by 
current and former workers, because they have credibility and 
expertise. We also believe that a participatory model of education is 
in and of itself health-promoting.
    Our program is highly successful. In the past 5 months, 
approximately 1,000 former gaseous diffusion plants workers have called 
our national toll-free number requesting screening appointments. We 
have screened 450 people and educated 420 people to date. It is early 
in the project to aggregate results, especially since the first 
screening participants are a self-selected group and may not reflect 
the broader experience of the former DOE workforce. We have seen some, 
albeit limited, work-related illnesses among the screeners to date. As 
importantly, we have seen a high degree of interest, enthusiasm, and 
satisfaction with the program.
    The Worker Health Protection Program is, however, severely limited 
by available funding. The DOE provides sufficient funds to screen 1,200 
former gaseous diffusion workers per year. Since we estimate that there 
are at least 15,000 living former GDP workers who are eligible for our 
program, we will need over 12 years at the current rate of funding to 
screen each person one time. Clearly, this is inadequate and undermines 
the intent of Section 3162.
             enhancing the worker health protection program
    Due to the recently acquired knowledge that gaseous diffusion plant 
workers have been exposed to transuranic materials and the likely 
heightened health risks associated with these exposures, we now propose 
to rapidly expand our medical testing program. We have made this 
proposal at the invitation of the Department of Energy.
    Three significant improvements in the Worker Health Protection 
Program are worthy of support, as follows:
    1. Adding current workers to the screening and education program.
    2. Accelerating the pace of testing from 1,200 to 5,750 workers per 
year.
    3. Initiating screening for the early detection of lung cancer 
through the use of a low-dose computerized tomography (CT) scanning 
protocol.
    We describe herein the rationale and numeric estimates of eligible 
workers that underlie these three proposed additions to the current 
program. We also provide some insight into the ability of an 
accelerated program to meet the needs of workers, both current and 
former, at these three facilities in the coming years.
Adding Current Workers
    Workers presently employed at the three gaseous diffusion plants do 
not currently receive the benefits of a medical screening and education 
program that is (a) specifically designed for early detection of work-
related disease, and (b) provided by independent, credible physicians 
and other professionals with expertise in occupational medicine. They 
do not universally have access to such a program. Yet they clearly 
deserve it, based on their many years of service to the nation and the 
occupational risks that they have encountered during this service.
    We estimate that the numbers of current workers at the gaseous 
diffusion plants are: 1,800 at Paducah; 2,000 at Portsmouth; and 1,700 
at Oak Ridge K-25 (Table 1). During the next 12 months, we propose 
screening one-half of current workers, or 900 at Paducah; 1,000 at 
Portsmouth; and 875 at Oak Ridge K-25. This totals 2,750. Workers with 
the longest duration at the plant (especially from the mid-1950's to 
the mid-1970's), or who are deemed to have worked in the highest risk 
areas will be offered screening first. This program capacity will allow 
all current workers to be screened within two years. In fact, since not 
every current worker will wish to participate in the program, all 
interested current workers will be screened in less than two years.
Accelerating the Medical Screening of Former Workers
    The Worker Health Protection Program now screens former gaseous 
diffusion plant workers at the rate of 400 per year per plant. This 
pace is constrained only by budget limitations. The estimated number of 
former workers at the three sites, over 15,000 (7,000+ at Oak Ridge K-
25; 5,000+ at Portsmouth; and 3000+ at Paducah), is quite high, indeed 
much higher than the number of current workers. The above-proposed 
screening rate for current workers will outstrip the present rate for 
screening former workers. This is inequitable and contrary to our 
knowledge of risk, since former workers are at no less risk than are 
current workers for work-related health problems from having worked at 
gaseous diffusion plants. We therefore propose to speed up the rate of 
screening former workers to 1,000 per year at each of the three sites. 
This totals 3,000 workers per year (Table 1). Since we are currently 
budgeted to screen 400 per year per site, the requested funds will 
allow screening of 1,800 additional former workers in the next 12 
months. This accelerated screening capacity will enable a higher 
proportion of former workers to be screened within a limited number of 
years.

   TABLE 1.--ESTIMATED NUMBERS OF CURRENT AND FORMER WORKERS AT GASEOUS DIFFUSION PLANTS: PROPOSED ACCELERATED
                                           MEDICAL SCREENING SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                                                         Total
                                                          No.      Proposed    Estimated   Proposed    proposed
                                                        current     No. CW    No. former    No. FW        No.
                        Site                            workers    screened     workers    screened    screened
                                                         (CW)     in next 12   (FW) ``At  in next 12  in next 12
                                                                    months      risk''      months      months
----------------------------------------------------------------------------------------------------------------
Paducah.............................................       1,800         900      7,000+   \1\ 1,000       1,900
Portsmouth..........................................       2,000       1,000      5,000+   \1\ 1,000       2,000
K-25................................................       1,700         850      3,000+   \1\ 1,000       1,850
                                                     -----------------------------------------------------------
      Total.........................................       5,500       2,750     15,000+   \1\ 3,000   \1\ 5,750
----------------------------------------------------------------------------------------------------------------
\1\ We are currently funded to screen 400 of these 1,000 at each site, or 1200 workers in total.

Early Detection of Lung Cancer
    Lung cancer is the most important specific cancer risk for workers 
at the gaseous diffusion plants of the Department of Energy. 
Occupational exposure to lung carcinogens at the gaseous diffusion 
plants, including asbestos, uranium, and possibly plutonium and 
beryllium produce excess risk of lung cancer. If early detection of 
lung cancer is achievable as a result of medical screening, its 
implementation should be accorded the highest priority among gaseous 
diffusion plant workers, especially for those at the highest risk of 
lung cancer. We do not currently offer such screening in the Worker 
Health Protection Program.
    An effective and feasible method for the early detection of lung 
cancer now exists. The Early Lung Cancer Action Project, undertaken at 
Cornell University and New York University Medical Schools, decisively 
and affirmatively answers the question of whether CT scans of the chest 
can identify small malignant lung nodules at a sufficiently early stage 
that surgery can successfully remove the cancer with the expectation of 
cure. Henschke and colleagues published the results of their landmark 
study, the Early Lung Cancer Action Project, in Lancet on July 10, 
1999. Undertaken with NIH support, this study began in the early 
1990's. It enrolled 1,000 people, aged 60 or over, who had a tobacco 
use history and were sufficiently healthy to undergo chest surgery, if 
required. All participants underwent a chest x-ray and a low-dose rapid 
chest CT scan. Lung nodules were identified, and the affected 
participants were subject to a protocol of conventional chest CT scan 
and, if relevant, diagnostic work-up.
    The study results were remarkable. Low dose chest CT scans detected 
lung cancer in 27 people (2.7 percent), or in 1 of every 37 study 
participants. By contrast, malignant lung nodules were seen on 
conventional chest x-ray in only 7 participants (0.7 percent). Thus, 
low dose CT scans detected nearly 4 times as many lung cancers as did 
routine chest radiography.
    More importantly, low dose CT scanning nearly always detected lung 
cancers at an early stage that is usually highly curable. Of the 27 CT-
detected cancers, 26 (96 percent) were resectable, and 23 (85 percent) 
were in the initial stage (Stage I) of lung cancer. By contrast, only 
about one-half, or 4 of the 7 (57 percent) malignant nodules identified 
by the chest x-ray were Stage I disease. We know that Stage I lung 
cancer nominally has a 70 percent to 80 percent 5 year survival 
compared to an overall 5 year survival of 12 percent for all cases of 
lung cancer combined.
    In addition, only one study participant underwent a biopsy that was 
specifically recommended by the study protocol and had benign disease. 
Thus, low-dose CT scanning, when followed by a proper work-up, will 
result in few people needlessly undergoing the pain and expense of 
biopsy for benign nodules. The authors conclude: ``Low-dose CT can 
greatly improve the likelihood of detection of small non-calcified 
nodules, and thus of lung cancer at an earlier and potentially more 
curable stage.'' A full summary of this pathbreaking study recently 
published in Lancet is provided in Attachment B.
    The results of the Early Lung Cancer Action Project, in combination 
with current knowledge about the biology, radiology, and epidemiology 
of lung cancer, are sufficiently convincing to justify the inclusion of 
low-dose chest CT scanning and an associated follow-up protocol in the 
medical screening program for gaseous diffusion plant workers. The new 
lung cancer screening protocol should be offered to gaseous diffusion 
plant workers who are at highest risk for lung cancer as a result of 
the occupational exposures to asbestos and uranium and possibly 
plutonium and beryllium.
    We propose to offer such an early lung cancer detection program to 
2,000 participants in the Worker Health Protection Program at the 
gaseous diffusion plants of the Department of Energy. This component 
will be offered to individuals, both current and former workers, who 
meet pre-determined criteria for lung cancer risk, as constituted by 
age, duration and likelihood of exposure to occupational lung 
carcinogens, and history of cigarette smoking. This program component 
will be integrated into the existing protocol of the Worker Health 
Protection Program and, thereby, achieve considerable efficiency and 
costs savings, especially in participant recruitment, baseline testing, 
follow-up, and overall program administration.
    Medical advances typically benefit metropolitan areas of the United 
States first, since large cities house the leading medical schools and 
major medical centers. Lung cancer screening will be rapidly 
established in New York, San Francisco, and Chicago. Later and perhaps 
slowly, it will diffuse to rural areas, where DOE facilities are 
typically located. Through integrating the proposed lung cancer 
screening method into our Worker Health Protection Program, we have the 
opportunity to reverse this pattern and make Paducah, Portsmouth and 
Oak Ridge among the first communities in the nation to receive the 
great benefits of this life-saving screening technique. The United 
States Congress and the Department of Energy will accrue enormous 
gratitude from the current and former gaseous diffusion plant workers 
as a result of literally saving the lives of a significant number of 
such workers through supporting lung cancer screening and the Worker 
Health Protection Program.
lack of access to occupational health care: a core problem for gaseous 
                        diffusion plant workers
    The first core problem in occupational health at the gaseous 
diffusion plants of the Department of Energy problem is the lack of 
access of former and current DOE workers to objective, expert, 
independent care in occupational medicine. When any of us develop a 
heart arrhythmia, a neurologic syndrome, or cancer, we fully expect to 
see a physician who will bestow upon us his or her candid, specific, 
expert opinion that is the distillation of many years of specialized 
training and clinical experience. We further expect that this opinion 
will be unencumbered by any conflict of interest of the physician, such 
as a financial interest in a particular medical tool or laboratory, 
which would influence the opinion of that physician, sometimes to our 
detriment. These conditions frame a basic standard of care that we have 
come to expect in our country.
    These conditions, however, do not currently exist, and indeed have 
never existed, for the workers at the three gaseous diffusion plants of 
the Department of Energy, or probably throughout much of the DOE 
complex. Such workers have never as a rule had an opportunity for this 
simple encounter: to have a potentially work-related illness evaluated 
by a physician who has the knowledge to determine whether the illness 
is work-related and is free to make that determination without concern 
about ramifications to the employer. Instead, workers in Paducah, 
Portsmouth, and Oak Ridge raise their health concerns with their 
primary care providers who do not ask about or know about occupational 
hazards. Or their health concerns arise with physicians who are 
employed by or under the influence of DOE contractors and thereby have 
dual loyalties. It is little wonder, therefore, that workers, who are 
very proud of the service that they have performed for the past 5 
decades, nonetheless feel that they have been treated unfairly with 
reference to occupational illness.
    Two immediate consequences result from this failure to provide a 
basic standard of occupational health care. First, occupational illness 
is not properly diagnosed and treated. This harms the individual. It 
also harms co-workers and future workers, because it prevents the 
return of vital information to the workplace, information that could be 
used to prevent other workers from becoming ill.
    The second consequence is that workers and their families will form 
their own opinions about whether the workplace is the source of their 
ills. In the absence of external expert knowledge, workers will use 
their own expertise to decide about work-relatedness of their problems. 
Often they will be correct. Indeed, the history of occupational 
medicine is replete with examples of occupational diseases first 
identified by workers and later confirmed by physicians. Sometimes, 
however, workers will not be correct in attributing their symptoms to 
the workplace. The result of this error is that the DOE facility may be 
falsely targeted as the source of a spectrum of diverse and quite 
unrelated illnesses. We cannot blame people who make this judgment: 
they do so in a vacuum. The underlying problem is the structural lack 
of a system that can authoritatively and credibly confirm or refute 
workers' suspicions about workplace exposures as the source of their 
ill health.
lack of accurate exposure characterization: a core problem for gaseous 
                        diffusion plant workers
    Let me turn to a second core problem in occupational health at the 
gaseous diffusion plants: the lack of proper, accurate information 
about exposures that have occurred at the gaseous diffusion plants over 
the past four or five decades. Ultimately, in occupational medicine, we 
are called upon to make a judgement about whether a health problem of a 
particular individual is work-related. The equation that rules this 
decision is quite simple. On the one side is information about the 
exposure or workplace factor. On the other side of the equation is the 
delineation of the illness. The latter is usually straightforward given 
the armamentarium of medical tools that we now have to conduct medical 
investigations.
    The weak link in this equation is often the level and quality of 
knowledge about the workplace exposures. Chronic occupational illness 
today results from exposures that occurred in the past. We are 
therefore subject to whatever actions people who were responsible for 
the workplace did or did not take to measure those exposures. In 1996-
1997, as part of the Worker Health Protection Program, we conducted a 
one year needs assessment of workplace exposures and the rationale for 
medical screening at the gaseous diffusion plants (Executive Summary in 
Attachment C). We concluded, as have others, that workplace exposures 
have been poorly documented in general at the gaseous diffusion plants, 
either through failure to measure properly, or through failure to 
document measurements in a manner that can be properly interpreted. 
This applies to radiation measurements, but even more so to assessment 
of hazardous chemical agents such as asbestos, silica, and beryllium.
    One important consequence of this failure is that it makes the 
decision-making about causality between workplace exposures and health 
problems that occur many years later difficult and complex. When a 
gaseous diffusion plant worker, or more likely, retiree, develops lung 
cancer, the likelihood that his prior occupational exposures to 
asbestos or silica contributed to the development of the lung cancer 
depends very much on the intensity, duration, and timing of his 
exposures to asbestos and silica. If information on those exposures do 
not exist, the amount of judgement that must be used to decide on work-
relatedness of that lung cancer increases. And, so too does room for 
disagreement in formulating that judgement.
    A cynical means to ``eliminate'' occupational disease now becomes 
apparent. First, on a prospective basis, fail to document exposures in 
a thorough, reliable, and interpretable manner. Second, overlook 
communicating meaningful information about those exposures to workers. 
Finally, decades later, when chronic occupational diseases of long 
latency appear, claim retrospectively that insufficient data on 
exposure preclude proper assessment of the causal role of such 
exposures in the development of the extant illnesses. Note that the 
premature deaths and diseases suffered by workers do not disappear 
under such a scheme. But the occupational attribution vanishes.
    Let me provide an example relevant to the ``discovery'' of 
plutonium, neptunium, and other transuranics at the Paducah gaseous 
diffusion plants. A memorandum from 1960 has just now been discovered, 
entitled ``Neptunium \237\ Contamination Problem, Paducah, Kentucky, 
February 4, 1960.'' (Attachment D) It was written by Dr. C. L. Dunham, 
a physician who directed the Division of Biology and Medicine of the 
Atomic Energy Commission (AEC), the predecessor to DOE, and a physician 
colleague from the same Division. Dr. Dunham was therefore the chief 
physician of the AEC and presumably took the same Hippocratic Oath that 
every physician takes upon entering the profession. In this memo, they 
discuss in some detail how neptunium arrives in Paducah, how it 
deposits on the inner barrier tubes that are the central component of 
the gaseous diffusion process, and how workers are exposed to the 
neptunium. They then refer to urine neptunium levels taken in some 
workers. These physicians further specify that up to 300 Paducah 
workers should be tested but that, referring to management personnel 
``they hesitate to proceed to intensive studies because of the union's 
use of this as an excuse for hazard pay (p. 3)'' Dr. Dunham and 
colleague further argue in favor of the need to obtain post mortem 
tissue samples, but state that this was difficult due to ``unfavorable 
public relations.'' Dr. Dunham and colleague conclude: ``Thus, it 
appears that Paducah has a neptunium problem but we don't have the data 
to tell them how serious it is.'' There is a striking absence of any 
formulation of a plan of how to collect those data and how to reduce 
neptunium exposure at Paducah.
    And now, forty years later, we are asked to judge how significant 
that exposure might have been, who was the population at risk, and 
whether a retiree's cancer was caused by that unquantified and, 
presumably, uninvestigated exposure to neptunium, plutonium, and other 
materials. And at the end of the current spate of urgent 
investigations, news reports and hearings, there will be some who will 
conclude ruefully that ``we simply do not have the data to tell them 
how serious it is'' and will thereby be paralyzed by this ignorance. I 
cannot think of a better way to make occupational disease 
``disappear.''
                               conclusion
    Clearly, our present obligations to workers who built and 
maintained our nuclear weapons stockpile requires that we move beyond 
paralysis. Towards this end, we have developed a concrete plan to 
enhance the Worker Health Protection Program. The presence of the 
Worker Health Protection Program already in place provides an 
outstanding opportunity for Congress and the Department of Energy to 
respond immediately to the enhanced need of its gaseous diffusion plant 
workers for appropriate and timely medical screening for work-related 
disease. For an additional $5.8 million dollars in the next year, the 
scope and coverage of the medical testing and education program can be 
significantly expanded in a well-targeted and clearly justified manner. 
We will provide comprehensive screening for 5,750 current and former 
gaseous diffusion plant workers. We will bring the most important 
advance in cancer screening since the advent of mammography. And this 
will be accomplished at a fraction of the estimated $1 billion cost 
that it will take to clean-up the environment at the Paducah site 
alone.
    In conclusion, our program expansion will allow Congress and the 
Department of Energy to address the concrete and heightened concerns of 
former and current gaseous diffusion plant workers. Moreover, and most 
importantly, the advent of a radiographic screening technique for lung 
cancer will allow Congress and the Department of Energy, through an 
enhanced Worker Health Protection Program, to save lives.
STATEMENT OF RICHARD CRANSON BIRD, JR., M.D., BETH 
            ISRAEL DEACONESS MEDICAL CENTER, BOSTON, 
            MASSACHUSETTS
    Senator McConnell. Thank you, Dr. Markowitz.
    I am also going to take Dr. Bird before doing some 
questions. Dr. Bird is a doctor--Dr. Richard Bird, Jr., is a 
doctor of internal medicine on the staff at Beth Israel 
Deaconess Hospital in Boston. He also works with the JSI Center 
for Environmental Health Studies in Boston. Dr. Bird is one of 
two doctors hired by the Department of Energy to investigate 
claims of more than 50 workers at the Oak Ridge, TN, plant who 
were reporting unexplained illnesses.
    He is here today to discuss his findings and to comment on 
the proposals to expand worker health testing programs. Thank 
you, Dr. Bird, and see if you can come close to 5 minutes some 
opportunity for questions.
    Dr. Bird. I will do my best, and I will skip my own 
background information.

                exposure and evaluation of K-25 workers

    It is my understanding that I have been invited here today 
to present a more general summary of some of the findings that 
have been formulated to date in evaluating workers from the Oak 
Ridge, TN, K-25 facility and to identify those areas of work 
which will be forthcoming and of potential importance to this 
committee.
    I thank you for the opportunity to present this information 
today and will begin with some background. In the latter half 
of 1996, I was asked by representatives of Lockheed Martin 
Energy Systems to participate in an evaluation of workers at 
the K-25 facility in Oak Ridge. I was invited to collaborate 
with Dr. James Lockey, Director of Occupational Medicine at the 
University of Cincinnati, who has been a member of the Fernald 
Workers Settlement Fund Expert Panel. In addition to his 
extensive experience in the field of occupational and 
environmental medicine, Dr. Lockey specializes in pulmonary and 
internal medicine.
    Several workers at the K-25 facility had developed symptoms 
and conditions that they were concerned may have been related 
to exposures at work. I had answered a few phone inquiries made 
to JSI in the summer of 1996 from workers representatives who 
had asked specific questions about testing these workers. My 
responses led to a formal request to participate in this 
overall evaluation process.
    Some of the workers at the K-25 facility had been evaluated 
by on-site medical department personnel because of health 
concerns. One provider had performed measurement of urinary 
thiocyanate as a marker of cyanide exposure using what we later 
confirmed was an outdated and unreliable method. The results 
varied widely and included several values that were reported as 
elevated.
    The National Institute of Occupational Safety and Health, 
NIOSH, was asked to respond to the possibility of cyanide 
exposure and took several air samples in the areas where 
workers were found to have elevated urinary thiocyanate 
measurements. NIOSH did not identify corresponding elevations 
in airborne cyanide. However, the question remained whether 
other factors had contributed to various symptoms and 
conditions experienced by several workers.
    Dr. Lockey and I began a series of meetings to initiate an 
individual evaluation process involving over 50 workers who had 
asked to participate, with the goal of attempting to determine 
whether workplace factors had contributed to the symptoms and 
illnesses of each individual case. Dr. Freeman was brought into 
the process by Dr. Lockey to assist with the extensive work 
involved. He is currently on staff in Occupational Medicine in 
Cincinnati as well and has some background in neurology.
    At the outset, Dr. Lockey and I asked to be allowed to 
arrange for independent industrial hygiene measurements or 
studies at the K-25 facility in the event that during the 
process we thought this may be of use to us in specific areas. 
We learned very quickly that the complexity of this site has 
been so vast that it has not been possible for us to 
independently recreate the industrial history of each area of 
potential exposure concern.
    The K-25 facility has operated as a gaseous diffusion plant 
for uranium purification since World War Two until the mid-
1980's. This has included an extensive infrastructure of 
support and research operations, some of which interface with 
the Y-12 production facility and some which involve 
characterizing, storing, shipping, reclaiming, and incinerating 
hazardous materials from various sources. Some industrial 
hazard management and research activities continue today.
    Representatives from Lockheed Martin Energy Systems and now 
Bechtel-Jacobs have been very helpful in attempting to answer 
questions we have had, and we have pursued independent 
industrial hygiene studies of specific areas, however with a 
limited scope. We have also benefited from risk 
characterization summaries prepared for the former worker 
surveillance program. Most importantly, however, we have 
benefited from histories provided by individual workers 
detailing their work experience.
    Many of the workers in our group were involved--in our 
group we were evaluating, were involved characteristically in 
industrial activities that brought them throughout the 
facility. Several began working at K-25 in the 1970's. Some 
worked outside for shorter periods of time, most often at the 
Y-12 facility.
    A smaller portion of the workers in our group were 
administrative, technical, managerial, or service employees who 
were not involved directly in industrial activities. This has 
raised questions about whether they might also have been at 
risk for potentially significant exposures. Some of these 
workers were located in former industrial areas or performed 
jobs nearby ongoing industrial or hazardous storage areas, 
while others were only located in non-industrial buildings. 
Targeted questions have been pursued regarding the possibility 
of hazardous materials in non-industrial areas, some of which 
have been addressed and others are still under review.
    By June of this past summer, a procedural protocol was 
completed to allow us greater access to plant-wide areas, which 
has expanded our understanding of materials and handling 
operations. Despite the complexity of site assessment issues, 
we have worked predominantly on individual medical evaluations, 
which provides the framework for our determination of potential 
work-related illness.
    The principal medical process that we have pursued has 
involved detailed consideration of each individual case, 
including an extensive review of available past and ongoing 
medical records, medical histories, including social, family, 
and occupational histories, physical examinations, and 
referrals for evaluations and diagnostic studies, including 
both markers of effect and markers of exposure when available. 
This has been particularly difficult regarding past exposures.
    This process requires an intimate, personal and 
confidential relationship with individual workers and requires 
attempting to interface with treating physicians either already 
involved in an individual's care or integrated through our 
referral recommendations. Further complexities include interim 
disability determination, insurance management, and financial 
constraints for travel to referrals, much of which has been 
improved on with the help of Lockheed Martin Energy Systems, 
Bechtel-Jacobs, and I believe Department of Energy personnel.

                         basis of Determination

    The principal basis for our determinations has been and 
will be based on our detailed review of individual symptoms and 
conditions, with particular importance placed on chronology in 
relation to work histories and ability or not to establish 
corresponding diagnoses of patterns of illness. Of equal 
importance are pre-existing medical histories, predisposing 
factors, and the possibility of changes in disease patterns in 
relation to work.
    We are attempting to determine within a reasonable degree 
of medical probability and certainty that an individual's 
symptoms and corresponding conditions are or are not likely to 
have been significantly impacted by or due to exposures from 
working at the Oak Ridge K-25 or other facilities or whether 
this is unknown at this time.
    In some cases we are not able to determine whether 
illnesses have been significantly impacted by work factors for 
several reasons, including a lack of adequate medical knowledge 
within the scientific literature on specific occupational 
exposures present at these facilities.
    At the time of our conclusions, we will attempt to identify 
either areas that are in need of further study from a basic 
science and clinical epidemiology perspective.
    Most of the workers have presented with several symptoms 
and conditions, which we have reviewed and summarized in the 
form of illness categories in interim and, more recently, 
update reports. These have included referral recommendations 
linking individuals to treating medical providers. In some 
cases this has led to important treatment interventions 
regardless of work-related considerations.
    To date, we have identified several individuals who are 
likely to have developed respiratory illness impacted by work 
place exposures. Some of the diagnoses have included chronic 
rhinitis and sinusitis, chronic bronchitis and occupational 
asthma. We have identified that approximately 10 percent of the 
workers of our group have developed sensitization to beryllium, 
some of whom worked mostly in non-industrial areas. A few of 
these individuals have also developed actual beryllium-related 
lung disease. We have recommended further characterization of 
the K-25 facility to attempt to identify and remediate areas 
with beryllium contamination.
    We have also identified significantly elevated levels of 
airborne molds in a major hazardous waste storage building and 
recommended that respirator protection be utilized.
    Senator McConnell. Dr. Bird, I am sorry. Let me just say, 
with all due respect to all the witnesses, we are never going 
to finish if we cannot do 5-minute summaries of the statements 
and have an opportunity for a few questions. So if you do not 
mind, what I would like to do is put your entire statement in 
the record. If there is a way for you to finish it in a minute 
or so, that would be great.
    Dr. Bird. I will be glad to do that. Thank you.
    We have identified some workers with neurologic illnesses 
that are likely to have been impacted by work place exposures, 
including peripheral neuropathies, brain function impacts, and 
psychological impacts. We have also identified several workers 
who have developed secondary psychological conditions impacted 
by concerns over work place exposures, concerns about 
deteriorating health, and difficulties associated with working 
in potentially hazardous settings.
    I will skip to really what we intend to present to the 
public in the future relative to these matters. In concluding 
this presentation today, I would like to outline those areas of 
importance which can be derived from this extensive clinical 
undertaking and which we hope to address in more detail when we 
present our conclusions publicly.
    The Oak Ridge facility operated during several decades for 
vital purposes. While this facility has greatly transitioned 
during more recent years, the workers here, both past and 
present, are in need of all that can be done, all that can be 
offered to assist with the potential impacts of activities at 
this site.
    It is appropriate and commendable that the U.S. Department 
of Energy, Lockheed Martin, and Bechtel-Jacobs have pursued an 
in-depth and independent clinical response here for purposes of 
helping several workers with various unexplained illnesses and 
symptoms.
    Individual care requires individual medical evaluations. It 
is often difficult, however, for any patient with a potential 
occupational illness to identify providers who have the time or 
background to consider work place factors. In those industrial 
settings which are extremely complex and pose uniquely 
concerning hazards, it is especially important to consider the 
use of clinical evaluators knowledgeable about the type of 
exposures that can exist in these types of facilities to 
develop an approach that can be applied to other workers or 
community members.
    We anticipate presenting a more detailed summary of work-
related illnesses identified at the Oak Ridge facility. We will 
elaborate on more difficult areas that raise further questions, 
including limitations of medical knowledge for diagnostic and 
clinical purposes, and will make suggestions about additional 
studies that may be helpful.
    We will summarize any specific exposure concerns pertaining 
to this site and make recommendations for further assessments 
of areas that we identify as important. We will be available to 
collaborate with Dr. Markowitz and others to help determine 
whether general surveillance should be expanded based on our 
findings, and we will consider recommendations for conveying 
our findings to regional medical providers, including locations 
that have the capability for in-depth evaluations of other 
workers and for those involved in providing ongoing care.
    Thank you very much.
    Senator McConnell. Let me just say, in fairness to all the 
witnesses, we have a lot of witnesses and we have a lot of 
questions. So what we are going to do after this panel is 5 
minutes means 5 minutes; the hammer is coming down. It does not 
mean anything you have to say is going to be lost, because we 
are going to have an extensive record here.
    If I am unable to ask all the questions, they will be 
submitted to you in writing, because we want a complete record, 
and we will ask you to return those answers within a couple of 
weeks.

                 change in DOE program office structure

    Mr. Fuller, you indicated in your testimony that you share 
my view that the Paducah and Portsmouth program office should 
be moved out of Oak Ridge. Could you explain how the workers 
might benefit from this proposal?
    Mr. Fuller. I think, Mr. Chairman, I think there would be a 
benefit in that effort, cleanup efforts at Paducah, we could 
have a management team on site at Paducah that could focus 
themselves on the particular jobs that are things that need to 
be accomplished at Paducah. I think that with that we could be 
a lot more effective. I think we could save money, and I think 
we could get the attention we need. We could direct the proper 
job at the proper time with the proper people, and I believe we 
could do it more safely and with better oversight.
    So those are part of the reasons that I would support that.

                  DOE compensation program at Paducah

    Senator McConnell. Your testimony cites a number of 
examples of Federal compensation programs that have been 
established to help workers who served their country in 
connection with the nuclear weapons program. Prior to the 
lawsuit which generated all the attention at Paducah, what 
level of compensation program was being offered to the workers 
at the gaseous diffusion plants, and did you ask the Department 
to establish a plan for your members?
    Mr. Fuller. We have not--we did not. The only recourse that 
we have ever had has been through the State, State recourse, 
and of course that is almost impossible to recover anything 
through the State, because of the burden of proof problem, to 
have to show causation. We have naturally not been able to do 
that.
    And no, we had no request or special request prior to this 
for that.

                    Site regulatory responsibilities

    Senator McConnell. Have you noticed a change in USEC 
operations as a result of the Nuclear Regulatory Commission 
taking over regulatory responsibilities from DOE?
    Mr. Fuller. Yes, Mr. Chairman, as a matter of fact I have. 
I do not know that I have any data to back this up, but I can 
certainly tell you how it appears to me, working in the site 
and being there every day. In my judgment there is considerable 
more stricture, more procedure, more emphasis on those things, 
on procedure and safety concerns.
    Just, if I might say, it just seems to be a tighter ship 
safety-wise and in regard to how workers do their jobs and how 
the plant is run.
    Senator McConnell. Would you support bringing in an 
independent regulator to ensure that DOE's worker health and 
safety standards are not compromised?
    Mr. Fuller. Certainly, yes. The last thing the union wants 
is to see any compromise on worker health and safety, and we 
would support anything that would ensure that.
    Senator McConnell. You noted in your testimony that the 
existing management and integrator contract has compromised 
worker safety. This position is supported by the phase one 
investigation. You noted that the problem could be solved by 
hiring experienced workers.
    The question is what have DOE and Bechtel-Jacobs done to 
help transition the experienced workers into these cleanup 
jobs?
    Mr. Fuller. Well, Mr. Chairman, that has been a point of 
ongoing problems. We have been endeavoring over the past few 
months to work with Bechtel-Jacobs to come to some agreement 
that would transition incumbent workers into the cleanup 
efforts. To this point, we have only been able to get Bechtel-
Jacobs to discuss 28 jobs with us for transition. That is with 
the full knowledge that there is a huge amount of work that 
will be done out there in the near future, one hopes, and we 
would want to be able to transition the incumbent work force 
into those jobs, for what we think are obvious reasons.
    We have a huge amount of institutional knowledge in that 
incumbent work force, people who are familiar with the site, 
familiar with the problems, and could be of great value if we 
can transition those folks into the jobs.
    I will say that we have had a hard time getting that done. 
One of the problems, of course, is the timing of the 
transition. There is a good chance there may be layoffs at that 
site, and that is this summer. If we could coordinate the 
transition of workers to the cleanup side of the house in the 
same time frame that people may be losing their jobs due to 
layoffs with USEC, we could probably accomplish that transition 
more smoothly.
    Senator McConnell. Do you feel that the Nuclear Regulatory 
Commission, which regulates USEC activities, is more responsive 
to worker concerns or is the Department of Energy, which 
regulates its own activities, more responsive?
    Mr. Fuller. We have found NRC to resist direct interaction 
with the unions to a large degree. That is, they do not 
officially include us on their mailings or copy us on 
information. We are not routinely a part of their outbriefings 
and so forth.
    So they do not have a place for us in their scheme of 
things. They deal with management and they expect us to deal 
with management. They do not deal directly with us. That is a 
bit of a problem. I would like to see a situation where they 
would include the union and the worker representatives, see 
them have an interaction with the NRC in the future, if there 
is some way we could do that. We miss that.

                     Lung cancer screening program

    Senator McConnell. Mr. Fuller, I want to reiterate my 
strong support for the efforts of Dr. Markowitz to help workers 
identify and receive treatment for the illnesses they might 
have contracted while working at the plants. I also strongly 
support his proposal to expand the testing program to include 
current workers and to begin the early detection lung screening 
program.
    I was pleased that the Energy and Water Appropriations 
Conference Report for fiscal year 2000 included language that I 
added requesting that the Department expand the program to 
provide funding to begin the lung screening effort, which as 
you indicated, is so valuable in detecting early stage lung 
cancer.
    Dr. Markowitz, you indicated in your testimony that in 
order to test the 15,000 former workers at the three sites 
based on the Administration's requested funding level it would 
take 12 years. If the goal of the program is to help workers 
identify illnesses as early as possible, why do you suppose the 
funding level is so low?
    Dr. Markowitz. I think they probably arrived at an overall 
figure for the program nationwide and divided it by the number 
of sites that they wanted to cover. I do not think that the 
budgetary figure actually has any relationship to need. If it 
were, there would have been a different process of matching up 
what we know about exposures that people have had, what they 
are at risk for, and what that means in terms of budget. In 
other words, one would have designed a medical program and then 
looked at budgetary allocations that matched that program. That 
was not the process as far as I know.
    Senator McConnell. Do you know who decided to exclude 
current workers and what the basis for that decision was?
    Dr. Markowitz. I know from the beginning that the emphasis 
was on former workers. I am not certain whether current workers 
are absolutely excluded by DOE, but I know all along that the 
emphasis was on former workers, in part because they may be at 
higher risk. They worked earlier years at the plant and they 
have had a longer time to develop occupational illnesses.
    But clearly, many of the current workers have also had a 
long period of time and have also suffered exposure conditions 
that would lead to disease.
    Senator McConnell. What would it cost to expand the testing 
program to 5,750 workers a year? Do you have a budget estimate 
for that?
    Dr. Markowitz. Yes. It would cost $5.8 million. We 
currently receive $1 million. For an additional $5.8 million, 
we will go from testing 1,200 workers per year at the 3 gaseous 
diffusion plant sites to 5,750 workers per year. In addition, 
we would include CT scanning for the early detection of lung 
cancer.
    Senator McConnell. Would that include purchasing new 
equipment, the figure you just gave?
    Dr. Markowitz. Yes. The $5.8 million includes purchase of a 
CT scanner and a mobile unit to transport the CT scanner among 
the various sites. Those equipment costs are about $1.4 
million, so actually the cost in subsequent years would be less 
of actually operating the program because we would have the 
equipment at that point.
    Senator McConnell. And at that level you could complete the 
whole thing in how many years?
    Dr. Markowitz. We could offer to current workers, we could 
offer the program to all the current workers, within 2 years. 
For the former workers, it would take probably closer to 4 or 5 
years.
    Senator McConnell. After listening to Dr. Bird's testimony, 
how do your findings compare to the research compiled by him?
    Dr. Markowitz. They really are sort of different areas. Dr. 
Bird and Dr. Lockey focused on several dozen individuals who 
were ill, claimed illness from workplace exposures, and a 
variety of illnesses. Heretofore, we focused on diseases for 
which section 3162 mandated screening, that is to say 
conditions that we could identify early for whom we could do 
some good, and in complying with that we have focused on 
chronic lung disease, kidney and lung disease and hearing loss.
    Now, I will admit that does not cover the whole gamut of 
occupational illness. We could not do that for that budget. But 
in addition, all of occupational illness is really not amenable 
to early intervention and identification. So I think to some 
extent there is some overlap, but also some mutually exclusive 
aspects to his work in what we are screening for.

        impediments to identifying Risks and sources of exposure

    Senator McConnell. For both Dr. Markowitz and Dr. Bird, 
what are the greatest impediments you have come up against in 
identifying risks and source of exposure to the work force? 
More specifically, what information could the Department or the 
contractors provide to you that would assist you in diagnosing 
workers? You want to lead off, Dr. Bird?
    Dr. Bird. Well, I think that exposure information, as I 
tried to elaborate on somewhat in my testimony, is a very 
difficult topic, because the greatest information comes from 
the work experience of individual workers. There certainly was 
a very impressive industrial hygiene operation on site and 
there is a lot of information that is so vast that it is 
impossible for me to, or Dr. Lockey and our team, to have an 
ability to fully understand all that is going on here. You are 
talking about 40 years and 50 years of very detailed monitoring 
throughout the site.
    So the real question is can we identify diseases that are 
likely to be related to the exposures that we are concerned 
about here, and that is our task. This is a very different 
process than what can be done in screening, and I think that we 
can learn quite a bit from having come in from the outside 
because of the independent relationship with patients, 
independent of fears about employers and revealing things that 
they feel might jeopardize their job security or things of that 
sort. We can identify personal non-work-related and discuss 
those illnesses as well in that process.
    Senator McConnell. Anything to add on that?
    Dr. Markowitz. Well, we have gotten excellent cooperation 
by all parties, including the contractors, certainly the local 
unions, Department of Energy, both at the sites and at the 
central office. I know Assistant Secretary Dr. Michaels is 
supportive of the program.
    Part of the problem with exposure data which is really key 
is that we do not know entirely what is there. We conducted a 
1-year needs assessment for the three sites about 2 years ago 
and we profiled what we believe to be available exposure data, 
characterizing what people have been exposed to over the 
previous years. We knew those data were inadequate, so we did 
risk mapping of our own, taking groups of workers and mining 
their collective memory to look at what kind of exposures have 
occurred over the past several decades.
    Now we find out in August of this year that there was 
contamination with plutonium and neptunium that we did not know 
about. So in some respects it is a question of there being data 
that exist that we simply do not know about, so we do not know 
to ask for that.
    We would like a complete cataloguing of those data that 
exist and having access to them.

                  expansion of Health research efforts

    Senator McConnell. Dr. Markowitz, you have been working 
with the Kentucky School of Public Health, which is a joint 
effort between the University of Louisville and the University 
of Kentucky. Could you update us on the opportunities to expand 
the health research you are currently considering and how might 
this benefit the work force and their families and the 
community?
    Dr. Markowitz. We have had communications, several in fact, 
with physicians and others from the University of Kentucky in 
Lexington, the medical school, and also the University of 
Louisville, the medical school. These have been excellent 
discussions. We would like very much to include them in our 
program. They want to be one of the clinical facilities doing 
the screening at Paducah and if we get the expanded funding we 
will be glad to include them in that.
    We think they can play a central role in creating what does 
not exist right now, which is a diagnostic and treatment center 
for patients, for former and current DOE workers, in Paducah. 
By the way, I think Portsmouth and Oak Ridge need access to 
such a center as well. I am speaking about a regional center of 
excellence in which physicians would be able to provide honest, 
independent, expert opinion about the diagnosis and treatment 
of occupational disease. Workers in Paducah should have access 
to that.
    We are providing screening. Ours is a one-time screening to 
identify people who need further diagnosis and treatment, and 
they need that kind of resource, and I think that the medical 
schools in the State should absolutely be involved with that.
    There may be some research opportunities to collaborate 
with them and we are certainly receptive to that, as long as it 
is clearly in the welfare of the workers at the Paducah site.
    Senator McConnell. Finally, to Dr. Bird and Dr. Markowitz 
both, have you reviewed the 1983 autopsy report on Joe Harding? 
What are your conclusions and have you seen other workers 
exhibiting similar conditions?
    Dr. Bird. I have not reviewed that, no.
    Dr. Markowitz. I have not reviewed that in depth yet, 
either, so I really cannot comment on that.
    Senator McConnell. All right. Well, I want to thank all 
three of you for being here this morning. We appreciate it very 
much.
STATEMENT OF DAVID MICHAELS, PH.D., ASSISTANT SECRETARY 
            FOR ENVIRONMENT, SAFETY AND HEALTH, 
            DEPARTMENT OF ENERGY
ACCOMPANIED BY:
        DR. DAVID STADLER, DOE'S ACTING DEPUTY ASSISTANT SECRETARY FOR 
            OVERSIGHT
        BILL ECKROADE
    Senator McConnell. We would like now to call Dr. David 
Michaels, the Assistant Secretary of the Department of Energy's 
[DOE] Environmental Health and Safety Program, who will present 
the findings of the DOE phase one study. Dr. Michaels has been 
in his current position for about a year and is also the DOE 
official overseeing the investigation at the Paducah plant. 
Before joining DOE he was a professor of community health at 
City University in New York. He is also an epidemiologist, with 
more than 20 years of experience in public health, particularly 
occupational and environmental health associated with the 
impact of industrial operations.
    We are pleased to have you here, and let me say again, at 
the risk of appearing heavy-handed, 5 minutes means 5 minutes, 
and not a single pearl in your statement will be lost. It will 
all be part of the record, and that will give us an opportunity 
to have some questions.
    Go right ahead, Dr. Michaels.
    Dr. Michaels. Thank you, Senator McConnell. I greatly 
appreciate the opportunity to discuss the results of the first 
phase of DOE's independent investigations into allegations of 
environment, safety, and health concerns at the Paducah gaseous 
diffusion plant.
    As you know, Secretary Bill Richardson committed to conduct 
a complete and independent investigation of these allegations, 
and this report represents the first installment on that 
commitment. Detailed results from the investigation, released 
last week, are provided in my written statement and in the 
report itself.
    With me here today are Dr. David Stadler, DOE's Acting 
Deputy Assistant Secretary for Oversight, and Mr. Bill 
Eckroade, who led the environmental section of the 
investigation.
    This investigation was conducted by senior investigators 
and technical experts from my staff. We will be planning to do 
similar investigations at the gaseous diffusion plants in 
Tennessee and Ohio shortly.
    I am just going to go through this very fast. We divided 
this investigation into two phases, so we can give you the 
first results pretty quickly. The second phase is under way, 
focused on historical environment, safety, and health 
performance, that is before 1990, and we hope to have that 
investigation completed by January 2000.
    At the outset let me say that the investigation team found 
no immediate threat to Paducah workers or to the public that 
would require the plant to be closed down. Cleanup is being 
conducted in accordance with an agreement among DOE, EPA, and 
the Commonwealth of Kentucky and the site is currently in 
compliance with that agreement.
    The team noted that since the early 1990's steps have been 
taken to protect the public and mitigate the impact of 
radiological and chemical contamination, such as hooking up 
homes with public water, so the current risk from this 
contamination is not high. Actual radiation exposures to 
workers have been low and injury and illness rates at the 
Paducah site are lower than at many other DOE sites.

                       results of Phase one study

    At the same time, however, the team identified a number of 
problems that, viewed together, are cause for concern, 
management attention, and corrective action. The team concluded 
that, while the site is in compliance today, its inability to 
meet upcoming major cleanup milestones under that agreement is 
threatened.
    Work to date has been limited largely to characterizing 
contamination, operating and maintaining the site, meeting 
regulatory requirements, and controlling the spread of 
contamination. Most contamination sources identified in 1991 
still remain. Ground water contamination plumes now extend more 
than two miles off site and continue to grow, and the site has 
not adequately characterized these plumes.
    The team concluded that significant steps to improve 
protection of the public and the environment are needed to 
avoid the possibility of health risks in the future. Management 
needs to emphasize actual remediation that addresses continuing 
sources of contamination, to limit degradation of contaminated 
buildings, and to control the continued spread of 
contamination.
    In the area of radiation protection, the team found that 
since the 1990 tiger team report, progress has been made. While 
the investigation team identified similar deficiencies today, 
the magnitude of these problems is less. Records indicate the 
external doses to employees from the types of radiation present 
at Paducah are very low and there have been no significant up 
intakes of radioactive material.
    Radiological protection problems found today are typical of 
a site that has had to cope with legacy hazards for many years 
and which is no longer an operating facility. There has been 
increasing reliance on worker knowledge rather than a 
disciplined and rigorous application of controls. These 
weaknesses are worsened by the lack of effective DOE or 
Bechtel-Jacobs oversight of radiation work practices.
    Criticality safety deficiencies in storage areas, 148 areas 
where large amounts of legacy materials are stored across the 
site, pose an unnecessary hazard to workers in the surrounding 
areas. These materials have not been characterized fully and 11 
of them contain potential fissile material deposits. As a 
result, the risk of inadvertent criticality, while remote, is 
not known.
    Finally, the team reviewed the quality of oversight ES and 
H activities at Paducah by the Department and its contractors. 
The current effectiveness of line management oversight of 
environment, safety and health and assurance of compliance with 
DOE requirements is a matter of concern.
    In response to this report, line management has developed 
interim corrective actions, such as providing additional 
radiation protection training and dosimetry for subcontractors, 
increased posting of contaminated areas, and precautions to 
further limit the potential for criticality accidents. Further, 
DOE offices at both headquarters and the field are developing 
detailed corrective action plans, to be submitted within 30 
days.
    I want to emphasize that Secretary Richardson takes the 
concerns that have been raised seriously and is committed to 
investigate and resolve them. We have much work in the months 
ahead as we complete the second phase of this investigation.
    Mr. Chairman, my testimony also describes the status of 
several activities being managed by my office that were 
initiated by Secretary Richardson in response to the concerns 
in Paducah. These include the study of the flow of recycled 
materials throughout the DOE complex, a worker exposure 
assessment project to help inform Paducah workers and workers 
at Portsmouth and Oak Ridge about their exposures, and the 
expanded program for medical monitoring for both current and 
former workers as described by Dr. Markowitz.

                           prepared statement

    As you know, despite your best efforts, for which we are 
deeply grateful, funds for these activities requested by the 
Department in the budget amendment earlier this year were not 
provided. Indeed, the budget for my office was reduced 
significantly. As a result, we are having to defer progress on 
a number of these activities, especially when they involve 
contract support, until we are able to identify a source of 
funds. These remain very high priorities for the Secretary. He 
is committed to work with you and the committee to find 
sufficient funds.
    Thank you for this opportunity to testify.
    [The statement follows:]

                 Prepared Statement Dr. David Michaels

                              introduction
    Thank you, Mr. Chairman. I appreciate the opportunity to present 
the results of the first phase of the independent investigation into 
allegations of environment, safety and health problems at the Paducah 
Gaseous Diffusion Plant (PGDP) in Paducah, Kentucky. As you know, 
Secretary Richardson committed to conduct a complete and independent 
investigation to determine if any of these allegations were true. He 
further committed to determine if workers were made ill because of 
inadequate worker protections and that if they were, to seek to provide 
them with fair compensation.
    DOE is currently responsible for environmental cleanup of waste 
generated prior to 1993 when the facilities were leased to the United 
States Enrichment Corporation (USEC), and for the management of the 
inventory of depleted uranium hexafluoride (UF6) stored at PGDP. This 
work involves approximately 94 employees of Bechtel Jacobs, the DOE 
current contractor for cleanup at the Paducah site, a transient 
subcontractor work force of up to 300 workers, and a small number of 
workers for USEC that support site cleanup or management of the 
inventory of depleted uranium hexafluoride. Uranium enrichment 
activities were transferred to USEC in July 1993 in accordance with the 
Energy Policy Act of 1992. Uranium hexafluoride and worker safety 
issues are covered under the authority of the Atomic Energy Act with 
oversight by DOE. USEC is subject to NRC regulation.
    Because PGDP is a designated Superfund site, cleanup is being 
conducted in accordance with a Federal Facilities Agreement (FFA) among 
DOE, the Environmental Protection Agency, and the Commonwealth of 
Kentucky. This agreement establishes milestones and a schedule for 
meeting them. DOE and its contractors have managed the PGDP under the 
FFA since the mid-1980s, and the Paducah site is currently in 
compliance. The investigation found no immediate threat that would 
require cessation of all plant activities. The current risk to the 
public is not high, radiation exposures to employees have been low, and 
injury and illness rates at the Paducah site are lower than at many 
other DOE sites.
                      genesis of the investigation
    In May 1999, the Department became aware that a qui tam case would 
be filed under the False Claims Act in U.S. District Court. This suit 
alleges fraud on the part of contractors at the Paducah Gaseous 
Diffusion Plant, based on current and past environment, safety and 
health violations. Once the case was filed, it was placed under a court 
seal that prohibited DOE from acknowledging or discussing the case with 
any party outside the federal government. While the allegations could 
not be discussed, the Secretary felt it important to ensure that there 
were no imminent threats to the environment, public health or safety 
and sent a technical team of radiation safety professionals, health 
physicists and environmental engineers to conduct an on-site review of 
the areas currently under DOE's control. No public dialogue could be 
initiated at that time because of the restrictions imposed by the court 
seal. In August, many of the allegations became widely reported in the 
national media and Secretary Richardson called for a comprehensive 
response to the public allegations. The court seal was subsequently 
lifted allowing the Department to publicly discuss its responses to the 
allegations.
    Many of the concerns regarding worker safety and health stem from 
the presence of plutonium and other radioactive materials at PGDP and 
the question of whether workers were adequately informed or prepared to 
handle such materials. These materials resulted from the recycling of 
uranium from weapons production plants to the gaseous diffusion plants 
during the 1950s, 1960s, and 1970s. Concerns are focused on the 
transuranic elements and fission products that were and are present in 
this recycled uranium. It is estimated that approximately 100,000 tons 
of recycled uranium were processed at the Paducah plant.
    Environmental concerns alleged in the suit include both on-site and 
off-site contamination from legacy radioactive or hazardous materials, 
and the potential for harm to workers or public health and safety. 
Allegations include:
  --possible improper disposal of hazardous or radioactive materials 
        both on- and off-site in publicly accessible areas;
  --apparent inappropriate release of materials that were radioactively 
        contaminated, release of contamination into site streams and 
        drainage ditches, claims of inadequate control and posting of 
        offsite contaminated areas, and
  --suspected exceedences of radiological air emission standards.
                  conduct of independent investigation
    The comprehensive investigation into environment, safety and health 
(ES&H) concerns at PGDP is being conducted by a senior team of 
investigators and technical experts from my staff. The PGDP 
investigation will be followed by similar investigations at the other 
Gaseous Diffusion Plants in Oak Ridge, Tennessee and Portsmouth, Ohio. 
The PGDP investigation was divided into two phases so that we would be 
able to provide a timely assessment of the current state of 
environmental protection, and worker and public health and safety. The 
purpose of the first phase was to determine whether current work 
practices for those areas of the site that are the responsibility of 
DOE are sufficient to protect workers, the public, and the environment. 
The second phase is currently underway, and is evaluating environment, 
safety and health performance and concerns with historical plant 
operations from its inception through 1990. We expect that 
investigation to be complete in January, 2000.
    The scope of the first-phase investigation included: facilities and 
properties under DOE jurisdiction; ES&H issues associated with these 
facilities and properties from 1990 to present, including interactions 
between DOE and stakeholders; and ES&H issues associated with uranium 
enrichment facilities from 1990 to 1997--the point when NRC assumed 
regulatory oversight of the gaseous diffusion processes, facilities, 
and personnel. The DOE-controlled operations that were examined 
included: landlord infrastructure; legacy and newly generated waste 
treatment, storage, and disposal; site remediation; uranium 
hexafluoride cylinder storage; facility decontamination and 
decommissioning; and TCE and polychlorinated biphenyl (PCB) collection, 
treatment, and cleanup. The investigation did not examine areas leased 
by the United States Enrichment Corporation (USEC) that are under 
Nuclear Regulatory Commission (NRC) jurisdiction.
    The investigation team gathered information in a number of ways, 
including: interviewing personnel; observing work activities and 
performing walkdowns of facilities, work areas, and the site grounds; 
conducting groundwater, surface water, sediment, and soils sampling; 
conducting radiological surveys; and reviewing documents. More than 100 
interviews were conducted with DOE Headquarters, Oak Ridge Operations 
and Paducah Site Office personnel; Bechtel Jacobs and subcontractor 
managers, supervisors, and workers; selected USEC personnel; and 
stakeholders. The team also reviewed hundreds of documents including 
plans, procedures, and assessments that provided perspectives on the 
assignment of roles and responsibilities, conduct of work activities, 
and the record of assessment findings.
    The Investigation Team collected more than 30 samples from 
groundwater wells, surface water sources, sediments, soils, and from 
materials, equipment, and facilities. Samples were collected both 
inside the security fence as well as on DOE property that is outside 
the fenceline perimeter. These samples were evaluated for the presence 
of radioactive and non-radioactive contaminants.
Investigation Results
    The team noted that a number of significant environment, safety and 
health improvements had been achieved since the early 1990s. Since the 
mid-1980s, steps have been taken to protect the public and mitigate the 
impact of radiological and chemical contamination, such as hooking up 
homes to public water. In the worker safety area, there have been 
enhancements to the radiation protection program, radiation exposures 
to employees have been low, and injury and illness rates at the Paducah 
site are lower than at many other DOE sites.
    At the same time, the team identified a number of weaknesses in 
each of the areas reviewed. While the team found no immediate threat 
that would require cessation of site activities, it found the 
cumulative impact of the deficiencies to be a cause for concern and 
corrective action. The results of these evaluations are presented in 
three main categories--Public and Environmental Protection, Radiation 
Protection/Worker Safety and Health, and Line Oversight.
Public and Environmental Protection
    Industrial operations at PGDP have produced large quantities of 
legacy materials that have been disposed of in landfills or burial 
grounds, released into the environment, or placed in long-term storage. 
Current DOE operations at PGDP focus primarily on the administration of 
programs to address these legacy materials and on infrastructure 
maintenance. The team found that cleanup plans and strategies have been 
developed in accordance with federal environmental regulations and the 
site is currently in compliance with the provisions of the Federal 
Facilities Agreement.
    Investigations conducted in 1990 and 1991 reported that the PGDP-
contaminated offsite groundwater plumes are some of the largest in the 
DOE complex. Radiological and chemical contamination has spread from 
the site boundary into the groundwater and surface sediments, 
particularly into the Big and Little Bayou Creeks. Contamination 
continues to migrate from sources into the environment. Numerous 
locations of radiological and chemical contamination have been 
discovered on DOE property both on-site (within the plant security 
fence), on the DOE property outside of the plant security fence, and in 
``offsite'' areas now managed by the Kentucky Fish and Wildlife 
Service.
    The plant has taken effective interim steps since 1990 to protect 
the environment and public health. Groundwater pump-and-treat efforts 
have helped to impede some of the highest areas of contamination, and 
alternate sources of water have been provided to residents with 
contaminated wells. These steps have slowed the spread of contamination 
from the site to the surrounding environment and reduced public risk, 
but contamination sources still exist, and the groundwater plume has 
continued to spread from the site. In addition, actions have been taken 
to control waste management activities at the point of generation and 
in the facilities subject to external regulation.
    While the current risk to the public is minimal, the team 
determined that significant improvements are needed in environmental 
protection.
    Findings:
    1. Although the site is in compliance with the FFA, there has been 
limited progress in remediating and characterizing environmental 
contamination, low level waste, and stored hazardous materials produced 
by industrial activities. The meeting of major cleanup milestones under 
the Federal Facilities Agreement is jeopardized by inadequate funding. 
Work has been largely limited to characterizing contamination, 
operating and maintaining the site infrastructure, meeting regulatory 
requirements, and controlling the spread of contamination. Many of the 
areas of significant radiological and environmental contamination have 
been identified during past investigations and are the subject of 
existing compliance agreement.
  --Most of the sources of contamination identified in 1991 still 
        remain. Contaminated materials from burial grounds, old 
        landfills, inactive waste lagoons, or spill sites identified in 
        1991 have not been removed or treated. Groundwater plumes 
        containing trichlorethelene (TCE) and technetium-99 resulting 
        from these source areas continue to propagate at one foot-per-
        day and now extend for over two miles.
  --Contaminated process buildings, shut down more than 20 years ago 
        with no possible future use, have not been adequately 
        maintained or removed. These buildings still contain hazardous 
        materials and have been allowed to deteriorate; they are 
        subject to animal infestation, broken windows, and leaking 
        roofs, are not included in the current cleanup schedule, and 
        are increasing in risk and cost to decommission.
  --A large volume of contaminated waste materials at Drum Mountain and 
        scrap metal that has accumulated since the 1950s is stored 
        outside. These areas continue to contribute contamination to 
        the environment through surface water runoff and dispersion. 
        The Federal Facilities Agreement requires removal of this 
        material from Drum Mountain and beneath it by 2003, but current 
        target funding levels threaten reaching this milestone.
  --An equivalent of 31,000 55-gallon drums of low-level waste are 
        stored onsite at Paducah, much in containers that were not 
        designed for long-term storage. Many of the containers stored 
        outside are severely degraded, and some have leaked due to this 
        degradation. Much of this waste has yet to be fully 
        characterized--only 157 cubic meters have been shipped from the 
        site since 1990, and the schedule for completion of disposal 
        has been delayed from fiscal year 2006 to fiscal year 2012.
  --The 148 DOE Material Storage Areas (DMSAs) located across the site 
        that contain large amounts of material that has yet to be 
        characterized. These areas are not being managed pursuant to 
        either the CERCLA or the RCRA .
  --The nearly 37,000 uranium hexafluoride (UF6) cylinders stored 
        onsite in the open at the Paducah plant constitute a 
        radiological exposure hazard and a potential threat to worker 
        and public health in the event of fire and rupture. The Defense 
        Nuclear Facilities Safety Board Recommendation to upgrade the 
        condition and convert the UF6 to a more stable form has been 
        impacted by the cancellation of painting 1,400 cylinders due to 
        funding constraints. Funds have not yet been appropriated for a 
        UF6 conversion facility.
    2. There are continuing weaknesses in the radiation protection 
management of known environmental contamination areas by both Bechtel 
Jacobs and DOE. While the areas of most significant radiological 
contamination have been identified during past investigations, 
deficiencies in radiological characterization, posting, contamination 
control, and application of environmental as-low-as-reasonably-
achievable principles remain. While these conditions don't present a 
current health risk, such weaknesses violate sound health physics 
practices. Some examples include:
  --The full extent of radiological contamination on DOE property (both 
        inside and outside the site security fence) has not been 
        characterized. For example, at a recently identified area of 
        contamination adjacent to a landfill, a radiologically-
        contaminated tar-like substance was discovered and subsequently 
        covered and posted to control access. There is no documented 
        listing or database of radiologically-contaminated areas other 
        than what is included in the Solid Waste Management Unit 
        listings, which are not maintained by the radiological control 
        organization and do not clearly designate contaminants of 
        concern for each Solid Waste Management Unit.
  --Areas with levels of contamination that exceed Bechtel Jacobs 
        radiological posting criteria were noted on DOE property at 
        some distances beyond the site security boundary. Under the 
        Bechtel Jacobs health physics procedures, these areas should 
        have been posted as soil contamination areas with appropriate 
        measures taken to prevent inadvertent entry. Some of these 
        areas are currently posted with signage and wording that are 
        the result of CERCLA Records of Decision or interim corrective 
        measures, but these postings are not consistent and, in some 
        cases, do not indicate presence of a radiological hazard. These 
        areas are not posted or controlled in accordance with 10 CFR 
        835, Occupational Radiation Protection.
    3. Not all groundwater contamination has been fully and adequately 
characterized. While DOE has made extensive efforts to characterize the 
major sources and the extent of groundwater contamination and has 
established a water policy to ensure that public receptors are 
adequately protected, some areas have not been fully characterized. For 
example, sufficient data are lacking on the leading edges of both the 
Northeast and the Northwest Plumes. The density and positioning of 
monitoring wells are not adequate to assess the furthest movement or 
the discharge locations, such as streams, of the two northern plumes. 
The most recent plume map shows that movement has occurred under a 
portion of the Tennessee Valley Authority property, which borders the 
Ohio River.
    4. Unclear assignment of responsibilities and lack of expertise 
have adversely impacted the understanding of environmental conditions. 
Neither DOE nor Bechtel Jacobs staff at the site have the requisite 
comprehensive knowledge of the nature of existing contamination in the 
various environmental media (surface water, sediment, soils, 
groundwater, and air). Sufficient technical personnel are not available 
to interpret the vast amounts of data associated with specific 
environmental disciplines.
    5. Environmental information to the public has sometimes been 
delayed and is in forms not always clearly understood by the general 
public. Upon discovery of groundwater contamination in 1988, the site 
prepared a Community Relations Plan in response to CERCLA requirements. 
A review of current programs and activities to communicate information 
to the public identified a number of weaknesses, largely due to the 
lack of clearly defined roles and responsibilities for public 
communication. Annual environmental reports do not contain a clear 
summary of site conditions or public health risks. As a result, members 
of the public--including the Site Specific Advisory Board--have a 
perception that DOE does not adequately disclose information about 
hazards and risks.
Environmental Sampling Results
    Environmental samples were collected and analyzed by the 
investigation team in an effort to confirm that the current analytical 
results being reported by the site are accurate and representative of 
environmental conditions. Site subcontractor personnel collected all 
the samples in accordance with approved procedures that follow EPA-
established guidelines. The investigators witnessed the collection of 
all samples, and chain-of-custody forms were completed.
    Groundwater samples were generally taken at the extremities of the 
reported plumes to confirm the extent of contaminant migration. Surface 
water samples were taken at major site outfalls flowing during the 
sampling period, and at points associated with surface waterways in the 
vicinity of the Plant. Soil and sediment were primarily sampled at 
outfalls and ditches near source areas of contamination. Groundwater, 
surface water, soil, and stream sediment were sampled and analyzed for 
key radionuclides and volatile organic compounds, including technecium-
99, plutonium-239/240, neptunium-237, uranium-238, thorium-230, 
americium-241, and cesium-137, volatile organic compounds including 
trichlorethelene (TCE) and polychlorinated biphenyls (PCB).
    Radiological and chemical contamination in groundwater, surface 
water, and soils/sediment were detected in some of the samples. With a 
few exceptions, the types and levels of contamination detected were 
consistent with the levels identified by past environmental monitoring 
conducted by the site, and do not pose a current public health or 
safety risk. The detailed results are provided and discussed in the 
investigation report.
    Groundwater.--The oversight investigation team's groundwater 
sampling strategy involved sampling ahead of the plume in the direction 
of the plume movement in order to confirm the advance of the 
contamination. In a one-to-one comparison using previous data from the 
same wells, analytical results agreed with those in the site database 
and the chemical analyses of contaminants being reported by the site. 
Results indicate that the Northwest Plume is migrating northward 
through the TVA property.
    Surface water.--Surface water samples were collected from nine 
selected locations along the Little and Big Bayou Creeks as well as at 
several Plant Outfalls where surface water was present. Radioactivity 
analyses for surface waters showed relatively low concentrations for 
all isotopes, with the North-South Diversion Ditch sample showing the 
highest levels of uranium and technetium-99. Transuranic and thorium 
isotopes were either not detected or were present in very low 
concentrations, consistent with prior sampling results conducted by the 
site. The surface water results are all well below the levels required 
in the DOE Order 5400.5.
    Soil.--A total of eight soil/sediment locations were sampled for 
radionuclide and PCB contaminants adjacent to the site, and one was 
collected inside the site security fence near the Drum Mountain area. 
The magnitude of the radionuclide results was generally in keeping with 
historical data reported by the site.
    Recommendations:
    Radiological and chemical contamination from PGDP industrial 
activities have been released into the ground, soil, and air around the 
plant. These conditions have prompted DOE and regulatory organizations 
to take a number of steps to protect public health. Because of the 
limited duration of exposures of the public to contamination and the 
mitigation measures taken, DOE operations do not present a significant 
public health risk at this time.
    Nevertheless, significant improvements in protection of the public 
and the environment are needed to avoid the possibility of a future 
health risk. Adequate funding and management emphasis on actual 
remediation activities are needed to address the sources of continuing 
contamination, to limit the degradation of contaminated buildings, and 
to control the continued spread of contamination pending cleanup. 
Exposure pathways need to be better characterized to fully document the 
technical basis and the site's conclusion that no significant public 
exposures to radiation sources, such as fugitive air emissions, are 
occurring. Site management also needs to improve the characterization 
of groundwater in several areas, such as the extent of progression of 
the Northwest Plume toward the Ohio River. Improvements in waste 
management practices are needed to address storage of materials in 
DMSAs and the degrading containers of low level waste.
Radiation Protection and Worker Safety and Health
    The Bechtel Jacobs radiation protection program exists to protect 
individuals from radiological exposures that may occur as a result of 
DOE activities at the PGDP. These activities have changed during the 
1990s as a result of the transition of gaseous diffusion operations to 
USEC. Despite the mission change, the nature, extent, and magnitude of 
contaminated facilities at the site present unique challenges, and 
highlight the importance and need for a comprehensive and robust 
radiological protection program.
    During the early 1990s, radiological assessments, including the 
1990 Tiger Team, identified fundamental program weaknesses in the 
site's ability to control potential exposures to transuranics and to 
conduct an effective contamination survey program. In response, the 
site initiated a number of improvements. While the investigation team 
identified similar deficiencies to those raised by the 1990 Tiger Team 
report, the magnitude in areas such as postings, procedures, air 
monitoring, and contamination control is less. Records indicate that 
the external doses to employees from the types of radiation present at 
Paducah are very low, and there have been no recent significant intakes 
of radioactive material.
    The identified radiological protection problems are typical of a 
site that has had to cope with the same legacy hazards for many years 
and which is no longer in operational mode. There has been increasing 
informal reliance on worker knowledge rather than a disciplined and 
rigorous application of controls such as detailed radiation work 
permits, procedures, postings, barriers, and air monitoring. These 
deficiencies, while not significant individually, are of concern in the 
aggregate because of the uncharacterized hazards remaining, the unique 
and challenging risks associated with future hazardous cleanup, and the 
reliance on subcontractors who do not possess the historical knowledge 
of site radiological and contractor hazards, including transuranics, 
and the applicable precautions and controls. The identified weaknesses 
in radiological controls are exacerbated by a lack of DOE or Bechtel 
Jacobs oversight of radiation work practices.
    Findings:
    1. Radiological characterization of the workplace is incomplete, 
weakening the ability of the radiological control organization to 
identify hazards and institute controls necessary to ensure consistent 
and appropriate radiological protection for workers. There is a lack of 
knowledge as to the isotopic mix of radionuclides present in various 
work areas. This information has never been obtained through 
comprehensive characterization nor is it available in technical basis 
documentation. Radiological Control Technicians need this information 
to establish proper radiological controls. Procedures in place for 
planning and conducting radiological controls in the workplace presume 
knowledge of radiological control personnel about the isotopic mix in 
work areas.
    2. There is a lack of rigor, formality and discipline in the 
development, maintenance, and implementation of the Bechtel Jacobs 
radiation protection program.
  --Air sampler placement is not always consistent or adequate to 
        sample the air in the work area or representative of the air 
        breathed by the worker, and analysis of air samples is not 
        timely. In many cases, the monitored work activity was already 
        completed at the time final air sample activity was determined. 
        Procedures do not identify those conditions that must be 
        present to require isotopic analysis of air samples.
  --Radiological surveys taken by Bechtel Jacobs in April and June 1999 
        concluded there was no need for dosimetry and radiological 
        worker training for construction personnel working at the UF6 
        cylinder yard project. Subsequent dose rate measurements of the 
        work area by the Investigation Team indicated that, based on an 
        anticipated six-month job duration, worker doses would likely 
        exceed the threshold for such controls, and workers should have 
        been monitored and provided Radiation Worker I training. The 
        finding led to a shutdown of work, radiological training for 
        two workers, and the implementation of monitoring through use 
        of dosimeters.
  --Bechtel Jacobs cannot adequately demonstrate that the unconditional 
        release of equipment from the site, such as the release of 
        fluorine cells, is consistent with DOE requirements. While 
        Bechtel Jacobs does have a procedure for unrestricted release 
        of equipment, this procedure was not applied during the process 
        of releasing the fluorine cells.
  --Outdoor contamination areas, particularly in the vicinity of Drum 
        Mountain, were not adequately posted and barricaded for the 
        levels of radiological contamination present. Other onsite 
        areas, primarily drainage ditches, were posted as contamination 
        areas without specific information on the radiological or 
        chemical hazards being present. Since there is no contamination 
        monitoring of individuals leaving the site, there is the 
        potential for contamination to be taken offsite.
    It is important that DOE and Bechtel Jacobs recognize that the 
cumulative deficiencies, in what has the potential to be a viable and 
effective radiological protection program, warrant management 
attention. The contractor needs to establish rigor, a higher level of 
discipline and formality to protect worker health and safety during 
hazardous characterization and cleanup activities on-site. DOE and 
Bechtel Jacobs also need to improve oversight of subcontractor 
radiological safety and performance including accountability for 
adherence to applicable DOE requirements.
Worker Safety
    Bechtel Jacobs has developed procedures for identifying, evaluating 
and controlling occupational hazards at PGDP and most have been 
identified. Completion of the cleanup mission at PGDP, however, will 
require a significant increase in activities involving the potential 
for hazardous materials exposure including the removal of buried waste 
and the inspection of the contents of thousands of drums of radioactive 
waste. This work involves the handling of material containing 
radioactive and chemical carcinogens, much of which has not been fully 
characterized. There have already been several occurrences of workers 
being contaminated as a result of drum handling and waste 
characterization activities. Many precursor conditions are developing 
that, if not addressed, will lead to decreased safety performance and 
an increased risk to workers.
    Findings:
    1. Criticality safety deficiencies in DMSAs pose an unnecessary 
hazard to workers in surrounding areas. Large amounts of legacy 
materials for which DOE is responsible are currently stored in 148 
DMSAs across the site, including DMSA `islands' within USEC spaces.
  --These materials are not yet characterized, and 11 contain potential 
        fissile material deposits and are identified as high priority. 
        As a result, the risk of an inadvertent criticality is not 
        known. Funding has not yet been provided to correct the 
        deficiencies in all the DMSAs and eliminate the potential 
        criticality safety hazard.
    2. Safety and health procedures are not consistently applied and 
followed, and in some cases, hazards are not adequately addressed by 
those procedures.
  --Of the occurrence reports submitted to DOE by Bechtel Jacobs since 
        April 1998, a number were attributed to either inadequate 
        procedures or a failure to follow procedures. For example, on 
        May 27, 1999, it was determined that laboratory personnel 
        working in a mobile field extraction laboratory had been 
        exposed to methylene chloride above the 15-minute Short-Term 
        Exposure Limit as defined by Occupational Safety and Health 
        Administration regulation.
  --The investigation team also observed that some safety and health 
        procedures are not consistently followed. Sections of the site-
        wide procedure and the subcontractor's health and safety plan 
        for confined space entry were not being followed at the L 
        Cylinder Yard. Confined spaces were not evaluated, permitted, 
        or posted in accordance with procedures. Sections of Bechtel 
        Jacobs procedures on biological monitoring for industrial 
        chemicals, and workplace air sampling were not being followed.
    3. Bechtel Jacobs training programs do not ensure that all workers 
are knowledgeable of hazards and protection requirements, including 
those associated with transuranic contamination.
  --The Bechtel Jacobs radiation safety training program does not 
        include a process to assure that individuals have received the 
        required training before working in controlled or radiological 
        areas. Although required by procedure, mandatory training is 
        not included in Radiological Work Permits.
  --None of the current Bechtel Jacobs radiation safety training 
        modules adequately addresses the presence of transuranic 
        contaminants at the site. Transuranic training was provided 
        once in 1992, and although DOE and Bechtel Jacobs' personnel 
        believed that transuranic training was being conducted, in 
        fact, the 1992 transuranic-based training was not incorporated 
        into the ongoing radiation worker training program. Bechtel 
        Jacobs Radiological Control Technician training does not 
        include monitoring for transuranics, the release criteria to be 
        used, or the use of isotopic analysis information to determine 
        the need for controls.
DOE Line Oversight
    DOE established a Paducah site office in 1989 to provide program 
direction and day-to-day oversight of contractor activities. DOE 
strengthened this oversight office in the early 1990s, in light of 
emerging environmental and worker safety issues such as the discovery 
of Technetium-99 in offsite wells and numerous sources of contamination 
contributing to a plume of contaminated groundwater.
    With the final transition to NRC regulation of the enrichment 
facilities in 1997, the scope of DOE activities at PGDP decreased 
significantly. In April 1998, DOE transitioned from a management and 
operating contract with Lockheed Martin Energy Services to a management 
and integration contract with Bechtel Jacobs. The current level and 
effectiveness of line management oversight of environment, safety, and 
health and assurance of compliance with DOE requirements is a matter of 
concern. Programmatic deficiencies identified through the 1990s either 
continue or have recurred. Direction provided by DOE, primarily the Oak 
Ridge Operations Office in writing or verbally, regarding 
implementation of the management and integration contract has 
significantly reduced the level of oversight conducted by both the 
Paducah Site Office and Bechtel Jacobs. Consequently, programmatic 
problems have not been identified and corrected by line management.
    Findings:
    1. DOE has not conducted effective oversight of ES&H to ensure that 
Bechtel Jacobs and its subcontractors effectively implement all DOE and 
regulatory requirements.
  --Oak Ridge has provided little written direction to the Paducah Site 
        Office for oversight of the management and integrating 
        contractor (Bechtel Jacobs). Written guidance stated that ``the 
        DOE role will center on establishing policies, standards, 
        baselines, and objectives and measuring performance rather than 
        focusing on day-to-day oversight and control.'' Consequently 
        ``day-to-day oversight'' has received little attention.
  --Neither Oak Ridge nor the Paducah Site Office has provided 
        sufficient direction to Bechtel Jacobs to assure adequate 
        oversight of subcontractors, although subcontractors are 
        accomplishing an increasing amount of work.
    2. Bechtel Jacobs has not conducted effective oversight of ES&H 
performance of its subcontractors to assure that subcontractors 
effectively implement DOE and regulatory requirements and are held 
accountable.
  --Bechtel Jacobs' subcontractors do not consistently follow safety 
        and health procedures. Numerous weaknesses were identified in 
        the areas of procedure adherence, safe work practices, 
        occupational medicine, and worker training. Some recent 
        subcontractor work activities have resulted in unsafe work 
        practices. Subcontractor prescreening by Bechtel Jacobs is not 
        adequate to ensure the subcontractors have working programs in 
        place that meet DOE requirements for Industrial Safety, 
        Industrial Hygiene and Medical Surveillance.
  --Although Bechtel Jacobs provides a measure of oversight of 
        subcontractor training programs through quality assurance 
        audits, surveillances, and readiness reviews, the oversight is 
        not consistently applied and is at the discretion of the 
        Bechtel Jacobs Project Manager.
  --Planned reductions in staff within Bechtel Jacobs will further 
        reduce Bechtel Jacobs' technical capability to conduct 
        oversight and surveillance of subcontractor activities. Planned 
        staffing changes include a reduction in Safety Advocates from 
        four to one, and elimination of the training coordinator 
        position. In addition, there are significant shortages in key 
        safety disciplines, such as industrial hygienists.
Investigation Conclusions
    There have been significant environment, safety and health 
improvements made at the Paducah site over the past ten years. Current 
operations do not present immediate risks to workers or the general 
public. At the same time, serious weaknesses remain in all major 
areas--environmental and public protection, worker safety and health, 
and DOE oversight that, in combination, undermine the confidence of 
workers and stakeholders and perpetuate the risks and hazards of legacy 
operations.
    A key to regaining worker and public confidence, reducing hazards 
and risks to as low as reasonably achievable, and ensuring the 
continuing operation of the Paducah Plant, is to begin to accelerate 
progress in the cleanup effort, including compliance with impending 
initial major cleanup milestones including Drum Mountain and the waste 
buried beneath it. Systematic progress needs to be demonstrated in key 
cleanup and hazard reduction areas such as the elimination of the many 
sources of contamination, characterization and disposition of the 
DMSAs, the proper storage and shipment off-site of low level waste, and 
the removal of hazards and proper upkeep or demolition of shutdown 
hazardous facilities. Other areas where timely improvement is needed 
include:
  --Establishing a high level of discipline and rigor in the 
        radiological protection program and other programs affecting 
        worker safety, such as criticality safety. Programs should 
        include verbatim compliance with posting and barrier 
        requirements, improved radiation work permits, comprehensive 
        radiological training, strict procedure use and compliance, 
        characterization of materials to improve effective hazards 
        analysis, and the use of engineered hazard controls whenever 
        possible.
  --Strengthening communications and outreach to workers, the public, 
        and the stakeholders to ensure understanding, confidence in 
        site operations, and empowerment in contributing to cleanup 
        strategies, priorities, and decisions. This is particularly 
        important for the Site Specific Advisory Board whose charter is 
        to contribute to site cleanup through involvement in 
        establishing priorities and milestones and achieving public 
        support.
  --Improving DOE and contractor oversight of ES&H performance to 
        ensure adequate subcontractor safety performance, 
        accountability for compliance with DOE requirements, and 
        continuous improvement.
    Continued improvements in safety management will be particularly 
important as the Paducah Site initiates additional site cleanup and 
remediation activities. Such work presents unique hazards (e.g., 
handling material containing radioactive and chemical carcinogens that 
has not been fully characterized) and has already resulted in several 
occurrences of workers being contaminated in the limited remediation 
efforts to date. The need for effective safety management is further 
highlighted by the fact that, under the managing and integrating 
contractor concept, a large fraction of the potentially hazardous work 
will be performed by subcontractor employees, some of whom do not have 
a historical knowledge of site hazards or controls. As subcontractor 
cleanup and waste management activities increase, increased 
surveillance and oversight will be needed by Bechtel Jacobs and DOE 
personnel who are knowledgeable of DOE requirements.
                    other paducah-related activities
    Determine Flow of Recycled Materials through the DOE Complex.--DOE 
and its predecessor agencies produced more than 100,000 metric tons of 
recycled feed or waste streams containing trace quantities of fission 
products and plutonium. This material was sent not only to Paducah, but 
also to other sites in the DOE complex. Today, our understanding of 
where that material went is limited. Secretary Richardson requested a 
study that would provide a clear understanding of the flow and 
characteristics of this recycled material. DOE is concerned not only 
with the flow of this material, but also its characteristics such as 
the level of residual plutonium and fission products. The mass flow 
project will address the flow and characteristics of recycled uranium 
over the last fifty years. We expect this work to be complete by June 
2000. The specific goals are to:
  --Identify the mass flow of recycled uranium throughout the DOE 
        complex from early production to mid-1999 and create a publicly 
        available unclassified inter-site flowsheet.
  --Identify the characteristics of, and contaminants in, the major 
        uranium streams, including the technetium, neptunium, plutonium 
        or other radioactive content of concern to worker or public 
        health and safety.
  --Conduct site mass balance activities to identify any significant 
        concern for potential personnel exposure or environmental 
        contamination.
    Worker Exposure Assessment Project.--Secretary Richardson has 
committed to fully address health concerns of current and former 
Paducah workers, especially where records are less than complete, or 
where worker exposure to plutonium and other materials has not been 
well characterized. To address this gap, an aggressive and exhaustive 
search of records is being conducted at Paducah for the time period 
ranging from the early 1950s to the present. Assessments will then be 
performed by analyzing the exposure records of current and former 
workers to determine the extent and nature of exposures, focusing on 
exposure to transuranics. The activity will include identifying, 
retrieving and reviewing exposure records. Should records prove to be 
poor or non-existent, DOE would perform detailed reviews of relevant 
plant process and monitoring data as well as extrapolations based on 
available exposure information.
    The goal of this effort is to establish the potential ranges of 
worker radiation exposures and identify, document and communicate the 
radiological issues that may have affected worker health at the Paducah 
site since its opening. This work will help inform Paducah workers of 
their potential radiation exposure and will help determine whether 
there may be any potential for adverse worker health impacts from 
radiation exposure while working at the Paducah plant. We are currently 
investigating the conduct and cost implications of similar exposure 
assessments at Portsmouth and Oak Ridge.
                               conclusion
    Finally, Mr. Chairman, I want to emphasize that Secretary 
Richardson, on behalf of the entire Administration, takes the concerns 
that have been raised seriously and is committed to investigate and 
resolve them. The investigation is both independent and comprehensive. 
As you have seen, it has already begun to serve to get out the facts 
and correct any current safety shortcomings. The existing environmental 
compliance agreement that guides remedial actions and schedules at the 
site has been agreed to by DOE, the State of Kentucky and the 
Environmental Protection Agency. Where the investigation team's initial 
observations suggest that modifications to this agreement, including 
adjustments in priorities, may be warranted to protect the public and 
worker health and safety, we will pursue them.
    We need to determine how well the workers knew of and understood 
the hazards they were working with, and how well they were protected 
from these hazards--even in very small amounts. We will learn much more 
as our investigation moves ahead and seeks to confirm--in today's 
regulatory environment--whether the presence of these materials 
represented a potential health risk at Paducah or any other DOE plant.
    We will continue our efforts in a manner that is forthright and 
responsive to the public's need for timely information, while at the 
same time being careful that our answers are correct. We will also 
continue to work in a cooperative and transparent way with the workers, 
their representatives, the public, and the Congress. Secretary 
Richardson has made it clear that the days of secrecy and hiding 
information are over. We are committed to getting accurate information 
and doing so in a responsible manner. We are also committed to treat 
our workers dignity and with fairness.
    Thank you for the opportunity to testify. I would be happy to 
answer questions from any of the Subcommittee members.

                     Workers' compensation program

    Senator McConnell. Now Dr. Michaels, you heard David 
Fuller's testimony that DOE and its predecessor the Atomic 
Energy Commission aggressively fought all workers' claims of 
occupational illness and deliberately withheld information for 
fear that it might result in higher compensation to workers. 
Add to that the horrific treatment by the Department of Energy 
of Joe Harding and his family. What is your office doing to 
rectify this situation?
    Dr. Michaels. Yes, sir. The day that I was sworn in, 
Secretary Richardson asked me to go to Oak Ridge and speak with 
the workers who Dr. Bird talked to you about. Secretary 
Richardson instructed me to listen to them and find a way to 
help. I have since been across the complex at the request of 
Secretary Richardson and found similar situations to what you 
have described.
    What we are now doing is working on a workers' compensation 
program that will do exactly what the president of the local 
union, David Fuller, described. We are trying to come up with a 
program, and the administration has announced its support for a 
program around beryllium disease, to do exactly this, to 
provide an alternative to State workers' compensation benefits 
to workers in the DOE complex who put their lives on the line 
making materials for nuclear weapons.
    In July President Clinton signed a memo calling for 
interagency review of occupational illness across the DOE 
complex. That should be done by March and we expect to have 
proposed legislation to address these issues some time after 
that.

                    Independent regulatory oversight

    Senator McConnell. Your phase one assessment found that DOE 
continues to make the same regulatory errors that were 
identified in the 1990 DOE tiger team report. Considering the 
Department's proven inability to serve as both regulator and 
site cleanup manager, is it not time that we move the oversight 
responsibilities from DOE to an independent regulatory body?
    Dr. Michaels. Sir, I do not think that is necessarily the 
answer. I think we saw the same problems that the 1990 tiger 
team saw, but not in the same dimension or magnitude. We found 
great progress had been made. Certainly there has been some 
major backsliding.
    The problems facing the DOE complex are the most 
technically complex problems facing any work place in America 
today, the legacy of the nuclear weapons production. While 
there are some advantages to bringing in outside regulation, it 
is not clear that that alone will make the difference. I think 
we have to look at good ways to investigate and do regular 
oversight. I think our office and the independent regulators at 
DOE have a major role to play in that.

                  Plutonium and uranium contamination

    Senator McConnell. The claims of plutonium contamination of 
the creek beds is really troubling. As the regulator at the 
Paducah plant, how do you explain the significant radiological 
contamination outside the fence, how did it get there, and how 
long has it been there?
    Dr. Michaels. Sir, the source of the plutonium we believe 
is the contaminated radioactive uranium tailings, essentially, 
that were brought in, uranium feed that was used in the Paducah 
system. There was plutonium, neptunium, and other materials 
that then were released and continue to be released in the 
outflows.
    They are a significant problem. We believe that the levels 
are quite low, but we believe that no exposure is a good 
exposure or a safe exposure and we should be doing everything 
we can to reduce and eliminate that exposure.
    Senator McConnell. You heard David Fuller testify that 
workers were taking the contaminated uranium dust home with 
them and reported that many workers acknowledged that they 
would frequently find green uranium dust in their clothes and 
even in their bed sheets. How do you think that something like 
this could occur and does it pose any risk to the workers' 
families?
    Dr. Michaels. This is one of the questions we are going to 
be looking at in the second phase of the study, where we are 
looking at exposures before 1990. Certainly I am concerned 
about it. It sounds as if the radiation control in the plant 
during that period was lacking a lot of the fundamental things 
we would expect to see. I hope to be able to give you an answer 
to that some time in January.
    Senator McConnell. According to experts, it is absolutely 
critical that the Department reconstruct the radiation 
exposures that workers might have been exposed to in an effort 
to determine future health risks. What is DOE doing to provide 
this information and are you confident that DOE will be able to 
develop an accurate picture of what the work force was exposed 
to between 1950 and 1970, for example?
    Dr. Michaels. What DOE is doing at Paducah, as well as 
Portsmouth and Oak Ridge, is we are attempting to bring in a 
reliable, independent outside group, in this case the 
University of Utah, to recreate the doses that people got 
across the three gaseous diffusion plants. This is being done 
under our joint aegis with the PACE union, and PACE has a 
health physicist who is overseeing it at the same time that we 
are, so that everybody is confident when we get the results 
back that this was done as well as it possibly could be done.

                       new areas of Contamination

    Senator McConnell. How many new areas in and around the 
plant have your teams roped off or identified as being 
inadequately marked since the investigation began?
    Dr. Michaels. I am going to ask Bill Eckroade from our 
staff to help address this. Bill was the director of the 
environmental component of phase one.
    Mr. Eckroade. There were three areas of particular concern 
to the investigation team in the vicinity of the plant security 
fence, those being Outfall 11, Outfall 15, and the North-South 
Diversion Ditch. While it was known that contamination was 
present from historical sampling at all those locations, 
sampling from the team's efforts found elevated levels of a 
variety of isotopes that had not been previously detected.
    Senator McConnell. Are there any areas that now require a 
higher level of radiation training to assess than was required 
prior to your investigation?
    Mr. Eckroade. In one outfall, Outfall 11, when we went to 
do the sampling, that area has historically been accessed by 
sampling crews to take measurements. Upon sampling by the team, 
the site had sent a certified technician to take readings, 
identify the elevated readings through a scan, and then changed 
the entry requirements to require additional protective 
equipment, and has subsequently posted that area requiring 
additional protection for entry.
    Senator McConnell. Dr. Michaels, will all your studies of 
the DOE facility be properly reviewed by an independent entity 
to ensure objectivity and accuracy?
    Dr. Michaels. That is an interesting question, Senator. Our 
investigation----
    Senator McConnell. I am waiting for an interesting answer.
    Dr. Michaels. I had not considered that. These 
investigation reports or oversight reports we do not send out 
for independent peer review because they are investigative 
reports rather than scientific conclusions. On the other hand, 
if we do epidemiology, for example, we will definitely have 
that peer reviewed. But some of our investigations really I do 
not think warrant peer review.
    Senator McConnell. Why do you suppose the DOE test did not 
pick up on the exposure levels to which Joe Harding had 
obviously been subjected? Is it possible the Department was 
testing for the wrong thing or that somehow Mr. Harding's 
results were falsified?
    Dr. Michaels. That is a very good question that we will 
attempt to answer in phase two. I do not know what the 
Department was examining before 1990 because we have not yet 
collected that data, but we will be looking exactly at that. We 
note, though, that before 1990 the health physics program at 
Paducah was lacking, and we will look to see whether they were 
measuring anything or just the wrong thing.
    Senator McConnell. Could you explain to the committee the 
results of your recent soil sampling in the area of the Little 
Bayou Creek and the Big Bayou Creek? Was there any 
contamination? What about plutonium or tech-99, and if there 
was any of that how do you suppose the material got there?
    Dr. Michaels. Let me bring up Bill Eckroade again.
    Mr. Eckroade. The sampling that the investigation team did 
with respect to sediments, we had taken nine samples, primarily 
in the vicinity of the plant location, several down the reaches 
of the Big and Little Bayou. Contamination was primarily 
identified in the locations in the near vicinity of the site, 
essentially the outfalls that I mentioned before, the K-15, the 
K-11, and the North-South Diversion Ditch.
    Basically, the contamination is the result of historic 
operations from past enrichment operations discharged through 
various mechanisms into the environment, and it continues to 
spread in those receptors.
    Senator McConnell. What is it, plutonium, tech-99, what?
    Mr. Eckroade. In our report, we actually list a table of 
different isotopes that we detected. We detected plutonium 239, 
some levels of cesium, in particularly Outfall 15, and tech-99 
at lower levels.
    Senator McConnell. How do you suppose it got there?
    Mr. Eckroade. Past operations. Certainly parts of the 
enrichment processes concentrated some of the impurities and 
they were subsequently released into the environment.
    Senator McConnell. Finally, Dr. Michaels, are you aware of 
the Senate Government Affairs Committee report produced in 
December 1989 that identified irresponsible behavior on the 
part of the Atomic Energy Commission that contributed to the 
radiation exposure of workers at Federal facilities? And if you 
are, what specific reports came out of this report and were any 
of those reforms implemented at Paducah?
    Dr. Michaels. I am not familiar with that specific report, 
no, sir.
    Senator McConnell. Well, you might want to do that.
    Dr. Michaels. I definitely will. In fact, there is a 
staffer who served on that committee in this room today and I 
will ask him for it.
    Senator McConnell. Apparently that report came out in 
December 1989, almost 10 years ago.
    Well, Dr. Michaels, you have your work cut out for you and 
we are looking forward to hearing from you periodically. We 
would love to see some tangible progress made.
    Dr. Michaels. Thank you, sir.
    Senator McConnell. Thank you.
STATEMENT OF CAROLYN L. HUNTOON, ASSISTANT SECRETARY 
            FOR ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF 
            ENERGY
ACCOMPANIED BY BILL MAGWOOD, ASSISTANT SECRETARY FOR NUCLEAR ENERGY, 
            DEPARTMENT OF ENERGY

    Senator McConnell. The next panel and final panel: Carolyn 
Huntoon, Assistant Secretary of DOE, Office of Environmental 
Management; Bill Magwood, Director of the DOE Office of Nuclear 
Energy, who will not have a statement, but will just be 
available for questions; Secretary Bickford of the Kentucky 
Department of Natural Resources; and Richard Greene, EPA Region 
IV. EPA works with the State and DOE on the cleanup issues.
    Let me remind the witnesses again that 5 minutes means 5 
minutes. Dr. Huntoon, why do you not start.
    Dr. Huntoon. Thank you, Senator McConnell. I am here today 
to tell you about the cleanup program at Paducah and what we 
intend to do to correct the program's shortcomings that have 
been identified.

             environmental legacy of Past weapon production

    In the 3 months I have been at DOE, I have visited 8 of our 
sites around the country, including Paducah. The enormity of 
the environmental legacy from building the nuclear weapons is 
evident at every one of these sites. Everywhere I have gone I 
have seen evidence of cleanup challenges we face, and at 
Paducah I saw the famous Drum Mountain. I saw scraps of metal. 
I saw buildings like C-400, where most of the TCE now 
contaminating the groundwater was used. I talked to workers on 
the site. I talked to people out doing the remediation.
    After seeing the site and reading the report, I agree with 
you and the local residents that the cleanup should proceed as 
expeditiously and safely as possible. I recognize the magnitude 
of this challenge both at Paducah and across the entire DOE 
complex.
    The reality is we have neither the money nor the technology 
to clean up as quickly as any of us would like to do. At 
Paducah we have spent about $388 million implementing a three-
pronged cleanup strategy to address the site's environmental 
contamination. It is a strategy we have developed and 
periodically re-evaluate with the Commonwealth of Kentucky and 
the EPA regulators, with input from local citizens.
    First, we are addressing the most urgent risks, 
particularly threats to the public from offsite contaminations. 
Since 1988 we have been ensuring that local residents have safe 
drinking water, first by providing bottled water, then by 
providing a permanent solution by paying for municipal water 
hookups for over 100 residents. We continue to pay the water 
bills for these homes.
    Second, we are working to identify the nature and scope and 
location of the contamination, which involves characterizing 
and controlling the hot spots and other suspected sources of 
these offsite contaminations. For example, we have drilled 340 
wells, of which we routinely monitor 165 to define the 
groundwater plume. We have constructed two groundwater 
treatment systems and have treated 600 million gallons of 
contaminated groundwater. We have constructed an onsite 
sanitary landfill and disposed of 14,000 tons of solid waste, 
and we have disposed of 5.8 million pounds of hazardous and 
radioactive waste.

                      long-term Cleanup solutions

    Third, we are working on long-term cleanup solutions. I 
understand and share everyone's concern that we have not moved 
ahead fast enough. However, the work to determine and 
characterize the nature, extent, and the source of the 
contamination both on and off site was a critical precursor to 
being able to move ahead with the solutions that can now be 
implemented safely for the workers and the environment.
    The Congressional cuts in 1998 and 1999 for the uranium D&D 
fund which pays for this work further slowed our cleanup 
efforts. I want to thank you personally and the work of the 
rest of the Kentucky delegation for their efforts this past 
year in securing more funds. I know that with Paducah's share 
of the $10 million additional money we are going to be able to 
initiate and complete the removal of Drum Mountain by the 
calendar year 2000.
    Let me turn back to the concerns that were raised by last 
week's report. I want to assure you that Secretary Richardson 
and I take this very seriously. I have read it. I think it is 
fair. It is a fair assessment. We need to correct these 
conditions.
    We have completed or initiated a number of actions, 
including: Posting new signs for radioactively contaminated 
areas on DOE property that previously had only warnings; we 
started a top to bottom review of the radiation control program 
at Paducah as well as the two gaseous diffusion plants. The 
review at Paducah, which started on October 18, will be 
completed by mid-November, with a report due to me by November 
30.
    We have increased contractor oversight by assigning more 
Federal employees to Paducah whose sole job will be to monitor 
the safety of our facilities and operations. We have sent two 
employees to the site on a temporary basis until we can fill 
these jobs permanently. The first permanent employee will be 
there on November 7.
    Using the $6 million in additional money for fiscal year 
2000 funding to accelerate the removal of Drum Mountain, we 
expect to complete the work by the end of the calendar year, 
pending approval of the Commonwealth of Kentucky and the EPA 
regulators. We are also evaluating other opportunities to 
accelerate work at Paducah should additional funds become 
available.
    I have deployed a technology assessment team from our Idaho 
lab which specializes in subsurface water problems. They will 
give me their report by November 30 on things that they believe 
that can be done immediately to help us with the groundwater 
situation.
    We are sampling the roofs of the shut-down buildings to see 
if they are emission sources. We will have that data, pending 
approval of the Commonwealth of Kentucky, this January.
    Reviewing how we communicate with the public, we have set a 
plan for improved communications. That plan will be put in 
place by November 9.
    Sitting down with the Commonwealth of Kentucky and EPA 
regulators on November 8 and 9, we will review our existing 
cleanup agreements and priorities fundings and modify those as 
necessary.

                           prepared statement

    I have directed the site to develop a more complete plan 
that will address the remaining findings. I have also directed 
Oak Ridge operations office to ensure they apply the lessons 
learned to review the other gaseous diffusion sites at 
Portsmouth and Oak Ridge.
    [The statement follows:]

              Prepared Statement of Dr. Carolyn L. Huntoon

    Thank you, Mr. Chairman. I appreciate the opportunity to bring the 
Subcommittee up to date on the Department of Energy's environmental 
cleanup program at the Paducah Gaseous Diffusion Plant in Kentucky.
    In the nearly four months I have been at DOE, I have visited eight 
sites around the country, including Paducah. I have seen for myself the 
contamination problems at Paducah--the infamous Drum Mountain with its 
thousands of crushed drums, the scrap metal piles, the buildings and 
areas that are the source of much of the contamination in groundwater. 
What has impressed me the most is the enormity and the complexity of 
the legacy of environmental problems left behind from our nuclear 
weapons work.
    My goal at the Paducah Gaseous Diffusion Plant site is to complete 
cleanup of the site as expeditiously and cost-effectively as possible. 
I want to accelerate cleanup to reduce risks and costs in a manner 
consistent with my strong commitment to the safety of workers, the 
general public, and protection of the environment. I want to be sure 
that we are addressing site contamination problems in the right 
priority. We will continue to work in close partnership with the 
Commonwealth of Kentucky and the U.S. Environmental Protection Agency 
(EPA), workers, and local citizens at the site on all aspects of the 
cleanup, including setting cleanup priorities. We will need to deploy 
innovative technologies and streamline the regulatory review process to 
maximize dollars we spend on actual cleanup. I will work with the 
Congress to seek the necessary funding to complete cleanup by fiscal 
year 2012.
    In my statement to you today, I will provide you with an overview 
of the Environmental Management program and the cleanup challenges at 
the Paducah site, describe the strategy which has resulted in the most 
immediate risks at the site being addressed, explain our progress and 
plans to address longer-term contamination problems, and finally 
discuss the funding profile and issues at Paducah. Before I move to the 
specifics of our cleanup work, however, I would first like to talk 
about my commitment to safety and our efforts to ensure that the health 
and safety of the workers are protected during the cleanup work 
process.
                       ensuring health and safety
    Recognizing this Committee's interest in working conditions at the 
plant, I wanted to assure you that my first priority as Assistant 
Secretary for the Environmental Management (EM) program is safety--
safety of the contractor and Federal workers that run our facilities 
and of the public in the communities around our sites. Since being 
confirmed as Assistant Secretary last July, I have established 
principles that will govern implementation of the program. Safety of 
the workers and the public is paramount, and I will hold my managers 
accountable for ensuring the workers and the public are protected.
    We are working to ensure that cleanup activities at Paducah are 
conducted in a manner that protects the health and safety of the 
workers and the public. In response to the review by the Office of 
Environment, Safety and Health, the Management and Integrating 
contractor at Oak Ridge, Bechtel Jacobs Company, which manages cleanup 
at the three gaseous diffusion plants in Portsmouth, Ohio, Oak Ridge, 
Tennessee, and Paducah, is undertaking an independent, top-to-bottom 
review of its radiation control programs at the sites to ensure the 
controls and procedures in place are in compliance with DOE 
requirements and are being fully implemented. Their review at Paducah 
began earlier this month, and the assessment of the other sites will be 
completed by mid-November. The results of the reviews will be available 
by the end of November. I assure you that, should the review identify 
any gaps or areas that need improvement, we will work with the 
contractor to see that the necessary changes are made to ensure we are 
protecting the workers who are carrying out the cleanup work, while 
also protecting the public and environment.
            the environmental management program at paducah
    The 3,500 acre site in Paducah--including 750 acres within the 
fenced security area and 2,000 acres leased to the Kentucky Department 
of Fish and Wildlife--is among the Department's smaller sites. The site 
is still producing enriched uranium for commercial nuclear reactors. 
The enrichment operations were privatized in 1993 under the auspices of 
the U.S. Enrichment Corporation (USEC). USEC is responsible for all 
primary process facilities and auxiliary facilities associated with the 
enrichment services and for waste generated by current operations. The 
Department has responsibility for facilities, materials, and equipment 
not needed by USEC for their operations. The cleanup of environmental 
contamination at the site and management of legacy waste is DOE's 
responsibility. The Department will ultimately have primary 
responsibility for deactivation and decommissioning of the plant when 
operations cease, just as it now does for the former gaseous diffusion 
plant at Oak Ridge.
    Within the Department, the Office of Environmental Management and 
the Office of Nuclear Energy, Science and Technology share 
responsibility for different aspects of the management and cleanup of 
the site. Nuclear Energy is the site ``landlord.'' It has 
responsibility for administering the lease of facilities to USEC, 
storage and maintenance of the cylinders containing depleted uranium 
hexafluoride at the site, and other landlord functions such as 
maintenance of roads and fences outside the security area. Nuclear 
Energy is responsible for surveillance and maintenance of surplus 
facilities not leased to USEC.
    The Office of Environmental Management (EM) bears primary 
responsibility for cleanup. This includes remediation of environmental 
contamination caused by releases of hazardous and radioactive materials 
into the environment from previous operations and disposal practices. 
We also are responsible for management and disposition of ``legacy'' 
waste generated by operations before USEC assumed ownership, as well as 
scrap metals stored on-site. EM also conducts surveillance and 
maintenance for two site plants, including ancillary buildings 
associated with the plants, that have been shut down--the C-410 Feed 
Materials Plant and the C-340 Metal Reduction Plant--to control 
releases from the buildings.
    The cleanup problems and contaminants we face at Paducah are 
diverse, and include both on-site and off-site contamination from 
radioactive and hazardous materials. The environmental problem 
receiving our earliest and most focused attention has been groundwater 
contamination, which has contaminated private residential wells. The 
contaminants are traveling in two plumes in a northeasterly and 
northwesterly direction, extending off-site approximately one and a 
half miles toward the Ohio River. We have also recently discovered a 
smaller plume moving to the southwest that appears not to extent beyond 
the site boundaries. The primary contaminants in the three groundwater 
plumes are trichloroethylene (TCE) and technetium-99. TCE is an 
industrial degreasing solvent which was used in large quantities from 
the early 1960's until 1993 to decontaminate equipment and waste 
material before disposal. Because of widespread industrial use, TCE is 
a very common contaminant in groundwater at DOE sites and at private 
sector and Federal facility sites across the country. Technetium-99 is 
a beta-emitting radionuclide and a fission by-product, introduced into 
the plant as part of the Reactor Tails Enrichment Program that ran from 
1953 to 1975.
    There are also numerous contaminated areas around the site where 
chemical wastes, such as polychlorinated biphenyls (PCBs) used in 
electrical transformers; radioactive wastes; or trace amounts of 
plutonium and other transuranics (elements with atomic numbers greater 
than uranium), were disposed or inadvertently spilled or otherwise 
released to the environment. For example, significant quantities of TCE 
got into the environment from leaky sewers and from the ventilation 
system. Contamination has migrated to or threatens surrounding soils, 
groundwater, creeks and ditches. We also must safely manage and 
disposition about 60,000 tons of scrap metal, and 6,000 cubic meters of 
low level waste in drums, much of which is currently stored outdoors 
and exposed to the elements.
    Cleanup of the Paducah site continues to be carried out under the 
direction of Federal and State regulatory agencies. The first 
regulatory vehicle was a consent order with EPA issued in 1988 to cover 
initial groundwater measures to address drinking well contamination and 
characterization of the plumes. The Paducah site was listed on 
Superfund's National Priorities List in 1994 and, in 1998, DOE, the 
Commonwealth of Kentucky and EPA signed a Federal Facilities Agreement 
that provides the framework for cleanup, establishes priorities and 
enforceable milestones, and integrates cleanup requirements. We carry 
out our work in accordance with this agreement and other environmental 
laws, as well as the Atomic Energy Act (AEA), and DOE rules and orders 
that implement the Department's AEA responsibilities for managing 
radioactive materials.
    Beginning with door-to-door outreach to local residents when 
contamination was first discovered in residential wells in 1988, the 
Department continues to work with the local community to provide 
information and hear their concerns on contamination problems and the 
site cleanup actions and priorities. DOE has held periodic public 
meetings since 1989 to keep residents informed of contamination 
problems and cleanup progress. It has also supported several advisory 
groups, including a Neighborhood Council of plant neighbors that 
provided input to DOE, and later to USEC, in the early 1990s. The Site 
Specific Advisory Board, formed in 1996, now serves as a primary 
vehicle for two-way communication on the cleanup with the local 
community.
cleanup actions to date: the most immediate off-site threats have been 
                               addressed
    Our strategy is risk-driven. Our highest priority has been to 
address the most immediate threats to the public from off-site 
contamination. We have also focused on identifying and eliminating the 
``hot spots'' and other suspected sources of off-site contamination. 
And we have worked to characterize the site and analyze solutions to 
develop a sound technical basis for long-term action and ensure our 
workers doing the cleanup are safe. This strategy and our priorities 
for action have been developed in conjunction with our State and EPA 
regulators and others with concerns at the site, and are incorporated 
into our cleanup agreements. With the State and EPA, we have worked to 
set priorities for the available funding each year to ensure it is used 
to address the highest risks and to support long-term cleanup.
    We have successfully completed actions to address the most 
immediate off-site risk, specifically the threat posed by the 
contamination of off-site residential wells from contaminated 
groundwater. Upon discovery of contaminated wells near the Paducah 
plant in 1988, the Department immediately provided bottled water to the 
residents whose wells were contaminated and began sampling nearby 
residential wells and monitoring wells to determine the extent of 
contamination, ultimately sampling about 400 off-site wells. The 
sampling results indicated TCE concentrations in six residential wells 
were greater than the EPA drinking water standards of five parts per 
billion. The Department put in place a residential well sampling 
program, and entered into an Administrative Consent Order with EPA to 
thoroughly investigate the source of contamination and take appropriate 
actions.
    After completing the groundwater investigations, the Department, 
working with the municipal authorities, funded the extension of 12 
miles of municipal water supply line to over 100 residences and 
businesses whose wells were contaminated. We are also paying their 
water bills. Through our characterization efforts, the Department has 
also identified the areas of the plumes with the highest concentrations 
of contaminants and has installed groundwater pump and treat systems in 
each plume to contain the spread and treat these higher contaminant 
concentrations. These treatment systems, installed in the Northwest 
plume in 1995 and in the Northeast plume in 1997, have already treated 
about 600 million gallons of contaminated groundwater. Monitoring data 
show that these systems are successfully containing the spread of these 
high concentration areas.
    While we have addressed the most urgent risk to the public from the 
groundwater plumes, we continue to sample groundwater on a routine 
basis using a monitoring network of some 165 residential and other 
wells installed to track contaminant migration.
   we have taken interim actions to mitigate off-site contamination 
                                sources
    The second prong of our cleanup strategy has been to characterize 
the contamination and control ``hot-spots'' and other suspected sources 
of off-site contamination. We have made progress with these efforts. We 
have:
  --removed 162 cubic yards of contaminated soil from areas that have 
        high concentrations of contaminants;
  --taken several steps to reduce potential contamination associated 
        with the North-South Diversion Ditch, where the highest levels 
        of plutonium and uranium were found. We have installed a 
        treatment system for effluents from the C-400 Cleaning Building 
        to reduce concentrations before discharge, and have installed 
        an approximately 1300-foot piping system that bypasses about 
        half the length of the ditch to reduce the potential for 
        sediment contamination;
  --closed 9 leaking underground storage tanks that stored petroleum 
        products or cleaning solvents which were found to be 
        contaminating soils and potentially groundwater;
  --excavated about 60 cubic yards of contaminated soils from a 
        concrete rubble pile located in the Ballard County Wildlife 
        Area;
  --installed an impermeable cap over the uranium burial ground and 
        enhanced the existing cap on a sanitary landfill to reduce 
        leachate migration from rainfall infiltration;
  --closed on-site low-level waste burial grounds and waste storage 
        areas; installed sediment controls at the scrap yards and 
        drainage ditches to mitigate surface water and sediment runoff; 
        and
  --installed institutional controls for off-site contamination in 
        surface water, outfalls, and lagoons.
    While we have not addressed all potential sources of groundwater 
and soil contamination, we have eliminated the contamination ``hot 
spots'' that have been identified to date through our characterization 
efforts, and have mitigated other key potential sources of off-site 
contamination.
           progress and plans to address longer-term threats
    Most of our ``on-the-ground'' cleanup actions to date have been 
directed toward eliminating immediate risks and contamination hot 
spots, particularly those contributing to off-site contamination. We 
have, for the most part, accomplished that objective, and site 
priorities are now shifting to cleanup of on-site sources contributing 
to groundwater and surface water contamination, and to long-term 
cleanup remedies.
    In addition, like any other complex cleanup project, much of our 
work to date has been directed toward the characterization and 
assessment of the contamination at the site, providing the information 
necessary to identify and prioritize cleanup activities and to devise 
sound technical solutions. While less dramatic than actual cleanup, 
this work is a critical step in cleanup. Because of the hazardous 
nature of the contaminants and the processes involved in cleanup, 
characterization is also a critical step in protecting the workers who 
are doing the cleanup. Although there is more characterization and 
analysis to be done, our efforts will increasingly shift to actual 
cleanup, making use of the data and information that has been 
developed.
    In the fall of 1998, after receiving the reduced fiscal year 1999 
appropriation, the Department and the State and EPA regulators reviewed 
the cleanup strategy to ensure we were making the best and most 
efficient use of our resources. The result was a revised approach 
incorporated into the agreement. Rather than requiring separate 
evaluations and decisions for some 30 individual sources, the cleanup 
work now is organized around four contaminant pathways, specifically 
the groundwater plumes, creeks, burial grounds, and surface soils. This 
new approach enables us to better integrate our efforts and to 
streamline the administrative process by significantly reducing the 
number of individual remedy selection decisions needed, a lengthy 
process that can take as much as two years; this will allow us to focus 
more resources on cleanup.
    The activities planned for fiscal year 2000 illustrate the shift 
from the focus on immediate risks and interim actions to the next phase 
of cleanup. Our groundwater cleanup activities this fiscal year include 
the start of operation of an innovative treatment technology, referred 
to as the ``Lasagna'' technology, to treat TCE-contaminated soil. Named 
for the layers of sand, silt and clay beneath ground level, the Lasagna 
process generates an electric field and uses chemical means to destroy 
the TCE. We will use this technology to remediate shallow soils in the 
former Cylinder Drop Test Area, a major source of TCE contamination in 
groundwater; we expect to complete TCE removal in fiscal year 2001. We 
will also conduct a treatability study for the Southwest plume for 
evaluate an innovative in-situ groundwater technology, and will 
continue to make progress on evaluation and selection of a final remedy 
for the groundwater plumes.
    One of my priorities is to bring the best science and technology to 
bear on solving the cleanup challenges facing the Department. I am 
forming a Technology Deployment Assistance Team at Headquarters to help 
the sites identify innovative technologies that can solve cleanup 
problems in a more efficient and less costly manner. I plan to couple 
this effort with ongoing efforts to accelerate technology deployments 
across DOE sites. I know the groundwater issues at Paducah can benefit 
from an additional science focus and have directed a Technology 
Deployment Assistance Team that will include scientists from the Idaho 
National Engineering and Environmental Laboratory to work with the 
Paducah site to identify innovative technologies for characterizing, 
monitoring, and remediating groundwater plumes. They are to report 
their findings to me by November 30.
    Our planned activities in fiscal year 2000 to address surface water 
contamination include accelerating the removal and disposal of ``Drum 
Mountain,'' a large scrap pile containing thousands of drums, which is 
a suspected source of contamination of the Big and Little Bayou Creeks 
from surface run-off. The additional funds provided by Congress in the 
fiscal year 2000 appropriation will enable us to complete the removal 
of the drums by the end of next year, a year earlier than previously 
planned. This project will allow us to remove a major impediment to 
cleaning up the burial grounds as well as eliminate a potential 
contamination source. We will also continue characterization of other 
source areas draining into these creeks this year.
    Our current schedule anticipates completion of cleanup at Paducah 
in fiscal year 2012, with long-term stewardship to monitor the site and 
ensure the remedies remain protective required after that. Based on the 
current schedules in the agreement with the State and EPA, we plan to 
issue a Record of Decision selecting the remedy for TCE and technicium-
99 contamination in groundwater in fiscal year 2001 based on the 
evaluation of a number of innovative technologies, and begin 
implementing the remedy the following year. We also plan to complete 
work on surface water, surface soils and burial areas by 2012, 
including removal by 2003 of 60,000 tons of scrap metal stored in 
piles. Finally, we will complete removal of all mixed and low-level 
legacy waste by 2012 by shipping the waste offsite for treatment and 
disposal.
    The cost of active cleanup at Paducah through 2012 is estimated to 
be approximately $700 million. There will be additional costs 
associated both with long-term monitoring and maintenance of the 
cleanup and decontamination and decommissioning of the uranium 
enrichment process buildings and other buildings at Paducah. .
                funding the cleanup of the paducah site
    Cleanup activities for Paducah are funded through a separate 
account, the Uranium Enrichment Decontamination and Decommissioning 
Fund, which also funds cleanup at the Portsmouth Gaseous Diffusion 
Plant in Ohio, and at the gaseous diffusion plant in Oak Ridge, 
Tennessee, now called the East Tennessee Technology Park (ETTP), which 
ceased uranium enrichment operations in 1985. The fiscal year 2000 
appropriation for the Uranium Enrichment Decontamination and 
Decommissioning Fund is $250 million, of which $220 million supports 
cleanup of the three gaseous diffusion plants. Cleanup of the Paducah 
site received about $36 million in fiscal year 1999 and $43.5 million 
in fiscal year 2000. This is comparable to the level of funding 
provided for cleanup at Portsmouth. The funding in fiscal year 2000 
includes $6 million from the additional funding appropriated for 
cleanup activities at the gaseous diffusion plants in response to the 
budget amendment.
    Funding for EM activities at the Tennessee facility is 
significantly higher, reflecting the deactivation and decontamination 
of the process buildings at the site and the excess materials and 
equipment in the buildings--facilities which are still in operation at 
Paducah and Portsmouth. EM also funds landlord operations at ETTP, 
costs that are currently covered by USEC and the Office of Nuclear 
Energy at Portsmouth and Paducah. Landlord responsibilities at ETTP 
accounted for about 25 percent, or $41 million, of the budget for ETTP 
in fiscal year 2000. There are also additional waste management 
facilities funded at ETTP, including the TSCA incinerator, the only 
low-level waste treatment facility in the DOE complex with permits to 
treat radioactive waste that also contains hazardous or PCB-
contaminated waste.
    The EM program has invested approximately $400 million in the 
cleanup of Paducah from fiscal year 1988 through fiscal year 1999. It 
is important to understand, however, that not all of those funds 
support visible cleanup. Like other sites in the complex, a significant 
portion--more than a third at Paducah--goes simply to ``keeping the 
doors open'' and maintaining minimum safety conditions at the site. It 
includes activities such as maintaining safe storage of about 50,000 
drums of legacy waste, surveillance and maintenance of the shut down 
facilities, operation of a solid waste landfill, routine monitoring of 
groundwater wells, and program management support. Another significant 
portion of these funds, again about a third, have been used for 
characterization and assessment of the site, a critical initial step in 
cleanup. While these are vitally important activities, the result is 
that approximately $110 million was used for ``on-the-ground'' cleanup 
at Paducah.
    This situation has been exacerbated because we have seen reductions 
from the Department's requested level of funding. Beginning in fiscal 
year 1996, Congress--facing its own budget constraints--began 
appropriating less for the Uranium Enrichment D&D Fund than was 
requested. Our appropriated levels were less than the levels requested 
by $10 million, $30 million, $18 million, and $52 million from fiscal 
year 1996 to fiscal year 1999, respectively, and the funds available 
for cleanup at Paducah were reduced accordingly. These reductions, 
coupled with the need to spend funds to maintain the site in a safe 
condition, have slowed cleanup activities at the site and required us 
to adjust our priorities and schedules. Working closely with the State 
and EPA and other stakeholders, we believe we have established and 
followed a credible strategy and priorities for use of these funds that 
ensures we are spending our limited funds to the best advantage.
        actions in response to recent investigations at paducah
    Let me turn now to the some of the specific concerns identified in 
the Phase I investigation conducted in August 1999 by the Office of 
Environment, Safety and Health team, and describe the actions we are 
taking to address those concerns. The Phase I investigation focused on 
issues from the past ten years and the adequacy of protection provided 
to workers, the public and the environment today. In addition to 
examining radiological protection programs, the team also examined 
environmental conditions and the environmental protection program.
    The report on the findings of the Phase I investigation was just 
released last week. Overall, I have found the report and its 
conclusions to be fair and accurate. I want to assure you that the 
Department takes the concerns identified by the investigating team very 
seriously. We need to correct these conditions. The Manager of the Oak 
Ridge Operations Office is required to prepare a detailed corrective 
action plan to address the findings of the report within thirty days of 
the issuance of the report.
    Although we are still evaluating what specific corrective actions 
are required, I would like to describe the actions we have already 
taken at the site in response to preliminary findings reported by the 
review team after the on- site investigation and highlight some 
additional actions we expect to take.
  --In response to early feedback from the investigation team, the 
        Secretary ordered a one-day safety stand-down on September 9, 
        1999, to emphasize conduct of operations and obtain worker 
        feedback on safety concerns, as well as review the adequacy of 
        radioactive contamination sign postings and other safety 
        measures.
  --We have already made changes to improve the sign postings for 
        radioactively-contaminated areas on DOE property. We have, for 
        example, posted signs on both sides of the North-South 
        Diversion Ditch, and at several outfall ditches and culverts 
        associated with Little Bayou Creek.
  --The review team found there was a lack of rigor, formality and 
        discipline in the Bechtel Jacobs Company radiation protection 
        program. As I discussed earlier in this statement, we have 
        begun a top-to-bottom review of the radiation control programs 
        at the three gaseous diffusion plants to ensure the controls 
        and procedures are in compliance with DOE requirements and are 
        being fully implemented. The review at Paducah began on October 
        18 and will be completed at all sites in mid-November, with a 
        report due by the end of November.
  --We are also reviewing and making improvements to worker training 
        programs, for example, expanding the information that 
        specifically discusses transuranic materials to the worker 
        radiological worker training.
  --The review team found the Department did not have effective 
        oversight of the contractor and its sub-contractors. To address 
        this concern, the Department has assigned two Federal facility 
        representatives to Paducah who will be responsible for 
        monitoring the safety performance of the facility and its 
        operations and will be the primary point of contact with the 
        contractor. Two temporary facility representatives are already 
        in place until permanent full-time employees can be hired. The 
        first permanent position has been filled, and the new facility 
        representative will start on November 7.
  --The review team concluded that there has been only limited progress 
        in remediating contamination sources. With the $6 million in 
        additional funding provided for fiscal year 2000, we plan to 
        accelerate the removal of Drum Mountain, pending approval of 
        the necessary documentation by State and EPA regulators, 
        completing removal a year ahead of the previous schedule.
  --The review team raised concerns about the shut-down buildings, 
        including whether there were releases of contaminants to the 
        air from the buildings because of deterioration. In response, 
        the roofs of several shutdown buildings will be tested using 
        swipe samples and direct measurements. We will also be 
        conducting a general evaluation of the buildings to determine 
        whether animal infestation or any other pathway is allowing 
        contamination from the buildings to escape that may present a 
        risk to workers or the public and, if necessary, will implement 
        controls.
  --The review team concluded that groundwater has not been adequately 
        characterized in some areas. Under the current schedule, we 
        will complete groundwater investigations by August 2000 that 
        will characterize the Southwest plume. However, while not 
        adequate to clearly delineate the leading edge of plumes, we 
        believe the characterization of the Northeast and Northwest 
        groundwater plumes, already approved by the State and EPA, is 
        currently sufficient to determine risks and evaluate cleanup 
        alternatives.
  --The review team found that information provided to the public has 
        sometimes been delayed and is not always in forms clearly 
        understood by the public, leading to the perception that the 
        Department is withholding information. While we have already 
        worked to improve communications, there are still opportunities 
        to improve the timeliness and quality of information provided 
        to the public. The contractor and the Oak Ridge Office are 
        jointly preparing a plan for improving communications with the 
        public, which will be issued by November 9. Another DOE field 
        office is also reviewing the public communications documents 
        and process for Paducah, which will provide input to the 
        communications plan.
                               conclusion
    We are making progress at Paducah. Could we make more progress more 
quickly with more money? Certainly. The same can be said at any of our 
sites. But, while additional resources would certainly help, the 
challenges are not solely monetary. Like all of our sites, the problems 
at Paducah are complex, significant in scale, and technically 
difficult, and will take time to correct. We will also be evaluating 
what funding is needed to complete the corrective actions and 
accelerate cleanup activities to address concerns raised by current and 
former workers and by the investigation team.
    In any event, I will not allow the safety of our workers, the 
public, or the environment to be knowingly compromised. My first 
priority for EM is safety--safety of the contractor and Federal 
workers, and of the people in the communities around our sites. I will 
hold my managers accountable for ensuring that workers and the public 
are protected.
STATEMENT OF JIM BICKFORD, SECRETARY OF NATURAL 
            RESOURCES AND ENVIRONMENTAL PROTECTION, 
            COMMONWEALTH OF KENTUCKY
    Senator McConnell. Ms. Huntoon, you are out of time.
    Secretary Bickford.
    Mr. Bickford. Thank you, Mr. Chairman. I appreciate the 
invitation to appear before you today to discuss the issue 
which you have indicated you are concerned about, as has the 
Governor and the people of the Commonwealth of Kentucky.
    We in Kentucky are very concerned that since the early 
1950's the Paducah gaseous diffusion plant has been disposing 
of and storing radioactive and hazardous waste on site and 
apparently with very little concern of the eventual 
environmental consequences. Because the Department of Energy 
was self-regulating, the Commonwealth was not aware of the 
extent of the problems until 1996.

                 characterization of Site contamination

    Since this time, we have had extreme difficulty getting DOE 
to define or characterize the extent of the contamination and 
to take timely action to clean it up. In 1991 and 1992, the 
Commonwealth and EPA issued permits requiring DOE to clean up 
over 200 sites at the Paducah facility which contained 
radioactive and hazardous mixed wastes. DOE resisted these 
efforts through litigation. We were able to resolve this 
litigation through an agreed judgment implementing the permits.
    However, in 1996 the cabinet issued a permit for a solid 
waste landfill which restricted the level of radionuclides in 
solid wastes. DOE resisted this effort and has taken us to 
State and Federal court, arguing that we do not have the 
authority to place conditions on solid waste containing 
radionuclides. The reason stated by DOE is that they are self-
regulating under the Atomic Energy Act.
    In 1994 the Paducah facility was placed on the EPA 
Superfund national priority list, as you had mentioned. This 
list contains the most severely contaminated sites in the 
United States. As the result of this listing, the cabinet, EPA, 
and DOE entered into a Federal facilities agreement in 1998. As 
the Governor mentioned, this agreement requires cleanup by 
2010.
    To date, very little progress has been made. DOE states 
that adequate funding has not been made available. We agree 
with that. From our best estimates, DOE will be in violation of 
the agreement in a year or so if additional funds are not made 
available and DOE does not make progress in actually removing 
the sources of the contamination.
    It is extremely difficult for us to estimate total cleanup 
costs because we do not know the amount and nature of what DOE 
has buried and disposed of on site since the early fifties. We 
know that several landfills designated for non-hazardous solid 
wastes have had hazardous and radioactive wastes placed in 
them. We know that the area known as Drum Mountain has 
radioactive waste stored above ground. DOE lists the ground 
under the site as a burial site, but it is unknown what is 
buried there. We have also been told that several areas contain 
classified waste, but to date we do not know what is there.

                           Site contamination

    The point is that there are many areas on site that must be 
cleaned up. We have no idea what is there and how much it will 
take to clean it up. Based on what we do know, we have 
estimated, as the Governor mentioned, that up to $2 billion 
will be required. That is about $200 million a year if we are 
going to get it cleaned up in 10 years. Current DOE funding is 
less than one-fifth of that amount.
    We prioritized what we believe must be done at once, that 
is in the next year. First, begin remediation and removal of 
radioactive waste burial grounds. There are three plumes of 
groundwater that are moving off site and have contaminated 
trichloroethylene and radionuclides that must be contained and 
treated.
    Several drainage ditches and creeks on and off site must be 
cleaned up. Radioactive tar materials near the landfills must 
be removed, the black ooze. Non-operational buildings, C-340, 
C-410, C-420, must be investigated, stabilized, and cleaned up. 
On and offsite dump sites must be investigated and 
characterized. Drum Mountain must be removed, material buried 
under it must be characterized, and the recycling, if necessary 
or if approved, of scrap metal must be accelerated.
    Our best estimate is these activities will cost $646 
million over the next 3 fiscal years. That is an average of 
about $215 million per year and current DOE funding for the 
cleanup at Paducah has averaged about $39 million for the past 
decade.
    In summary, there is no doubt that a serious cleanup 
program is required at Paducah. We need adequate funding for 
the Paducah facility and for DOE to get about cleaning up the 
site.
STATEMENT OF RICHARD D. GREEN, DIRECTOR, REGION IV, 
            WASTE MANAGEMENT DIVISION, ENVIRONMENTAL 
            PROTECTION AGENCY
ACCOMPANIED BY JOHN JOHNSON, CHIEF, FEDERAL FACILITIES BRANCH, 
            ENVIRONMENTAL PROTECTION AGENCY

    Senator McConnell. Thank you, Secretary Bickford.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. With me today is John 
Johnson, Chief of our Federal Facilities Branch.
    EPA's role in conjunction with Kentucky at Paducah is to 
oversee DOE's cleanup. I want to acknowledge the actions taken 
so far by DOE in response to EPA's 1988 consent order, 
Kentucky's permit, and the 1998 Federal facilities agreement, 
FFA. We have worked together to take action with the most 
pressing areas, the significance of which should not be lost in 
my remarks today about the actions that are still needed.
    I also want to mention that the FFA combines hazardous 
wastes regulatory----
    Senator McConnell. You might want to put that mike in front 
of yourself.
    Mr. Green. Yes, sir.
    I also want to mention that the FFA combines hazardous 
waste regulatory requirements and Superfund requirements, cuts 
documentation virtually in half, and provides a regulatory 
vehicle to accelerate cleanup at the site.

                             Cleanup needs

    We see the cleanup needs falling in five major areas: one, 
expansion of the ongoing cleanup of contaminated groundwater; 
two, cleanup of surface water leaving the site; three, removal 
or treatment of onsite waste materials; four, decontamination 
and demolition of deteriorating buildings and other structures; 
and five, investigation of offsite disposal.
    I want to briefly summarize each area. First, groundwater. 
EPA's evaluation of DOE's data pursuant to the 1988 order has 
shown that the groundwater, which was at one time a source of 
drinking water for the nearby residents, is now contaminated. 
Because of this, this drinking water source is not available 
for use by the community now or in the foreseeable future.
    Currently, DOE is required by the consent order and the FFA 
to provide the residents in the affected area with clean 
drinking water. The long-term goal is to return the groundwater 
source to a usable state as a drinking water source. Continuing 
and expanding the recovery and treatment of the contaminated 
groundwater is necessary to meet this long-term goal. As at 
other Superfund sites, the contamination sources must be 
eliminated and the groundwater itself must be treated.
    Second, surface water. Surface water has been impacted by 
radioactive contaminants and hazardous substances discharged 
from the facility and by interaction with contaminated 
groundwater also. Two creeks flow through the site on their way 
to the Ohio River. Between the site and the Ohio, they pass 
through the West Kentucky Wildlife Management Area. Years of 
plant effluent and other releases from past operations such as 
spills have caused contamination of sediments and creek banks 
along these streams and there is evidence that some risk--there 
is evidence that contaminated groundwater seeps back into the 
creeks.
    People using these waters for recreation are at some risk, 
according to DOE's latest report, as is the ecosystem itself. 
The areas of high contamination which are sources for continued 
releases, such as the North-South Diversion Ditch and Outfall 
11 Ditch, should be excavated in order to reduce further 
contaminant migration and exposure. Additionally, these creeks 
must be thoroughly surveyed in keeping with DOE's work plan for 
this, which was submitted last month, and any areas of high 
contamination must be found and excavated.
    Third, onsite waste material. From DOE's latest report, 
there are about 37,000 cylinders of uranium hexafluoride, or 
UF6, a highly toxic radioactive substance, stored at outside 
storage areas around the facility. There is direct gamma 
radiation coming from each of them. If the cylinders are to be 
reused, the materials in the cylinders are to be reused, it 
needs to be done promptly.
    Additionally, according to DOE's latest report, there are 
more than 6,000 cubic meters of low level waste, equivalent to 
about 31,000 55-gallon drums, stored on site. About 25 percent 
of this waste is stored in some 8,000 containers outside on 
bare ground and not covered.
    There are numerous burial grounds and huge piles of 
contaminated scrap metal, such as Drum Mountain. These sources 
of waste materials continue to leak into the ground and surface 
waters and should be contained and removed or treated 
permanently.
    Fourth, building decontamination and demolition. There are 
many unused buildings, storage areas, and other structures on 
the site, some of which are causing releases of radioactive and 
hazardous substances. EPA believes that these structures should 
be decontaminated and demolished as soon as possible.
    Fifth and last, offsite disposal investigations. EPA 
expects DOE will aggressively search out and screen all 
disposal areas, as well as investigate citizen reports of 
offsite disposal. If such areas are found, contaminants will 
need to be characterized and remedies promptly implemented.
    In conclusion, the cleanup needs of the Paducah site are 
extensive, they are very important, and we believe they are for 
the most part within the range of current treatment 
technologies.
    Thank you, Mr. Chairman.
    Senator McConnell. Thank you, Mr. Green.

                         New funding structure

    Dr. Huntoon, in my opening remarks I stated I thought it 
would be a good idea if DOE took regulatory and cleanup 
respects for Paducah and Portsmouth out of the Oak Ridge 
operations office in order to focus more attention on cleanup. 
What do you think of that?
    Dr. Huntoon. Well, Senator, I am not for sure that would 
accomplish the job. We have a new manager at Oak Ridge, Leah 
Deaver, and she is engaged with us in trying to resolve some of 
these issues at both Paducah and Portsmouth. I would like to 
give her the opportunity to try that and see if she can deliver 
a better management of those two sites.
    The reason I hesitate a little bit about starting up more 
site operations at different places is because that will 
require more money being put into what we call overhead. We 
will have to have a larger staff----
    Senator McConnell. I think we are all concerned about that. 
As we all know, you spent $400 million over the last 10 years 
at Paducah, yet very little actual cleanup has occurred.
    I gather you are in the process of developing a new cleanup 
plan that prioritizes cleanup according to risk. Would that be 
accurate to say?
    Dr. Huntoon. Yes, sir.
    Senator McConnell. Will this new cleanup plan be included 
in the President's budget for next year?
    Dr. Huntoon. Yes, it will be, but it is also a 
continuation. I just want to make sure. When we talk about the 
$400 million that has been spent, a lot of that was the 
characterization of what is there, the characterization that 
was needed to work with both EPA and the Commonwealth of 
Kentucky in setting up these compliances. When someone says 
compliance they think of like a contract, but actually 
compliance is getting the work done to meet these agreements.
    So we have been doing the characterization and there has 
been some cleanup accomplished.
    Senator McConnell. Yes, but I want to look forward. Will 
the new cleanup plan be included in the President's budget? Can 
we expect the President's budget to increase funding for 
Paducah and Portsmouth? And if so, how much is going to be 
requested?
    Dr. Huntoon. I do not know that exact number. I know that 
it does include an increase in this, but it is not as much 
money as we could use.
    Senator McConnell. Well, it is your request. Why do you not 
ask for as much as you think you need and see what happens?
    Dr. Huntoon. Well, we will do that. We have asked--each 
year we have asked for the past 4 years, and we have been cut 
back on our money in the D&D funding.
    Senator McConnell. Looking at all that has happened in the 
last couple of months, why do you not ask for what you need and 
see what happens.
    Dr. Huntoon. Okay.

                       depleted Uranium cylinders

    Senator McConnell. Mr. Magwood, could you provide this 
committee an update on the Department's progress to build a 
conversion facility to deal with the 60,000 cylinders of 
depleted uranium?
    Mr. Magwood. Yes, Senator, I would be happy to. We do 
expect to issue a new draft request for proposals to the 
private sector next month. We will then receive comments from 
the private sector and issue the final RFP as soon as possible. 
We are trying very hard to get that done before the end of the 
year.
    One of the issues that is slowing us down a little bit is 
that, because of these issues that have come up related to the 
recycled material, it has been necessary for us to go back and 
search through all the records that exist to confirm that our 
depleted uranium cylinders do not contain hazardous levels of 
measurable levels of any transuranic materials.
    Senator McConnell. Is that the reason the schedule slipped?
    Mr. Magwood. That is certainly part of the reason.
    Senator McConnell. Can you confirm reports that the 
Administration is considering building only one conversion 
facility?
    Mr. Magwood. No, I can confirm that that is not true at 
this point.

                          Paducah cleanup cost

    Senator McConnell. That is not the case.
    Dr. Huntoon, in my opening statement I referred to a 1996 
memo that discussed the Department's desire to fund projects at 
Oak Ridge that do not pose a risk to worker safety or the 
environment while DOE neglects Drum Mountain. I was pleased--I 
think you made some news here a few moments ago. We are going 
to get Drum Mountain cleaned up in calendar year 2000; did I 
hear you say that?
    Dr. Huntoon. That is correct, with the additional funds 
that were made available.
    Senator McConnell. Good. We will look forward to seeing 
that done on time.
    Governor Patton testified earlier that DOE will need to 
spend approximately $1.9 billion to address the pending cleanup 
needs at Paducah. Do your calculations square with his?
    Dr. Huntoon. Senator, the calculations that I have seen to 
date--and I will go back and look at those again--run the cost 
up to about $1.2 billion total for Paducah, which is not quite 
the $2 billion that has been mentioned here. So I do not know 
the difference in those $1.2 billion versus $2. billion, but I 
will go examine that.
    Senator McConnell. According to the recently released phase 
one study, DOE is in full compliance with the Federal 
Facilities Agreement negotiated between DOE, EPA, and the 
State, which establishes DOE's cleanup objectives. The phase 
one investigation points out that very little cleanup has 
occurred. Since the Federal Facilities Agreement is not worth 
the paper it is written on, will you commit to renegotiate a 
new agreement that actually makes cleanup and not testing its 
mission?
    Dr. Huntoon. We are meeting with these regulators on 
November 8 and 9, and I hope we will have a better strategy and 
some agreements coming out of that meeting.
    Senator McConnell. You heard David Fuller testify that 
workers disposed of radioactive waste material around the DOE 
reservation, much of which remains unidentified. How do you 
explain that and what are you doing to address it?
    Dr. Huntoon. Well, Senator, I do not know what years he was 
talking about. I cannot explain it. I think it is regrettable, 
to say the least.
    Senator McConnell. In other words, your answer is it was 
not on your watch, right?
    Dr. Huntoon. Well, it was years ago. I do not know exactly 
when the disposal was occurring. We are out there trying now to 
find out what is in some of these disposal units, and that is 
one of the things that has gone slowly because the people that 
are actually doing the work to dig up these sites and try to 
determine what is there and how to deal with them, we have to 
protect them also, as well as the environment, from digging up 
sites.
    I do not know how to explain that they were buried. That 
was a common practice in the past.

                        additional Cleanup sites

    Senator McConnell. Well, looking forward, then, looking 
forward, then, in reviewing the cleanup plans published by the 
Department I have not found mention of a cleanup strategy for 
the S and T landfills. Knowing that there is radioactive 
material in and around these sites, how does this change the 
overall cleanup strategy?
    Dr. Huntoon. Well, we do have a strategy to deal with those 
landfills. Originally I think a part of it was to leave them 
and cap them in place. We are now re-examining that about 
digging them up, characterizing them, and moving the 
radioactive containing materials away from the site. That is 
part of our plan.
    Senator McConnell. What about Little Bayou Creek and Big 
Bayou Creek? What action will be taken to mitigate that 
contamination?
    Dr. Huntoon. Those areas are being looked at. Of course, 
the issue of all of our groundwater and surface and subsurface 
migration into various areas is a concern. We are working on 
that. We are working it back at the source where this stuff is 
coming from, trying to deal with that, and we will be trying to 
clean up these creek beds and all as best we can.
    We have got two strategies under way with some new 
technology on trying to get to the groundwater issues with 
these plumes that were discussed and a new technology is being 
applied for the first time down at Paducah and it is doing very 
well. So we have hopes of dealing with the groundwater and the 
surface water, particularly the runoffs into these creeks.

                    Bechtel-Jacobs cleanup contract

    Senator McConnell. The phase one report found a number of 
problems with the current cleanup contract with Bechtel-Jacobs. 
My understanding is that this new contracting scheme requires 
the company to subcontract all the work, which has resulted in 
several safety lapses. Is the Department considering changing 
this new contracting scheme to improve worker safety?
    Dr. Huntoon. We have asked Bechtel to come back to us with 
a plan for improving the safety of the workers and the 
protection of the workers and the environment, as well as the 
people around the site. That report is due to us before the end 
of November.
    I am concerned as I read the report, as you are, about the 
subcontracting issue, the safety not being transferred, if you 
will, into all the subcontractors. We have to have a plan 
brought forward for that.

                  layoffs at Gaseous diffusion plants

    Senator McConnell. Considering the fact there are likely to 
be significant layoffs at the two gaseous diffusion plants next 
summer, what specific steps are being taken to minimize the job 
loss and transition as many workers as possible into the 
cleanup?
    Dr. Huntoon. Well, I know that both the USEC and Bechtel 
management have been talking about this. I talked with the 
union workers when I was down at Paducah about their concerns 
about this area. I asked David Fuller this morning when I saw 
him had that been progressing in their discussions and he said 
somewhat, but he was not, as he testified, satisfied with that 
progression.
    So, we will continue working that issue. Part of it has to 
do, as you know with the movement from the M and I contractor 
to the subs as they are hiring these people, and these same 
workers that could be hired for those jobs are working for USEC 
and may get laid off in the summer. So it is a transition issue 
that has to be worked between the contractors and the union, I 
believe.

                     use of Paducah cleanup funding

    Senator McConnell. During Senator Bunning's field hearing 
in Paducah, Jimmy Hodges, the former DOE site manager, 
testified that 89 percent of the cleanup dollars spent at 
Paducah were spent to remain in compliance and not directed 
toward now cleanup. Recently, you visited Paducah and stated 
that cleanup ``is in the eye of the beholder.''
    I do not believe your statement rings true, considering the 
fact that DOE has failed to even identify many of the wastes or 
go after the most pressing cleanups that continue to contribute 
to the groundwater pollution. When are we going to get a better 
return on our investment in Paducah?
    Dr. Huntoon. I am hoping that you will be seeing that in 
the very near future. As I said in you statement and again to 
you when we were discussing this a few minutes ago, we had to 
characterize what was there, because if you go in and just 
start trying to move things out you can endanger the workers 
who are actually doing the actual work, and we do not want to 
do that. We want to protect the safety of the workers.
    So the characterization of these various most risky spots 
had to be our first priority, and we have been doing that. We 
have done some space storage of some legacy wastes. We have 
gotten that. We have done the surveillance. We shut down some 
facilities. We have been operating this landfill trying to get 
things contained within it. And we have been doing this 
groundwater work, which has not been a small task as far as 
trying to understand these plumes as they are moving across the 
site.
    Actually, right now we have 165 wells that we monitor often 
to make sure that we are trying to contain these plumes. We 
have two processes of pump and treat that are under way with 
these ground plumes, and we are also trying a process called 
``Lasagna'' to try to get at the subsurface contamination to 
stop the source.
    So a lot of work is being done in those areas, Senator, 
that is not terribly visible, but very important as far as we 
are concerned with the risk to the environment and to people.
    Senator McConnell. You know, as you sort of lean back in 
your chair and think about the last 2 months and the public's 
reaction beginning with the Washington Post story, it seems to 
me there has been a tendency on the part of everybody to sort 
of point the finger at somebody else. Either it is not on my 
watch or I do not have enough money or it is somebody else's 
problem.
    Let me suggest that it is all of our problem and, 
regardless of what may have happened in the past, it seems to 
me the best way to proceed is to quit the finger-pointing, to 
put in the President's budget request early next year what you 
think you can usefully spend on both worker safety, monitoring, 
health concerns, and cleanup, and then we will do our dead 
level best to get the money for you. I think that people in 
Paducah are tired of the finger-pointing. They really do not 
care at this point who is responsible for what.
    What they want to know is what kind of condition are we in 
now if we used to work there or currently work there, what is 
my physical condition, A; and B, what are we doing to clean 
this mess up, and what is the soonest we could do this. And it 
seems to me it is your responsibility to come up with a game 
plan that gets us there.
    Then, if we cannot produce the funds up here, then you have 
every right to point fingers. Do you not think that is a good 
way for us to proceed?
    Dr. Huntoon. Yes, sir, it is.
    Senator McConnell. Senator Craig has come in and I do not 
know whether he is here to ask questions or because he is just 
mesmerized by the subject or what.
    Welcome, Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman.
    I am not mesmerized by the subject. I, like many of us, am 
focused well on it because of the issue of our Cold War legacy 
and the responsibility at these laboratories for these cleanups 
to go forward and to lessen, where it exists, the threat to the 
public.
    We have expended a great deal of money over the last decade 
and will spend a great deal more, and I think your hearing this 
morning demonstrates that. So I was really here to listen and 
to become more focused on Paducah. I have a laboratory in my 
State, as do other Senators, and we are extremely concerned 
that they are well managed and that when it comes to waste we 
handle it.
    We have struggled mightily over the years trying to 
convince the public that we can handle waste appropriately and, 
as you know, that has been a difficult debate here. Some would 
prefer that you folks down at Paducah leave it where it is; it 
is your problem, it is not the country's problem. That is not 
the case at all. It is a national problem.
    I guess my only comment to you, Carolyn, would be, when I 
am sitting here listening I am trying to make comparisons in my 
mind of the problem at Paducah relative to other facilities. Am 
I right to assume that, depending on that facility's role and 
what it did--how does the Paducah problem compare?
    Dr. Huntoon. Well, Senator Craig, as I mentioned in my 
statement, I traveled around to most all of our sites that the 
Office of Environmental Management is trying to remediate, 
clean up, and contain. I have just been really struck with the 
amount of work that we have to do out there. Idaho alone has a 
tremendous groundwater problem, sitting on the aquifer that it 
is. We have a lot of contaminants in the ground and we are 
trying, and they are doing a pretty good job of remediating 
that.
    Senator Craig. At least we think we have got that one 
contained until we exhume, of course.
    Dr. Huntoon. Until we exhume it.
    Senator Craig. Here it does not sound that that is the 
case.
    Dr. Huntoon. That is the case. There is an estimate of 1.7 
trillion gallons of contaminated groundwater from our nuclear 
war waste in this country, 1.7 trillion gallons--this is across 
the complex--that we are dealing with at all the sites.
    So Paducah has a groundwater problem, but so does Idaho, so 
does Washington, and Savannah River, and Oak Ridge has a 
tremendous problem. So we are trying to balance those problems 
with our resources.
    The scrap metal that we see around, we have got 202,000 
tons of scrap metal at various sites around the country, and we 
have got 65,000 tons down at Paducah. Low level waste is all 
over. We have 8.1 million cubic meters of low level waste 
around the complex. We have 110,000 cubic meters down at 
Paducah.
    Paducah is serious. Paducah has not been dealt with as it 
should have been and as we will hope to do in our immediate 
future. But we have got these same issues at every complex in 
this country.
    Senator Craig. Well, I agree with my colleague: Come tell 
us what you need.
    Dr. Huntoon. Okay.
    Senator Craig. Let us determine as best we can how to 
prioritize, of course with your input. But where we have got 
people at risk, obviously priorities are key.
    Dr. Huntoon. Well, and people ask how do you make these 
decisions, and we make them based on risk. We try to do that. 
We try to protect the people, the workers, the people that are 
surrounding these sites, and the environment, because we have 
got--just as we are concerned about the plumes at Paducah 
heading toward the river, we are concerned about what is going 
on up in Washington heading toward the Columbia River.
    Senator Craig. That is correct.
    Dr. Huntoon. We are concerned about the aquifer in Idaho, 
we are concerned about the Savannah River down in South 
Carolina. So we do try to protect the environment, but we are 
mostly concerned about the safety of the workers.
    Senator Craig. Thank you.
    Thank you very much, Mitch, Senator McConnell.
    Senator McConnell. I think what I am going to do here is, I 
had questions for Secretary Bickford and Mr. Green, which I 
think I am going to submit to you folks in writing, and if you 
could get those back in within a couple of weeks I would 
appreciate it.
    It has been a long hearing, but I think very productive, 
and I want to thank you, Dr. Huntoon, for your candor and 
underscore what Senator Craig just said. I might say about my 
friend and colleague Senator Craig, he knows about as much 
about these issues as anybody in the Senate, maybe more than 
anybody in the Senate. We tend to look to him when this subject 
comes up and, even though Paducah is not in Idaho, I wanted to 
express my gratitude to him for coming by.
    It is a huge issue in my State, as you can imagine, and we 
look forward to getting a request in the President's budget 
that will give us a chance to make some real progress.

                         conclusion of hearing

    I also want to thank you for your commitment to get rid of 
the drums next calendar year. That would be a visible sign of 
progress that I think everyone could applaud.
    With that, this hearing is concluded. Thank you.
    [Whereupon, at 12:13 p.m., Tuesday, October 26, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
